<html>
<title> - PUBLIC HEALTH AND DRINKING WATER ISSUES</title>
<body><pre>[Senate Hearing 112-818]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 112-818
 
                PUBLIC HEALTH AND DRINKING WATER ISSUES 

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 2, 2011

                               __________

  Printed for the use of the Committee on Environment and Public Works

       Available via the World Wide Web: http://www.fdsys.gpo.gov

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

85-223 PDF                       WASHINGTON : 2014 

  For sale by the Superintendent of Documents, U.S. Government Printing 
    Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
       Fax: (202) 512-2104 Mail: Stop IDCC, Washington, DC 20402-0001 


               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      ONE HUNDRED TWELFTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
FRANK R. LAUTENBERG, New Jersey      JOHN BARRASSO, Wyoming
BENJAMIN L. CARDIN, Maryland         JEFF SESSIONS, Alabama
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico                MIKE JOHANNS, Nebraska
JEFF MERKLEY, Oregon                 JOHN BOOZMAN, Arizona
KIRSTEN GILLIBRAND, New York

       Bettina Poirier, Majority Staff Director and Chief Counsel
                 Ruth Van Mark, Minority Staff Director



                            C O N T E N T S

                              ----------                              
                                                                   Page

                            FEBRUARY 2, 2011
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Inhofe, Hon. James M, U.S. Senator from the State of Oklahoma....     3
Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland     7
Johanns, Hon. Mike, U.S. Senator from the State of Nebraska......     8
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................     9
Barrasso, Hon. John, U.S. Senator from the State of Wyoming......    11
Merkley, Hon. Jeff, U.S. Senator from the State of Oregon........    13
Boozman, Hon. John, U.S. Senator from the State of Arkansas......    13
Udall, Hon. Tom, U.S. Senator from the State of New Mexico.......    13

                               WITNESSES

Jackson, Hon. Lisa, Administrator, Environmental Protection 
  Agency.........................................................    14
    Prepared statement...........................................    15
    Responses to additional questions from:
        Senator Boxer............................................    19
        Senator Inhofe...........................................    26
        Senator Carper...........................................    42
        Senator Lautenberg.......................................    45
        Senator Whitehouse.......................................    47
        Senator Boozman..........................................    48
            EPA, Emergency Administrative Orders:
                Region 6, Final Peer Review, Range Resources 
                  Corporation and Range Production Company.......    49
                Region 8, Draft IRIS Toxicological Review, Murphy 
                  Exploration & Production Co., Pioneer Natural 
                  Resources USA, Inc., and Samson Hydrocarbons 
                  Co.............................................    60
Birnbaum, Linda, D.A.B.T., A.T.S., director, National Institute 
  of Environmental Health Sciences and National Toxicology 
  Program........................................................   103
    Prepared statement...........................................   105
Cook, Kenneth A., president, Environmental Working Group.........   126
    Prepared statement...........................................   127
    Study, Chromium-6 in U.S. Tap Water..........................   133
    Responses to additional questions from:
        Senator Boxer............................................   156
        Senator Carper...........................................   157
        Senator Lautenberg.......................................   157
VanDe Hei, Diane, executive director, Association of Metropolitan 
  Water Agencies.................................................   158
    Prepared statement of Carrie Lewis...........................   159
    Responses to additional questions from:
        Senator Boxer............................................   163
        Senator Inhofe...........................................   164
        Senator Lautenberg.......................................   167
        Senator Carper...........................................   167
Murray, Charles, general manager, Fairfax Water..................   168
    Prepared statement...........................................   170
    Responses to additional questions from:
        Senator Inhofe...........................................   172
        Senator Carper...........................................   174
Burke, Thomas A, Ph.D., MPH, professor and associate dean for 
  Public Health Practice, Johns Hopkins Bloomberg School of 
  Public Health, Director of the Johns Hopkins Risk Sciences and 
  Public Policy Institute........................................   174
    Prepared statement...........................................   176

                          ADDITIONAL MATERIAL

Statement, Lewis, Steve, city manager, City of Norman, OK........   187
    Responses to additional questions from:
        Senator Boxer............................................   188
        Senator Inhofe...........................................   188
        Senator Lautenberg.......................................   190
        Senator Carper...........................................   190


                PUBLIC HEALTH AND DRINKING WATER ISSUES

                              ----------                              


                      WEDNESDAY, FEBRUARY 2, 2011

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m. in room 
406, Dirksen Senate Office Building, Hon. Barbara Boxer 
(chairman of the committee) presiding.
    Present: Senators Boxer, Inhofe, Lautenberg, Cardin, 
Whitehouse, Udall, Merkley, Barrasso, Johanns, and Boozman.

STATEMENT OF HON. BARBARA BOXER, U.S. SENATOR FROM THE STATE OF 
                           CALIFORNIA

    Senator Boxer. Good morning, everybody. The Committee will 
come to order.
    We have called this hearing today to focus on a public 
health issue that touches every family in every community 
across the country: the quality of our Nation's drinking water. 
Congress passed the Safe Drinking Water Act in 1974 to protect 
public health by creating consistent and strong safeguards for 
the Nation's public drinking water supply.
    The words that President Ford spoke when he signed this 
legislation into law are as true today as they were then, so I 
am going to quote him. He said, ``Nothing is more essential to 
the life of every single American than clean air, pure food and 
safe drinking water.'' He went on to say, there have been 
strong national programs to improve the quality of our air and 
the purity of our food. This bill, meaning the Water Bill, will 
provide us with the protection we need for drinking water.
    So President Ford, I believe, had it right. I think we need 
to live up to the spirit of this law and the letter of this 
law.
    Congress last amended significant portions of the Act in 
1996, strengthening public health protections and expanding the 
public's right to know about the quality of the water that they 
drink. The House passed these amendments 392 to 30; the Senate 
passed them unanimously.
    Both of the distinguished witnesses on our first panel, 
Administrator Jackson and Director Birnbaum, are leading 
efforts to use the best available science to protect the public 
health. Administrator Jackson, EPA's very mission, as you know, 
is to protect human health and the environment. You have told 
us that many times. A core principle of your agency is ``to 
ensure that national efforts to reduce environmental risks are 
based on the best available scientific information.'' That is 
what you have told us.
    As I said last week when I participated at a town hall at 
EPA headquarters, the mission that you undertake every day, 
Administrator Jackson, is critically important to children and 
to families, the elderly in communities large and small all 
across our great country. Your mission matters. It is a mission 
created with bipartisan support and one that has made huge 
strides to improve our families' and our Nation's health.
    The EPA is also charged with making the final decision on 
whether to develop safeguards for new threats to drinking 
water, such as chromium VI and perchlorate. We would like to 
applaud your announcement today, Administrator Jackson, that 
the EPA will move forward to establish a national drinking 
water standard for perchlorate. Perchlorate is a toxic chemical 
contained in rocket fuel. It does not belong in our drinking 
water. Yet, according to the Government Accountability Office, 
EPA data show that perchlorate has been found in 35 States and 
the District of Columbia, and is known to have contaminated 153 
public water systems in 26 States.
    The Bush administration never did set a drinking water 
standard for perchlorate, leaving millions of Americans in 
dozens of states at risk. But after reviewing the science, you 
reversed that decision, and I applaud you for that. I look 
forward to the agency moving quickly to put in place a strong 
national standard to protect public drinking water from this 
dangerous contaminant.
    Chromium VI is another drinking water contaminant that I 
have urged the Federal Government to address. Chromium is used 
to make steel, metal plating and other materials. We all know 
the story of Erin Brockovich, who worked to help the people in 
Hinkley, California, who were drinking water contaminated by 
chromium VI. In 2008, the National Toxicology Program concluded 
that chromium VI in drinking water shows ``clear evidence of 
carcinogenic activity in laboratory animal tests.''
    In 2009, my home State of California proposed a public 
health goal for chromium VI of 0.06 parts per billion. One year 
later, in 2010, my State strengthened its proposal to .02 parts 
per billion, based on the need to protect infants and children 
from danger-causing substances. We all know that infants, 
children and pregnant women are far more vulnerable to these 
toxins.
    In September 2010, EPA released a draft scientific 
assessment that found chromium VI in drinking water is ``likely 
to be carcinogenic to humans.'' The agency had said it expects 
to finish this assessment in 2011.
    The non-profit Environmental Working Group released a 
report that provided us with a snapshot in time on chromium VI 
levels in some drinking water systems. They found chromium VI 
in the drinking water in 31 cities across our country. I 
believe the Federal Government must act quickly to develop 
needed safeguards to reduce the threats in our Nation's 
drinking water. I look forward to hearing about the work that 
EPA is engaged in to address chromium VI and other emerging 
contaminants.
    I do want to welcome our new members, Senator Johanns. We 
welcome you, sir, we are delighted you are with us. Also 
Senator Sessions and Senator Boozman are also new members. I 
want to welcome them, even though they are not here. They will 
be strongly welcomed by all of us. Thank you.
    Senator Inhofe.

STATEMENT OF HON. JAMES M. INHOFE, U.S. SENATOR FROM THE STATE 
                          OF OKLAHOMA

    Senator Inhofe. Thank you, Madam Chairman, for taking time 
to continue our discussions on the Federal drinking water 
program. I know that everyone in this room agrees that we all 
need safe, clean, drinking water.
    To carry out this priority effectively, we need resources, 
but we also need sound policy based on the best available 
science. Madam Chairman, I counted in your opening statement, 
you said the same thing three times, best available science. I 
feel confident that the recent drinking water report by the 
Environmental Working Group, which we are working on today, 
does not fall into that category. Simply put, the report is 
biased, and therefore the conclusions are skewed to fit a 
particular viewpoint, or I should say agenda, perhaps.
    What is more, the Environmental Working Group has rejected 
transparency, one of the fundamental practices of good science. 
When the city officials from Norman, OK requested the 
Environmental Working Group's testing methodology, they said 
no. Without transparency, without the ability of other 
scientists to replicate your work, you can't have good science.
    Due to the snowstorm in Oklahoma, Steven Lewis, who was 
going to be one of our witnesses, and I appreciate your 
allowing him to come, however, he can't come, because he can't 
get here. He was unable to travel here. His testimony can help 
us put some context around the Environmental Working Group's 
flawed findings and help us understand the robust public health 
protections Norman has in place. That is Norman, OK.
    He has agreed to answer the followup questions that the 
Committee might have, and I would respectfully request, of 
course, that his testimony be part of the record.
    Senator Boxer. Yes, without objection, so ordered.
    [The prepared statement of Mr. Lewis follows on page 187.]
    Senator Inhofe. I also welcome the testimony of Charles 
Murray, city manager for Water from the city of Fairfax. Some 
of these guys are going to have to do double duty, since my 
witness couldn't show up today. Mr. Murray will no doubt 
provide some practical insights into how local water systems 
are dealing with chromium VI and other drinking water mandates.
    I also want to make a special note and welcome the 
Administrator, Lisa Jackson. Administrator, it is good to see 
you, as always. I want to thank you for your willingness last 
year to work with me specifically and my staff on some of the 
real difficult issues. I also want to thank you for your help 
on passing several key pieces of legislation that were drafted 
in this Committee. With your help, we passed a bill to reduce 
lead in drinking water and a bill to provide grants to States 
to reduce diesel emissions.
    I want you to know that I sent a spy into your office and 
they tell me that the picture of my 20 kids and grandkids are 
still there. So I appreciate that, too.
    [Laughter.]
    Senator Inhofe. As we look at the next 2 years, obviously 
there are many contentious issues ahead, many issues where we 
have fundamental disagreements. They include, and we have 
talked about, among the Republicans on this side of the aisle, 
and particularly the three new ones we are welcoming to this 
Committee. That is, regulating the greenhouse gases under the 
Clean Air Act. This is something that Congressman Upton and I 
have a joint--we were going to announce this today and 
apparently it got out last night instead, so we will be talking 
about that. The boiler MACT, the utility MACT, PM dust, that is 
regulating dust on farms. Those of us in western States 
understand that if you have cotton and you have dirt and you 
have wind, you are going to have dust. We need to talk about 
that. The ozone changes that are recommended. Then hydraulic 
fracturing, I may have some questions today on that.
    So we disagree on this issues, yet we have in the past and 
let's keep an open line of communication. Administrator 
Jackson, I am sure we will, because there could be areas where 
we can reach agreement as we did before. The lead bill and the 
diesel bill are just two examples of what we can do. So I wish 
you all the best as we head into the new Congress.
    Now, let me welcome our three new members. Senator Sessions 
is not here. He was on the Committee some time ago, then 
dropped off, and he is back now. Senator Boozman will be here. 
He has been a very good friend of mine for many years, from 
Arkansas. Senator Johanns will have a lot to offer. Having been 
the Secretary of Agriculture, he brings an abundance of 
knowledge to this Committee. So we welcome our new members 
here, and thank you, Madam Chairman.
    [The prepared statement of Senator Inhofe follows:]
       Statement of Hon. James M. Inhofe, U.S. Senator from the 
                           State of OKlahoma
    Thank you, Madam Chairman, for taking the time today to continue 
our discussions about Federal drinking water programs. I know that 
everyone in this room agrees that clean, safe, affordable drinking 
water is essential, and should be a national priority.
    To carry out this priority effectively, we need resources, but we 
also need sound policy, based on the best available science. I feel 
confident that the recent drinking water report by the Environmental 
Working Group, which we are focusing on today, does not fall in that 
category.
    Put simply, the report is biased, and therefore the conclusions are 
skewed to fit a particular view point. What's more, the EWG has 
rejected transparency, one of the fundamental practices of good 
science. When city officials from Norman, Oklahoma requested EWG's 
testing methodology, EWG said no. Without transparency--without the 
ability of other scientists to replicate your work--you can't have good 
science.
    We've seen this scenario before. An activist group publishes a 
study--in this case, on chromium-6--making a dramatic finding about 
some kind of harm to the environment or public health. Rarely, however, 
are the findings of such studies carefully scrutinized or rigorously 
analyzed in the media.
    EPA already regulates chromium in all its valance forms, 0, 3 and 
6, together in its total chromium MCL-G and MCL. While chromium-3 is an 
essential nutrient that we need to properly metabolize glucose, protein 
and fat, chromium-0 and chromium-6 are of concern to public health. As 
recently as March 2010, EPA had determined that the 100 ppb MCL for 
chromium is still protective of human health, based on the science 
available, but that they were examining the new science.
    The new science that EPA is currently examining is from a 2007 
National Toxicology Program study showing the potential carcinogenic 
properties of chromium-6. In the press release on the study's findings, 
the NTP noted that:
     ``rats and mice were given four different doses of [chromium-6] in 
their drinking water ranging from 14.3 milligrams/liter to 516 
milligrams/liter for 2 years. The lowest doses given to the animals in 
the study were ten times higher than what humans could consume from the 
most highly contaminated water sources identified in California.''\1\
---------------------------------------------------------------------------
    \1\ ``Hexavalent Chromium in Drinking Water Causes Cancer in Lab 
Animals,'' NIH Press Release May 16, 2007, http://www.nih.gov/news/pr/
may2007/niehs-16.htm
---------------------------------------------------------------------------
    As a result of this study, EPA is proposing to classify chromium-6 
as ``likely to be carcinogenic'' to humans via ingestion. As of now, 
EPA plans to make a final determination about the carcinogenicity of 
chromium-6 in 2011. The agency has a lot of intensive scientific work 
to do. I would encourage EPA to ensure that it considers all of the 
best available science when making its final decision and not rush to 
conclusions.
    Additionally, EPA needs to do a better job of communicating to the 
public the process they are going through. Good science sometimes seems 
frustratingly slow. However, when we are making decisions about how to 
spend limited resources and ensure we're focusing on the contaminants 
of highest public health concern, we have an obligation to get it right 
the first time.
    Unfortunately, none of this helps Norman, or the 30 other 
communities singled out by the EWG. The residents are surely confused 
about the EWG's study. At first glance, the findings seem ominous, but 
upon closer inspection, one can see how the study, particularly how it 
was couched, is mainly hype.
    Let's take Norman as an example. The EWG found that Norman's tap 
water had a 12.5 ppb concentration of chromium-6. Of course that 
concentration is significantly lower than the 100 ppb drinking water 
standard set by EPA. What's more, it's almost meaningless when compared 
to the 14,300-516,000 ppb concentration that caused cancer in rats in 
the NTP study.
    So what was EWG's reference point? EWG compared its samples to the 
draft California health goal of 0.06 ppb, which they argued was too 
high. California public health goals are not regulatory, but instead 
set to a standard under which no adverse health effects occur over a 
lifetime, or a one in a million chance of this contaminant contributing 
to cancer. Additionally, around the same time as this report the 
California Cancer Registry survey for Hinkley, CA, where the now famous 
Erin Brockovich case was settled, found that Hinkley did not have any 
statistical increase in cancer during the time when people drank water 
that exceeded 550 ppb.\2\
---------------------------------------------------------------------------
    \2\ ``Fewer cancers found in Hinkley than expected,'' Louis 
Sahagun, LA Times, December 13, 2010. http://www.latimes.com/news/
local/la-me-hinkley-cancer-20101213,0,7881571.story
---------------------------------------------------------------------------
    Furthermore, this was no random sample of 35 cities. EWG says in 
their report that, ``Over the years, nearly all of the 35 cities tested 
by EWG regularly report finding chromium (in the form of total 
chromium) in their water despite using far less sensitive testing 
methods than those used by EWG.''\3\
---------------------------------------------------------------------------
    \3\ Chromium-6--the Erin Brockovich Chemical--Is Widespread in U.S. 
Tap Water, Environmental Working Group, December 20, 2010 http://
static.ewg.org/reports/2010/chrome6/html/home.html
---------------------------------------------------------------------------
    This is one of many oddities in the EWG study.
    A basic tenet of good science is transparency--that is, sharing 
your data and assumptions so other scientists can replicate your work. 
In this case, the EWG has taken the opposite course. City officials in 
Norman pressed EWG for basic information on its study, such as where 
and when EWG sampled water. Thus far, EWG refused to answer, indicating 
to me at least that EWG either lacks confidence in its methods and 
conclusions or did not intend this report to be more than a scare 
tactic. Otherwise, what is EWG trying to hide?
    It is clear that the EWG report was released to influence both 
California and EPA to take some action on chromium-6, which both have. 
California announced it was lowering its public health goal and EPA put 
out guidance for drinking water systems on how to test for chromium-6, 
though they gave no indication of how to report the potential health 
effects to consumers.
    I hope that we can have rational discussions about how to properly 
regulate contaminants in drinking water. In this case, as in others, 
political tracts disguised as scientific studies are taken as fact, and 
the consequence is usually more regulation. That in turn can mean high 
costs for little or no benefit for local communities.
    In 1996, Congress successfully amended the Safe Drinking Water Act, 
and set up a system to ensure that we regulate substances in drinking 
water in a scientifically sound way. EPA is required to set standards 
if contaminants ``have known health effects,'' and are ``known to occur 
in public water systems with a frequency and at levels of public health 
concern,'' not simply because they catch media attention.
    This committee has had success in dealing with drinking water 
issues in the past. In fact, just last Congress, Madam Chairman, you 
and I were able to co-sponsor and pass legislation clarifying the 
definition of ``lead free'' as it relates to drinking water--lowering 
the statutorily allowable limit from 8 percent to 0.25 percent.
    I would also like to take the opportunity to remind the Committee 
that we need to improve our nation's drinking water facilities by 
reauthorizing the State Revolving Loan Fund programs, both for drinking 
water and waste water. We cannot expect our communities to continue to 
provide safe drinking water if they do not have the resources to meet 
their infrastructure needs. This committee has the responsibility to 
ensure clean, safe, and affordable water for our country by providing 
the necessary resources to our states and local governments.
    EPA estimates that over the next 20 years, eligible drinking water 
systems will need over $300 billion in infrastructure investments, and 
that is not taking into account treatment costs for any of the 
chemicals we are discussing being added. I look forward to working with 
you and the Chair and Ranking Members of the Water Subcommittee on our 
next bill.
    Due to the severe snow fall in Oklahoma, Steven Lewis, the City 
Manager from Norman was unable to travel to be with us today. Mr. 
Lewis's testimony can help put some context around the EWG's findings, 
and help us understand the robust public health protections Norman has 
in place. He has agreed to answer any follow-up questions that the 
committee may have. I would respectfully request that Mr. Lewis's 
testimony be included for the record. I also welcome the testimony of 
Charles Murray, General Manager for water for Fairfax County, across 
the river in Virginia. Mr. Murray will no doubt provide some practical 
insights into how a local water system is dealing with chromium-6 and 
other drinking water mandates.
    I also want to make special note to welcome EPA Administrator Lisa 
Jackson. Administrator, it's good to see you. I want to thank you for 
your willingness last year to work with me and my staff on some very 
difficult issues. I also want to thank you for your help in passing 
several key pieces of legislation that were drafted in this committee. 
With your help, we passed a bill to reduce lead in drinking water and a 
bill to provide grants to states to reduce diesel emissions.
    As we look to the next 2 years, obviously there are many 
contentious issues ahead--many issues where we have fundamental 
disagreements. They include:

    <bullet>  Regulating greenhouse gases under the Clean Air Act;
    <bullet>  The Boiler MACT;
    <bullet>  The Utility MACT;
    <bullet>  PM Dust;
    <bullet>  Ozone; and
    <bullet>  Hydraulic Fracturing

    Yes, we disagree on these issues. Yet, as we have in the past, 
let's keep an open line of communication, because there could be areas 
where we can reach agreement. The lead bill and the diesel bill are 
just two examples of what can happen if we do that.
    So Administrator Jackson, I wish you all the best as we head into a 
new Congress. Thank you for coming today, and I look forward to your 
testimony.
    I would also like to extend a warm welcome to our new Republican 
members to our Committee this Congress. Welcome Senator Sessions, 
Senator Johanns and Senator Boozman. We are happy to have you on our 
committee and look forward to working with you this Congress. And a 
welcome back to all our returning committee members, Republican and 
Democrat.
    Thank you again, Madam Chairman, for holding this important 
hearing, and I look forward to hearing from all of our witnesses.

    Senator Boxer. Thank you so much. Senator.
    I just want to go through the order of arrival on our side. 
It is Boxer, Cardin, Lautenberg, Merkley, Udall. On the 
Republican side, Inhofe, Johanns and Barrasso.
    So we will now go to Senator Cardin.

  STATEMENT OF HON. BENJAMIN L. CARDIN, U.S. SENATOR FROM THE 
                       STATE OF MARYLAND

    Senator Cardin. Thank you, Madam Chair, and thank you for 
calling this hearing on this extremely important subject. 
Welcome, Administrator Jackson and Dr. Birnbaum, to our 
Committee. We look forward to your continuing to work with us 
to make sure that all people in this country have clean and 
safe water.
    I think for many years in the wake of seminal laws like the 
Clean Water Act and the Safe Drinking Water Act, many of us 
took for granted that our water would be safe. But when you 
hear the stories and accounts now that we are finding chromium 
VI in our water supplies, it raises serious questions as to 
whether we are doing everything we need to make sure our water 
supplies are safe. I add to that the fact that my constituents 
of Prince Georges County had to boil water because of water 
main breaks. That also raises questions as to the availability 
of clean, safe water to the people of this Nation.
    That is why I am so glad we have the Environmental 
Protection Agency, whose job it is under the Safe Drinking 
Water Act to study chemicals and compounds in our drinking 
water and decide what is safe and what isn't, and set standards 
for treatment that protect that health. It is a job that agency 
did today when it reversed the Bush-era decision and announced 
that it will set standards for perchlorate, a chemical that we 
know impairs brain development in fetuses and young children. I 
congratulate the EPA for doing that, Administrator Jackson.
    I feel better, and I think my constituents feel better, 
knowing that we can turn to Administrator Jackson, a fierce 
protector of public health and the environment, and ask, what 
does it mean when the Environmental Working Group found that 
chromium-6 is in tap water in Bethesda, MD, and what should we 
do about it. We know that not only is it her job to tell us, 
but she has, and her staff has, the scientific knowledge and 
skills to give us the answers or will work to find the answers 
to those issues.
    But for 400,000 Marylanders and those in Prince Georges 
County that spent much of last week boiling their water, know 
that it is not just getting the dangerous chemicals, that is 
not enough to make the water supply safe. For high quality 
water, we need high quality water infrastructure.
    On Monday of last week, a major water main break in Prince 
Georges County not only destroyed cars and caused serious 
damage to a local business park, it shut down a portion of the 
Capital Beltway, it disrupted regular work of the Census Bureau 
headquarters and Andrews Air Force Base, it shut down local 
businesses and schools and required 400,000 residents to boil 
their water to ensure its safety. That task I am sure was made 
much more difficult during the snow storm when power was cutoff 
to many of those residents.
    We had another dramatic break in Maryland in recent years 
when we saw River Road in Bethesda turn literally into a river, 
requiring motorists to be rescued by helicopters and boats. In 
October 2009, a thousand basements in Dundalk, MD, were 
underwater. In March 2010, thousands more homes and businesses 
along major thoroughfares in Baltimore County were left without 
water.
    Madam Chair, this story could be told in just about every 
community in our country. The major water main breaks that have 
become near epidemic in our region and elsewhere tell us that 
major parts of the system are too old and too frail to hold 
together too much longer. The breaks are more than an 
inconvenience, they can endanger the health and safety of our 
citizens, as well as disrupt economic activity and our national 
security.
    That is one of the reasons why our water infrastructure has 
been given a rating of D minus by our national engineers. The 
Environmental Protection Agency estimates that more than $340 
billion will be needed over the next 20 years to meet the 
Nation's drinking water infrastructure needs.
    For these reasons, I have asked the President to include 
water in his 6-year plan for infrastructure investment. While 
water mains are less visible than roads and bridges, they are 
just as important to our economy and in equally desperate need 
of repair. That is why as Chairman of the Water and Wildlife 
Subcommittee, I will have no higher priority than 
reauthorization the Water Infrastructure Financing Act. I look 
forward to working with Administrator Jackson, Chairman Boxer, 
Senator Inhofe and the members of our Committee to report out 
again, I hope, a Water Infrastructure Financing Act, and 
hopefully to get it enacted.
    Thank you, Madam Chair, and I thank you once again for 
holding this hearing.
    Senator Boxer. Thank you very much.
    Senator Boozman, we welcomed you, both sides, and we are 
very happy to see you here today.
    Senator Boozman. Thank you, Madam Chair.
    Senator Boxer. So, Senator Johanns.

STATEMENT OF HON. MIKE JOHANNS, U.S. SENATOR FROM THE STATE OF 
                            NEBRASKA

    Senator Johanns. Thank you very much, Madam Chair.
    As you pointed out, this is my first meeting, so it is kind 
of my maiden voyage on this Committee. I won't speak long.
    I just wanted to offer a thought or two if I could to maybe 
frame how I am thinking about this and what I will be 
interested in as you testify and we ask questions. In another 
life, some years ago, I had the privilege to serve the city of 
Lincoln as their mayor for two terms. The city of Lincoln, NE, 
has a strong mayor form of government, so the mayor is not only 
the mayor in terms of the ceremonial duties, but is also the 
city manager, a separate city manager is not hired.
    During that period of time, under my jurisdiction was the 
Lincoln water system, which today does an excellent job, did an 
excellent job then. I think it one of the most forward-leaning, 
forward-looking water systems really in the country.
    The perspective I would offer is this. There is nobody out 
there employed by any water system that wants to provide a 
dangerous product to their customers. Their customers rely upon 
that source of water, they want to know that it is safe to 
drink, not only for them but for their children and their 
babies.
    The thing that we were always struggling with, though, is 
how do deal with the requirements in a way that not only 
provided that safety but allowed us to be able to go to 
customers and say, this additional expenditure of money that we 
are going to do is justified by good science and a thoughtful 
approach. Typically that would come from the Federal 
Government. That is important. We have to make the case. It is 
one thing for us to sit here in Washington and issue rules and 
regulations, which I have done also as a former Secretary of 
Agriculture. It is quite another thing for the people on the 
ground delivering the service to make the case to that customer 
clientele that in fact this is the right course of action and 
it is justified.
    So when I press on issues like this, and hopefully ask 
good, thoughtful, tough questions, it is because somewhere out 
there, someone is trying to make the case that the requirements 
are in fact justified.
    Final thing I am going to mention, it is interesting how 
quickly word spreads of new committee assignments, because I 
already got a letter from one of our water systems in Nebraska, 
I will make that a part of the record at the appropriate time, 
raising these same basic issues. Just making the case that, 
look, we want to provide a safe product, we also want to assure 
our clientele that the investment that we will be making is 
justified under the science that is available.
    Madam Chair, I thank you very much.
    Senator Boxer. Thank you so much.
    Senator Lautenberg.

 STATEMENT OF HON. FRANK R. LAUTENBERG, U.S. SENATOR FROM THE 
                      STATE OF NEW JERSEY

    Senator Lautenberg. Thank you, Madam Chairman. I welcome 
our distinguished testifiers here, Lisa Jackson and Dr. 
Birnbaum. They come with a lot of experience and a lot of 
concerns about what we might be able to do to protect our 
health and well-being better.
    Clean, safe drinking water is essential in our health and 
especially for the well-being of our children. Under the Safe 
Drinking Water, we have made big strides in cleaning our 
country's water supply. But too many people are still drinking 
water that is contaminated with dangerous pollutants. Too 
often, public water supplies are found to be in violation of 
EPA standards. But the public health is at risk, even when 
water doesn't violate the law, because EPA has either failed to 
set limits on pollution at law, but much of that is because of 
restrictions that prevent them from doing so, or because the 
limits are too weak.
    Since 2004, more than 62 million Americans have been 
exposed to drinking water that meets EPA standards but actually 
contains potentially harmful contaminants, including some that 
are toxic. In fact, research shows that there are more than 140 
chemicals in our drinking water that EPA does not regulate. In 
some parts of our country, these chemicals include gasoline 
additives and pesticides. In other States, drinking water 
contains the so-called fracking chemicals, which are used to 
produce natural gas. In some communities near drilling rigs, 
you can turn on the tap and literally light the water.
    As if that isn't disturbing enough, last year, chromium VI, 
a carcinogen linked to leukemia, stomach cancer and other 
cancers, was found in the water supplies of 31 America cities. 
These cities include some of the Nation's largest, like New 
York, Los Angeles, Boston, Phoenix and Washington, DC. Chromium 
pollution is also a major problem in our State of New Jersey. 
So this is an issue that hits close to home for me, as well as 
EPA Administrator Lisa Jackson, who previously led the State's 
Department of Environmental Protection. We miss you there, but 
we would rather see you here. The reach for the health and 
well-being of kids is much better with your post here.
    Make no mistake, when Administrator Jackson arrived at EPA, 
she had plenty of work cut out for her. Under President Bush, 
the EPA was required on several occasions to consider setting 
limits on contaminants found in drinking water. But each and 
every time that EPA was given an opportunity to improve water 
safety during those years, the agency sat on its hands and 
decided not to regulate. Fortunately, under Administrator 
Jackson's leadership, the EPA is moving in the right direction, 
and working on the public's behalf.
    As we are going to hear today, Ms. Jackson is taking steps 
to set new limits on chemicals in our drinking water and doing 
more to determine the impact of natural gas drilling on our 
country's water supply. Administrator Jackson is making good 
use of the tools she has under the Safe Drinking Water Act, but 
the bill itself limits the EPA's ability to protect the 
public's right to know.
    Now, 25 years ago, I authored the Right to Know Law on 
toxic chemical releases, to make sure that people knew about 
potentially hazardous substances in their communities. The 
public also has a right to know what's in their water. That is 
why I will soon introduce the Drinking Water Right to Know Act. 
The Safe Drinking Water only allows EPA to require temporary 
monitoring of small groups of unregulated contaminants. So the 
public has no idea that they might be drinking water laden with 
unregulated contaminants like chromium VI and gasoline 
additives and other toxins.
    My bill would fix this problem by allowing EPA to require a 
targeted increase in monitoring for unregulated pollutants that 
could be hazardous. In addition, my bill would require EPA to 
make information on contaminants in drinking water more readily 
available online and in simple English. More information on 
contaminants will empower citizens and help Government to make 
better decisions on pollutants in the water supply.
    So I look forward, Madam Chairman, to hearing from our 
witnesses about how we can all work together to meet this 
challenge. My friend and colleague mentioned his grandchildren, 
and the beauty of the grandchildren. Their beauty will be 
considerably enhanced for your grandchildren and my 
grandchildren. Smiles will get better if the water isn't 
attacking their well-being.
    Thank you very much.
    Senator Boxer. Thank you, Senator Lautenberg.
    Senator Barrasso.

STATEMENT OF HON. JOHN BARRASSO, U.S. SENATOR FROM THE STATE OF 
                            WYOMING

    Senator Barrasso. Thank you, Madam Chairman.
    I would like to add to the comments from Senator Johanns, 
and I would also like to thank the witnesses for testifying 
today on such an important matter.
    Madam Chairman, there has been an onslaught of job-crushing 
regulations emerging from the Environmental Protection Agency 
over the last 2 years. Employment in this country is 9.4 
percent. Regulations coming out of the EPA are devastating to 
the American economy.
    Despite the fact that the American people rejected cap and 
trade, the EPA continues to press forward. Charles Krauthammer 
wrote in the Washington Post an editorial entitled ``Who Makes 
the Laws, Anyway?'' In it he says, ``Administrators administer 
the law, they don't change it. That's the legislators' job.''
    I don't see that the Environmental Protection Agency has 
learned that constitutional lesson. The EPA has continued to 
move forward with job-crushing Clean Air Act regulations for 
greenhouse gases. Washington Times reporter Richard Rahn stated 
in a piece entitled ``Obama's Regulatory Reform Test'' that 
``Well-qualified independent economists have estimated this 
will cost the United States in lost foreign investment roughly 
$100 billion a year and many thousands, thousands of jobs.'' He 
bluntly stated the Environmental Protection Agency's climate 
policies amounted to ``national economic suicide.''
    As the Wall Street Journal pointed out on January 24th, 
despite the President's executive order to have the EPA do a 
simple cost estimate of its regulations, the EPA issued a 
statement saying that it was ``confident'' that it wouldn't 
need to change a single rule. Respectfully, Madam 
Administrator, that sounds arrogant.
    I will tell you the Environmental Protection Agency went 
further and stated that its rules consistently yield billions 
in cost savings that make them among the cost-effective in the 
Government.
    The most recent example of EPA abuse fits well within 
today's hearing's subject matter. It is the EPA's abuse of 
power to use the Clean Water Act to consider climate change in 
approving TMDLs, or the total maximum daily loads for 
communities. A TMDL is a plan to reduce overall loading of a 
particular substance to a body of water. The economic impact of 
an overly restrictive TMDL can be devastating to communities. 
It would stop expansion of a sewer system to put in a new 
housing development or a small business or a factory. It could 
increased the sewer rates on existing customers, which could 
limit any new land use activity that could impact the loading. 
This includes activities such as forestry and farming.
    Now the EPA wants to consider the potential, potential 
effects of climate change on water bodies. No one can predict 
what the effect would be of a changing climate on a body of 
water years into the future. Not even the oracles at the 
Environmental Protection Agency can do that. In fact, in the 
EPA's most recent and rigorous review of the impacts of climate 
change on water, it mentions the ``uncertainty,'' the 
uncertainty of climate change effects, 47 times in the 72 pages 
report. Yet the EPA wants to potential open up all 43,658 
approved TMDLs across all 50 States and territories and now, 
factor in climate change. This would eliminate any certainty in 
existing and future investment in new factories and small 
business across the country.
    The only thing that is certain is Congress didn't approve 
this sweeping, job-crushing idea. Anti-job activists did, and 
they did it behind closed doors at the Environmental Protection 
Agency.
    We need to send a message to the EPA that the days of 
legislating without Congress are over. The consent of the 
governed is re-established. That is why I have introduced 
Senate Bill 228, the Defending America's Affordable Energy and 
Jobs Act. I have done it with 10 of my fellow Senators. This 
bill establishes that Congress shall set the Nation's energy 
and climate and policy, and eliminate these job-crushing 
regulations.
    I thank the Chairman and look forward to the testimony.
    Senator Boxer. Thank you.
    As chair of this Committee, I want to put in the record 
with unanimous consent the Supreme Court decision that said the 
following: ``Because greenhouses gases fit well within the 
Clean Air Act's definition of air pollutant, we hold that EPA 
has the statutory authority to regulate the emission of such 
gases.''
    This is a hearing about clean water. Senator, you had every 
right to say whatever you want. But it is not consistent with 
the topic before us.
    But I wanted to put this into the record, because I thought 
you might go in this direction. I think it is important to note 
that if the EPA failed to regulate carbon pollution, they would 
be going against the Clean Air Act and against the Supreme 
Court decision. We are a country of laws, not people, no matter 
how strongly we feel. I think those people who want to repeal 
the Clean Air Act, should go ahead and do it. You want to 
repeal it, you have every right.
    But the fact is, to attack an agency that is carrying out 
the law is totally inappropriate. That is just how I feel about 
it.
    [The referenced document was not received at time of 
print.]
    Senator Boxer. Senator Inhofe, you can have a minute to 
respond.
    Senator Inhofe. Well, let me respond. It is my 
understanding of the Court that they gave the authority to the 
EPA to do that but not a mandate to do it. So that discretion 
was made by the EPA. I think that needs to be part of this UC.
    Senator Lautenberg. Madam Chairman----
    Senator Boxer. Well, just a moment. We could go back and 
forth. The EPA had the responsibility to make an endangerment 
finding. That was under the law. If they found via the science 
that there is a danger to the people from carbon pollution, 
they had to pass this finding, which they did.
    But I am really going to cut this off now, because we 
really will have lots of opportunity as we look at your law and 
the kinds of things we want to do on our side. But we are just 
going to move forward.
    Senator Inhofe. Well, let me just respond to the comment on 
the endangerment finding.
    Senator Boxer. Well, this could go on all day.
    Senator Inhofe. I know----
    Senator Boxer. Who has the last word?
    Senator Lautenberg. Well, if we are going to go on, I want 
to go on also.
    [Laughter.]
    Senator Inhofe. Madam Chairman, I will address my part 
during my questions.
    Senator Boxer. Thank you. If everyone can address their 
part during the question time. I think we see the divide here 
very clearly. It is healthy, it is not unhealthy that we have 
this divide. It is the fact. We will deal with it. We all want 
a Highway Bill.
    [Laughter.]
    Senator Boxer. But we also, I think, all want clean air. So 
we will be taking these things up.
    All right, getting back. We now will hear from Senator 
Merkley, followed by Senator Boozman, followed by Senator 
Udall, and then we will get to our witnesses.
    Senator Merkley.

STATEMENT OF HON. JEFF MERKLEY, U.S. SENATOR FROM THE STATE OF 
                             OREGON

    Senator Merkley. Thank you, Administrator Jackson and Dr. 
Birnbaum, for coming, and for your work to ensure safe drinking 
water for all Americans.
    I appreciate the work of the EPA on helping to establish an 
appropriate testing regime for cryptosporidium in the Bull Run 
and also for your hard work on the tailoring rule to put 
biomass into the proper life cycle context. So I look forward 
to your testimony today and thank you.
    Senator Boxer. That was amazingly brief.
    [Laughter.]
    Senator Boxer. You caught me by surprise.
    Senator Boozman.

STATEMENT OF HON. JOHN BOOZMAN, U.S. SENATOR FROM THE STATE OF 
                            ARKANSAS

    Senator Boozman. Thank you. I will follow in the Senator's 
footsteps. It sounds like we need to move on and that the 
question period is going to be interesting.
    I was the Ranking Member on Water Resources, and had the 
opportunity of working with both of the witnesses over there, 
and look forward to working with them in the future. These are 
very serious problems. I think the key is, as we move forward, 
we have to have sound science, we have to have sound 
methodology to back things up.
    Thank you very much.
    Senator Boxer. Thank you so much, Senator.
    Senator Udall.

STATEMENT OF HON. TOM UDALL, U.S. SENATOR FROM THE STATE OF NEW 
                             MEXICO

    Senator Udall. Madam Chair, there maybe a stampede here. I 
am going to put my opening statement into the record, so we can 
get directly to the witnesses.
    Thank you.
    Senator Boxer. Thank you, that is very kind.
    Administrator Jackson, we welcome you and please, go ahead.

 STATEMENT OF HON. LISA JACKSON, ADMINISTRATOR, ENVIRONMENTAL 
                       PROTECTION AGENCY

    Ms. Jackson. Good morning, Chairman Boxer, Ranking Member 
Inhofe and members of the Committee. I will ask permission for 
my opening statement to also be put into the record, and I will 
just give a few remarks here in the interest of time.
    Thank you for inviting me to discuss the safety of our 
Nation's water. As we sit here every day across the country, 
Americans, rural areas and urban areas, rich, poor, red States 
and blue States, turn on their taps with one expectation, that 
the water that comes out will be safe for them and for their 
families to drink. The EPA, along with the States, who 
implement our Nation's drinking water laws, are responsible for 
ensuring that our water is safe, which means addressing not 
only infrastructure, but new and emerging contaminants as they 
present themselves to us, and if they affect the public health, 
especially the health of our children.
    Today I am pleased to announce that EPA has begun the 
process of controlling toxic contamination of the chemical 
commonly known as perchlorate in our drinking water. 
Perchlorate is a toxic component of rocket fuel. It is not 
naturally occurring; it can cause thyroid problems and may 
disrupt the normal growth and development of children in the 
womb.
    This decision has been years in the making, but it is 
essentially about two things. First and foremost, it is about 
protecting the health of the between 5 million and 17 million 
Americans that have perchlorate in the water that they drink. 
Second, this decision is about following the science. 
Perchlorate has been studied and reviewed for years. The 
science has led to this decision. It has been peer-reviewed by 
independent scientists, by public health experts and many 
others.
    The next step for us is to update our laws in a way that is 
sensible and practical for protecting the health of the 
American people. So when we do that, as we look at our 
regulations for perchlorate, we will look at the feasibility 
and affordability of treatment systems, the costs and the 
benefits of potential standards, and of course, we will make 
sure our approach continues to be based on sound, up to date 
science.
    We will also continue to make sure that we act as quickly 
as possible to protect our health from emerging threats in our 
drinking water, including one we also heard about this morning, 
hexavalent chromium, also called chromium VI, a toxic chemical 
and contaminant that is already a well-known human carcinogen 
when it is inhaled. The issue now is that recent animal 
testing, publicly available, has demonstrated carcinogenicity 
that is associated with ingesting chromium VI in drinking 
water. That discovery, along with the recent report by the 
Environmental Working Group that found elevated levels of 
chromium VI at the tap in 20 public water systems, has 
heightened public concern about chromium VI.
    Now, this report was a snapshot in time. But it is 
consistent with other studies that we have seen that have 
detected chromium VI in public water systems. As with 
perchlorate, science will guide all of our actions on chromium 
VI. We are working to finalize our human health assessment for 
the chemical. There will be an independent and external 
scientific peer review this spring. We expect to finalize our 
health assessment by the end of the year.
    Based on the current draft assessment, it is likely that we 
will tighten our drinking water standards for this chemical. 
However, let me be clear: we will wait for our human health 
assessment on chromium VI to be finalized and to have gone 
through full peer review.
    In the meantime, we have taken a series of steps to better 
understand the threat and protect the health of the American 
people. We are working with State and local officials in 
monitoring to find out how widespread and prevalent this 
contaminant might be in our Nation's drinking water.
    Second, we have provided voluntarily guidance to all water 
systems nationwide on how to test for chromium VI. Finally, EPA 
is offering technical expertise and assistance to those 
communities that have the highest levels of chromium VI.
    Finally, I would like to give a very brief update on a 
larger picture, and that is where we are with our drinking 
water strategy at EPA. I announced it about a year ago. The 
strategy is actually designed to transform the agency, so that 
we can use our existing Safe Drinking Water laws to achieve 
greater health and protection more quickly, more cost-
effectively and transparently. We have made a great deal of 
progress.
    One key component is the idea of addressing contaminants as 
groups of contaminants that act the same way in our bodies. As 
the agency has traditionally looked at each contaminant alone. 
I am pleased to announce that EPA has selected out first group 
to look at, it is the group of volatile organic compounds that 
are carcinogenic, and includes things like industrial solvents 
that may cause cancer.
    Another component of the strategy is to work with 
universities to move the science along, to let our 
entrepreneurs and engineers help us address our problems. Two 
weeks ago, I was in Cincinnati in our engineering lab with the 
Small Business Administration, with Proctor and Gamble, with 
GE, with small businesses who are excited about the business 
opportunities associated with solving our Nation's water 
challenges.
    In closing, Madam Chairman, clean and safe drinking water 
is the foundation of healthy communities, healthy families, and 
yes, healthy economies. Clean and safe water is not a luxury, 
it is not a privilege, it is the right of every single 
American. I look forward to working with this Committee to that 
end, and in answering any questions you may have. Thank you.
    [The prepared statement of Ms. Jackson follows:]
 Statement of Hon. Lisa P. Jackson, Administrator, U.S. Environmental 
                           Protection Agency
    Chairman Boxer, Ranking Member Inhofe, and Members of the 
Committee, thank you for inviting me to discuss the safety of our 
Nation's drinking water. Every day, Americans drink water from the taps 
in our homes, in our work places, and at our family's day care and 
schools. Having safe drinking water is essential to our health, our 
children's health and our economy.
    EPA affirms the goal of the Safe Drinking Water Act (SDWA) to 
protect American's health by ensuring that the Nation's drinking water 
supply is safe. We have made significant progress since Congress wrote 
and passed SDWA 35 years ago, but we still face challenges. While we've 
put in place standards to address more than 90 drinking water 
contaminants, there are many more contaminants of emerging concern, 
which science has only recently allowed us to detect at very low 
levels. We need to keep pace with the increasing knowledge and 
potential public health implications from the growing number of 
chemicals that may be present in our products, our water, and our 
bodies. EPA understands our responsibility under the law to respond to 
new challenges, both to protect the public's health and to sustain 
Americans' confidence in the safety of their drinking water for 
themselves and their children.
    SDWA defines a rigorous process to keep drinking water standards up 
to date to respond to improving science and emerging concerns. Two 
contaminants that have received a great deal of public attention 
recently, perchlorate and hexavalent chromium (chromium-6), provide 
examples of EPA activities to protect public health. EPA is evaluating 
the opportunity for health risk reductions from unregulated 
contaminants such as perchlorate, and reviewing existing standards, 
such as chromium, to determine if public health protections can be 
improved. I would like to highlight actions we are taking right now to 
focus our efforts on these contaminants in light of evolving science 
indicating the potential for greater public health concerns that 
prompts the need for an effective response.
                              perchlorate
    When I became the EPA Administrator, I committed to re-evaluate 
EPA's 2008 preliminary determination not to regulate perchlorate. In 
August 2009, EPA asked for public comment on our re-evaluation of the 
science supporting the perchlorate regulatory determination. We have 
received almost 39,000 comments on this and previous perchlorate 
notices and we continue to evaluate the evolving science. I remain 
committed to completing a regulatory determination for perchlorate and 
expect to announce the results of our evaluation soon.
                    hexavalent chromium (chromium-6)
    EPA also has the responsibility to reevaluate our existing 
regulations to ensure they stay current with science advancements 
including health assessments, improvements in technology, or other 
factors that may provide important opportunities to maintain or improve 
public health protections. An example is our regulation of total 
chromium and the evolving science on hexavalent chromium (referred to 
as chromium-6). Our total chromium drinking water standard applies to 
all forms of chromium and was established in 1991 based on the best 
available science at that time. This standard was designed to prevent 
the health effects from the more toxic form of chromium, which is 
chromium-6.
    However, the science behind chromium-6 is evolving. For example, 
recent animal testing data by the National Toxicology Program\1\ have 
found evidence of carcinogenicity that was not previously associated 
with ingesting chromium-6. EPA is already on a path toward identifying 
and addressing potential health threats from long-term exposure to 
chromium-6 with a new draft health assessment released this past fall.
---------------------------------------------------------------------------
    \1\ Citation in IRIS Toxicological Review: NTP. (2008) NTP 
technical report on the toxicology and carcinogenesis studies of sodium 
dichromate dihydrate (CAS No. 7789-12-0) in F344/N rats and B6C3F1 mice 
(drinking water studies). Washington, DC: National Toxicology Program; 
NTP TR 546. Available online at http://ntp.niehs.nih.gov/files/
546_web_FINAL.pdf (accessed January 29, 2008).
---------------------------------------------------------------------------
    This assessment still needs to be reviewed by independent 
scientists before a determination of whether or not to revise the 
drinking water standard for total chromium or set a specific standard 
for chromium-6. A recent report by the Environmental Working Group 
(EWG) has increased awareness and public concern about the presence of 
chromium-6 in drinking water. While this report was a ``snapshot in 
time,'' it is consistent with other studies that have also detected 
chromium-6 in public water systems.
    EPA recently committed to a series of actions to address chromium-6 
in our drinking water. First, EPA is working with State and local 
officials to better determine how widespread and prevalent this 
contaminant is in our Nation's drinking water. Second, we provided 
guidance to all water systems nationwide on how to sample and test 
drinking water for chromium-6. This guidance, released on January 11, 
2011, provides recommendations on where systems should collect samples, 
how frequently samples should be collected, and analytical methods for 
laboratory testing. We believe that systems that perform the enhanced 
monitoring recommended in EPA's guidance will be able to better inform 
their consumers about any presence of chromium-6 in their drinking 
water, evaluate the degree to which other forms of chromium are 
transformed into chromium-6, and assess the extent to which existing 
treatment affects the levels of chromium-6 in drinking water. Third, 
EPA is also offering technical expertise and assistance to communities 
cited in the EWG report as having the highest levels of chromium-6 in 
drinking water.
    Strong science and the law will continue to be the foundation of 
our decisionmaking at EPA. EPA takes its obligation to ensure the 
safety of the water supply very seriously and will continue to do all 
that we can, using sound science and the law, to protect people's 
health.
                        drinking water strategy
    EPA national drinking water standards for contaminants such as 
chromium are essential to the protection of our water quality, but 
these individual regulations cannot keep pace with the thousands of 
chemicals that have been identified as being in commerce via the Toxic 
Substance Control Act (TSCA) and those that may be introduced in the 
future. In March 2010, I outlined a vision seeking to use existing 
authorities where appropriate to achieve greater health protection more 
quickly, cost-effectively, and transparently. I am pleased to say that 
in the last year we have made a great deal of progress on this 
approach.
    One key component of the new drinking water strategy is to address 
contaminants as groups rather than individually. The traditional 
framework for drinking water regulation focuses on detailed assessment 
of each individual contaminant of concern and can take many years. 
Throughout 2010, EPA engaged stakeholders in a national conversation 
about how we might streamline this process by addressing multiple 
contaminants at once, which may provide protections more quickly and 
also allow utilities to implement them more efficiently. We have 
examined a number of contaminant groups that have a common health 
endpoint of concern, a common treatment approach, and/or common 
measurement methods.
    I am pleased to announce that EPA has selected the first 
contaminant group and will be working toward developing one regulation 
to address up to 16 Volatile Organic Compounds (VOCs), which are 
chemicals such as industrial solvents. This group will include 
trichloroethylene (TCE) and tetrachloroethylene (PCE), which I 
announced last March we'd be revising, as well as up to 14 other VOCs 
that may cause cancer, some that are currently regulated and some that 
have not previously been regulated. EPA will also evaluate whether to 
regulate nitrosamines as a group. We have found these disinfection 
byproducts in a number of water systems and will assess whether or not 
this group of contaminants should be regulated as part of our next 
round of regulatory determinations.
    The second component of the drinking water strategy is to foster 
development of new drinking water technologies to address health risks 
more comprehensively and cost-effectively. On January 18, I announced, 
in partnership with the U.S. Small Business Administration, the 
formation of a regional water technology innovation cluster in the 
Greater Cincinnati, Dayton, Northern Kentucky and Indiana region. The 
cluster involves businesses, universities and governments working 
together to promote economic growth and technology innovation. The 
cluster will not only assist in developing technology safeguards for 
drinking water and the protection of public health, but it will also 
encourage economic development and create jobs.
    A third component of our new drinking water approach is to utilize 
provisions of multiple laws, where appropriate, to better protect 
drinking water. EPA offices have identified contaminants of mutual 
concern under drinking water, pesticide and toxic laws. By sharing 
information collected and analyses we can make sure that the best 
science is available to further public health protection goals. For 
example, occurrence data collected for SDWA reviews can inform 
decisions made to protect water resources under pesticide and toxics 
laws, while health effects information from pesticides and toxics laws 
can be used to provide advisory benchmark information to States and 
water systems that may find these chemicals in their water supplies.
    Finally, because Americans have a right to know and to be assured 
that their drinking water is safe, the fourth component of the strategy 
is to provide easy access to drinking water compliance monitoring data. 
Taking a step toward this goal, in November 2010, EPA partnered with 
the Environmental Council of the States, the Association of State and 
Territorial Health Officials, and the Association of State Drinking 
Water Administrators to establish a data sharing memorandum of 
understanding (MOU). Under this MOU, EPA and the States will 
collaborate on developing the advanced information technology necessary 
to facilitate sharing and analysis of the large amount of data. This 
will help us better understand national trends in occurrence of 
drinking water contaminants and will enable consumers to easily obtain 
information about the quality of their drinking water.
    Clean and safe water is the foundation of healthy communities, 
healthy families, and healthy economies. I want to emphasize that EPA 
is committed to working with our State partners to build the Nation's 
confidence that these resources are safe and to provide Americans with 
clean and safe drinking water every day.
    I greatly appreciate the leadership of this Committee on the Safe 
Drinking Water Act and we look forward to coordinating with Chairman 
Boxer, Ranking Member Inhofe and Members of the Committee as we work to 
achieve these important goals.
                                 ______
                                 
      [Responses by Lisa Jackson to Additional Questions Follow.]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Senator Boxer. Thank you, Administrator.
    Dr. Birnbaum.

STATEMENT OF LINDA BIRNBAUM, Ph.D., D.A.B.T., A.T.S., DIRECTOR, 
   NATIONAL INSTITUTES OF ENVIRONMENTAL HEALTH SCIENCES AND 
                  NATIONAL TOXICOLOGY PROGRAM

    Ms. Birnbaum. Madam Chairwoman and distinguished members of 
the Committee, I am pleased to appear before you today to 
present testimony on our current understanding of chemical 
contaminants in drinking water. My name is Linda Birnbaum, and 
I am the Director of the National Institute of Environmental 
Health Sciences of the National Institutes of Health, and also 
Director of the National Toxicology Program.
    NIEHS and NTP continue to fund research on hazardous 
chemicals in the environment that can affect human health, 
including chemical contaminants in drinking water. Today I will 
talk about three of these contaminants: hexavalent chromium, 
perchlorate and trichloroethylene.
    Chromium VI is part of man industrial processes, such as 
electroplating, stainless steel production, leather tanning, 
textile manufacturing and wood preservation. It was featured in 
the movie Erin Brockovich and listed in the NTP report on 
carcinogens since 1980 as a known human carcinogen. It is well 
established that ingestion of high concentration of chromium VI 
can lead to severe gastrointestinal distress and death. The NTP 
has done extensive animal testing on chromium VI in drinking 
water, and found that it causes cancer in laboratory animals 
following exposure in drinking water.
    NIEHS is also funding university researchers studying 
chromium VI. Scientists at New York University are looking at 
chromium VI toxicity and the expression of genes that may 
ultimately lead to cancer. A research group at Brown 
University, funded by our Superfund research program, is 
studying how exposure to chromium VI modifies DNA in human 
cells. This research gives information about dose and 
biological response and why one person is affected when another 
person is not.
    Other researchers in the group at brown are developing new 
methods for removing chromium VI from water supplies.
    Perchlorate, another chemical of concern, is found 
naturally in our climate, but it is also manufactured in the 
U.S. for munitions, flares and fireworks. We are concerned 
about perchlorate, because it can affect thyroid function by 
inhibiting the transport of iodide into the thyroid gland. 
Iodide uptake is necessary for the normal production of thyroid 
hormones, which are essential in fetal and post-natal brain 
development. In pregnant women, severe iodide deficiency 
results in neurodevelopmental problems in the fetus and 
newborn.
    So we need to ask if perchlorate in drinking water is 
linked to neurodevelopmental problems in infants. We also need 
to learn if perchlorate has effects on vulnerable groups, such 
as low birth-weight or pre-term infants. This is a very hot 
area of research.
    A series of papers from the CDC and NIEHS between 2009 and 
2011 confirm that perchlorate levels in fetuses and infants 
compare with perchlorate levels in their moms. At this point, 
we are not sure if low doses of perchlorate in drinking water 
result in harm to human development. But it is an important 
question.
    Again, cleanup is a key focus of our work. Through our 
Superfund research program, we are supporting development of 
online perchlorate detection and remediation systems, and a 
portable unit for water source analysis in the field.
    Now to trichloroethylene, or TCE. TCE is a solvent widely 
used for degreasing and cleaning materials and as a household 
cleaner. Due to its widespread use, TCE is often found as a 
contaminant in groundwater and drinking water. TCE can 
evaporate from contaminated water, creating a risk of 
inhalation exposure.
    This is important in the enclosed space of the home, where 
showering, dishwashing and laundry activities can increase the 
potential for exposure by both inhalation and absorption 
through the skin. Children exposed to TCE contaminants have 
been reported to have experienced increase respiratory disease, 
such as bronchitis, asthma and pneumonia.
    In this case, the wells supplying the drinking water were 
contaminated with a mixture of volatile organic compounds 
besides TCE, including the related compound, perchlorethylene. 
The link between exposure to TCE in humans is uncertain. Once 
study of more than one and a half million residents in 75 
different towns showed higher incidences of leukemia and non-
Hodgkins lymphoma in groups of females exposed to TCE 
concentrations greater than 5 parts per billion.
    Several studies conducted in Woburn, Massachusetts led the 
Massachusetts Department of Health to conclude there was an 
eightfold higher risk of leukemia in children whose mothers 
were exposed to solvent-contaminated drinking water during 
pregnancies. These studies again involved a mixture of 
chemicals, including TCE, in the water.
    TCE was listed in 2005 as reasonably anticipated to be a 
human carcinogen in the congressionally mandated NTP report on 
carcinogens. The listing was based on evidence from seven human 
studies, along with the studies in laboratory animals. Both 
showed that TCE exposure caused tumors, especially in the 
liver. A review of epidemiological literature showed that TCE 
was associated with higher incidences of liver cancer, kidney 
cancer, non-Hodgkins lymphoma, prostate cancer and multiple 
myeloma. But these studies were based on a relatively small 
number of exposed workers and were confounded by exposure to 
other volatile organic solvents and risk factors.
    Our work on TCE is continuing in several Superfund 
programs. The new Northeastern University Center is testing 
drinking water in Puerto Rico for TCE. This multi-disciplinary 
project combines hydrogeological, epidemiological and 
mechanistic research to determine if any of these chemicals are 
associated with the risk of pre-term birth. They are also 
testing a new remediation strategy using solar energy to break 
down TCE in groundwater.
    The University of Washington Center is using genetically 
engineered poplar trees to break down organic chemicals. The 
University of Kentucky Center has pioneered a new type of 
nanoparticle filter that removes TCE from water.
    In conclusion, it is important to remember that determining 
risk from chemical exposures through drinking water, or through 
any other route of exposure, is a complicated enterprise. New 
data are telling us to look beyond chemical concentrations in 
water or air, and instead to look at the chemical 
concentrations inside our bodies. We also need to consider the 
timing of exposure our individual genetic susceptibility and 
the fact that our exposures are always to a mixture of 
chemicals.
    At NIEHS, we are proud to provide the best possible science 
in support of the incredibly difficult task that our sister 
regulatory agencies face. We are committed to advancing the 
science to new heights, using the newest tools to improve our 
understanding of the effects of environmental chemicals and to 
promote effective strategies for exposure reduction and disease 
prevention.
    Thank you for the opportunity to testify, and I will be 
happy to answer your questions.
    [The prepared statement of Mr. Birnbaum follows:]
 Statement of Linda S. Birnbaum, Ph.D., DABT, ATS, Director, National 
  Institute of Environmental Health Sciences, National Institutes of 
 Health; and Director, National Toxicology Program, U.S. Department of 
                       Health and Human Services
    Mr. Chairman and distinguished members of the Subcommittee--I am 
pleased to appear before you today to present testimony on our current 
understanding regarding chemical contaminants in drinking water. My 
name is Linda Birnbaum; I am the Director of the National Institute of 
Environmental Health Sciences (NIEHS) of the National Institutes of 
Health and the Director of the National Toxicology Program (NTP).
    NIEHS and NTP have funded years of research on hazardous chemicals 
in the environment that can affect human health, including chemicals 
that are sometimes found as contaminants in drinking water. I will 
address three specific contaminants of interest: hexavalent chromium, 
perchlorate, and trichloroethylene.
    Hexavalent chromium, or chromium VI, is a form of chromium that is 
produced and used in many industrial processes, such as electroplating, 
stainless steel production, leather tanning, textile manufacturing, and 
wood preservation. Many people know of it as the chemical contaminant 
featured in the movie, ``Erin Brockovich''. This chemical is listed in 
the NTP's Report on Carcinogens as a known human carcinogen; it was 
first listed in 1980.\1\ The chromium molecule exists mostly in either 
trivalent (chromium III) or hexavalent (chromium VI) states. Chromium 
III is an essential micronutrient at low doses, although it can be 
toxic in large doses; chromium VI is about a thousand times more toxic 
than chromium III.\2\
---------------------------------------------------------------------------
    \1\ Report on Carcinogens, Eleventh Edition, http://
ntp.niehs.nih.gov/ntp/roc/eleventh/profiles/s045chro.pdf.
    \2\ http://www.atsdr.cdc.gov/csem/chromium/chromium.html.
---------------------------------------------------------------------------
    It is well established that ingestion of high concentrations of 
hexavalent chromium can lead to severe gastrointestinal distress and 
death. Review of unfortunate accidental exposures and suicides 
indicates an acute lethal concentration as low as 4.1 milligrams of 
hexavalent chromium per kilogram body weight.\3\ Long term exposures of 
workers to hexavalent chromium on the skin have been shown to cause 
severe skin lesions and irritation.\4\ However, these effects are not 
expected at the very much lower doses associated with most people's 
exposure from public drinking water.
---------------------------------------------------------------------------
    \3\ Saryan LA, Reedy M. 1988. Chromium determinations in a case of 
chromic acid ingestion. J Anal Toxicol 12:162-164.
    \4\ Gibb HJ, Lees PSJ, Pinsky PF, et al. 2000a. Clinical findings 
of irritation among chromium chemical production workers. Am J Ind Med 
38:127-131.
---------------------------------------------------------------------------
    When inhaled, chromium VI is genotoxic to humans, meaning that it 
can damage DNA through the production of reactive oxygen.\5\ The 
carcinogenic effects of breathing chromium VI (nasal, sinus, and lung 
cancer) are well established. However, for a long time, this genotoxic 
mechanism and resultant carcinogenicity from inhalation were not so 
clear for the case where it is ingested, as in drinking water. NTP has 
done extensive animal testing to provide information on chromium VI 
toxicity and carcinogenicity via drinking water. The NTP studies showed 
that sodium dichromate dihydrate, a water-soluble salt of chromium VI, 
caused cancer in laboratory animals following oral ingestion in 
drinking water.\6\
---------------------------------------------------------------------------
    \5\ Goulart M., Batoreu MC, Rodrigues AS, Laires A., Rueff J. 
Lipoperoxidation products and thiol antioxidants in chromium exposed 
workers. Mutagenesis (5): 311-315.
    \6\ NTP 2008a. Final technical report on the toxicology and 
carcinogenesis studies of sodium dichromate dihydrate in F344/N rats 
and B6C3F1 mice. Accessed at http://ntp.niehs.nih.gov/files/
546_web_FINAL.pdf.
---------------------------------------------------------------------------
    NIEHS-funded researchers are continuing work on chromium VI. 
Investigators at New York University have been looking at mechanisms of 
ingested chromium VI toxicity, exploring the ways in which it may 
affect epigenetic programming\7\ and gene silencing and ultimately lead 
to cancer. Another research group at Brown University is studying the 
mechanism of DNA-chromium VI adduct formation and DNA-protein 
crosslinking by chromium VI using in vitro models. They have suggested 
that the DNA modifications produced by chromium VI in human cells could 
serve as highly specific indicators of individual dose.\8\ A separate 
study in a rat model is looking at whether lactational exposure to 
chromium VI affects ovarian development in offspring. Even more 
importantly, other NIEHS-funded researchers in our Superfund research 
program are developing new methods for removing chromium VI and other 
metals from water supplies.
---------------------------------------------------------------------------
    \7\ Epigenetic programming refers to the ways in which nonsequence-
related modifications of the DNA molecule regulate gene expression.
    \8\ Macfie A, Hagan E, Zhitkovich A. 2010. Mechanism of DNA-protein 
cross-linking by chromium. Chem. Res. Toxicol., 2010, 23 (2), pp 341-
347.
---------------------------------------------------------------------------
    Perchlorate is a chemical found naturally in arid climates and is 
manufactured in the U.S. for a variety of uses primarily as a solid 
rocket propellant (e.g., in munitions, flares and fireworks). In the 
past, perchlorate has been used in the treatment of human diseases and 
is still used as a diagnostic tool in medicine (the perchlorate 
discharge test, which is used to diagnose thyroid defects involving 
abnormal iodide processing).\9\ Perchlorate is of interest as a 
drinking water contaminant, because it can affect levels of thyroid 
hormones by inhibiting the transport of iodide into the thyroid.\10\ 
\11\ Inhibition of iodide uptake can disturb the normal production of 
thyroid hormones that play an essential role in fetal and post-natal 
neurodevelopment. These hormones also regulate neuropsychological 
development in children and adults. Usually, the body maintains normal 
production of thyroid hormones even in cases of iodide deficiency. 
However, in pregnant women, severe iodide deficiency can result in 
adverse neurodevelopmental effects in the fetus and newborn. This 
raises the possibility that a similar outcome could be produced by 
exposure to perchlorate in drinking water at sufficient levels and for 
a sufficient period of time. However, to date, human studies on 
environmental exposure to low levels of perchlorate have been 
inconsistent.\12\ \13\ The authors of a 2005 National Research Council 
study, ``Health Implications of Perchlorate Ingestion'', based their 
conclusions primarily on clinical data collected in controlled 
settings, particularly those described in an article by MA Greer and 
his colleagues.\14\ The NRC found the epidemiological studies in human 
populations to be limited with respect to this question.\15\ Further 
research is required to determine if there are effects on vulnerable 
groups such as low birth weight or preterm infants, or whether maternal 
perchlorate exposure (with or without low dietary iodide intake) causes 
neurodevelopmental outcomes in infants.
---------------------------------------------------------------------------
    \9\ Meller J, Zappel H, Conrad M, Roth C, Emrich D, Becker W Exp 
Clin Endocrinol Diabetes. 1997; 105 Suppl 4:24-7.
    \10\ Kirk AB. 2006. Environmental perchlorate: why it matters. Anal 
Chim Acta 567:4-12.
    \11\ Wolff J. 1998. Perchlorate and the thyroid gland. Pharmacol 
Rev 50:89-105.
    \12\ Blount BC, Pirkle JL, Osterloh JD, Valentin-Blasini L, 
Caldwell KL 2006 Urinary perchlorate and thyroid hormone levels in 
adolescent and adult men and women living in the United States. Environ 
Health Perspect 114:1865-1871.
    \13\ Pearce EN, Lazarus JH, Miyth PPA, et al. 2010. Perchlorate and 
thiocyanate exposure and thyroid function in first-trimester pregnant 
women. J Clin Endocrin Metabol 95:73207-73215.
    \14\ 14 Greer MA, Goodman G, Pleus RC, Greer SE 2002 Health effects 
assessment for environmental perchlorate contamination: the dose 
response for inhibition of thyroidal radioiodine uptake in humans. 
Environ Health Perspect 110:927-937.
    \15\ http://www.nap.edu/openbook.php?record_id=11202&page=R1.
---------------------------------------------------------------------------
    Information continues to be generated about these questions. A 
series of papers between 2009 and 2011 has confirmed that fetuses and 
infants demonstrate exposure to levels of perchlorate that are 
associated with maternal levels, albeit not with concentrations in 
their drinking water.\16\ \17\ A cross-sectional study of 1641 first 
trimester pregnant women (including 1002 pregnant women with low 
urinary iodide levels) found no relationship between urinary 
perchlorate and clinical measures of serum TSH and freeT4 (Pearce et 
al. 2010). In another report, perchlorate exposure was associated with 
increased urinary thyroid-stimulating hormone (TSH) in infants with low 
urinary iodide, although T4 levels were not reduced.\18\ In a recent 
ecological epidemiological study in California, researchers were able 
to show elevated TSH levels in infants from perchlorate-exposed 
communities (defined as drinking water levels greater than 5 
micrograms/liter).\19\ The question of whether these hormone levels\20\ 
result in actual impacts on health and development is unknown and 
remains an important question for further research.
---------------------------------------------------------------------------
    \16\ Blount BC, Rich DQ, Valentin-Blasini L et al. 2009 Perinatal 
exposure to perchlorate, thiocyanate, and nitrate in New Jersey mothers 
and newborns. Environ Sci Technol. 43:7543-7549.
    \17\ Borjan M, Marcella S, Blount B, et al. 2011. Perchlorate 
exposure in lactating women in an urban community in New Jersey. 
Science of the Total Environment 409: 460-464.
    \18\ Cao Y, Blount BC, Valentin-Blasini, et al. 2010. Goitrogenic 
anions, thyroid-stimulating hormone, and thyroid hormone in infants. 
Environ Health Perspect 118: 1332-1337.
    \19\ Steinmaus C, Miller MD, Smith AH. 2010. Perchlorate in 
drinking water during pregnancy and neonatal thyroid hormone levels in 
California. J Occ Environ Med 52:1217-1224
    \20\ Haddow JE, Palomaki GE, Allan WC, Williams JR, Knight GJ, 
Gagnon J, O'Heir CE, Mitchell ML, Hermos RJ, Waisbren SE, Faix JD, 
Klein RZ 1999 Maternal thyroid deficiency during pregnancy and 
subsequent neuropsychological development of the child. N Engl J Med 
341:549-555
---------------------------------------------------------------------------
    Development of new techniques for remediation is also important in 
this area. In a Small Business Innovative Research project, part of our 
Superfund Research Program, NIEHS is supporting a group that is working 
to transform a proof-of-concept prototype for an online perchlorate 
detection and remediation system. They will also develop a companion 
field portable prototype for water source spot analysis in the field.
    Trichloroethylene (TCE) is a solvent that is widely used for 
degreasing and cleaning metals. TCE has many other industrial uses as 
an extraction solvent for organic oils, as a reactant in the production 
of other chemicals, and in the manufacturing of fluorocarbons. TCE is 
widely available as a household cleaner and is found as an ingredient 
in a number of consumer products such as adhesives, rug cleaning fluid, 
paint removers, spot removers, and typewriter correction fluid.\21\ Due 
to its widespread use throughout the U.S., TCE is often found as a 
contaminant in groundwater and drinking water.\22\ Due to its 
volatility and low water solubility, TCE can readily evaporate from 
contaminated water posing an additional concern for inhalation 
exposure. This is particularly important in the enclosed space of the 
home where showering, dishwashing, and laundry activities can increase 
the potential for exposure by both inhalation and absorption through 
the skin.
---------------------------------------------------------------------------
    \21\ http://www.atsdr.cdc.gov/csem/tce/tcewhere_found.html
    \22\ http://www.atsdr.cdc.gov/csem/tce/tcewhere_found.html
---------------------------------------------------------------------------
    TCE has been a contaminant of concern for decades. In a 1988 
report, children exposed to a water supply that included TCE 
contamination, were reported to have experienced increased respiratory 
disease such as bronchitis, asthma and pneumonia.\23\ In this case, the 
wells supplying drinking water were contaminated with multiple solvents 
besides TCE, including a related chemical, tetrachloroethylene (also 
known as perchloroethylene or perc). As in this case, human 
epidemiological studies are often complicated by exposures to mixtures, 
making interpretation of the data difficult.
---------------------------------------------------------------------------
    \23\ Byers VS, Levin AS, Ozonoff DM, et al. 1988. Association 
between clinical symptoms and lymphocyte abnormalities in a population 
with chronic domestic exposure to industrial solvent-contaminated 
domestic water supply and a high incidence of leukemia. Cancer Immunol 
Immunother 27:77-8 1
---------------------------------------------------------------------------
    The link between exposure to TCE and cancer in humans is 
controversial due, in part, to such mixed chemical exposures. However, 
a statistically significant association between TCE exposure and 
increased incidence of leukemia among the highest group of exposed 
females was demonstrated in a study conducted in New Jersey\24\. Again, 
this study was complicated by several uncertainties, including lack of 
detailed information about the magnitude of individual exposures and a 
poor understanding of the relative exposure contribution from 
inhalation and ingestion. A follow-up study of over 1.5 million 
residents in 75 different towns showed statistically significant 
elevations in total leukemias, child leukemia, acute lymphatic leukemia 
and non-Hodgkin's lymphoma in groups of females exposed to TCE 
concentrations greater than 5 ppb.\25\ A more recent occupational 
study, published in 2007 and adjusting for multiple chemical exposures, 
showed associations between occupational exposures to TCE and prostate 
cancer.\26\
---------------------------------------------------------------------------
    \24\ Fagliano J, Berry M, Bove F, et al. 1990. Drinking water 
contamination and the incidence of leukemia: An ecologic study. Am J 
Public Health 80:1209-1212
    \25\ Cohn P, Klotz J, Bove F, et al. 1994. Drinking water 
contamination and the incidence of leukemia and nonHodgkin's lymphoma. 
Environ Health Perspect 102:556-561
    \26\ Krishnadasan, A., Kennedy, N., Zhao, Y., Morgenstern, H. and 
Ritz, B. (2007), Nested case-control study of occupational chemical 
exposures and prostate cancer in aerospace and radiation workers. 
American Journal of Industrial Medicine, 50: 383?390. doi: 10.1002/
ajim.20458
---------------------------------------------------------------------------
    Following several controversial studies conducted in Woburn, MA, 
the Massachusetts Department of Health concluded that there was an 8 
fold higher risk of leukemia in the group that was exposed in utero, 
and that this increase may be related to the exposure of mothers to 
solvent-contaminated drinking water during pregnancy\27\. These 
studies, too, are complicated by mixed chemical exposures and 
uncertainties about the levels of exposure.
---------------------------------------------------------------------------
    \27\ MDPH 1996. Draft Final Report. Woburn Childhood Leukemia 
Follow-up Study. Massachusetts Department of Public Health. Boston, 
Massachusetts.
---------------------------------------------------------------------------
    Trichloroethylene was listed in the NTP's Report on Carcinogens as 
reasonably anticipated to be a human carcinogen based on limited 
evidence of carcinogenicity from seven studies in humans supported by 
evidence of carcinogenicity in experimental animals, in which tumors 
occurred at several of the same sites (especially liver) as in 
humans.\28\ A contemporary review of epidemiological literature showed 
that TCE was associated with excess incidences of liver cancer, kidney 
cancer, non-Hodgkin's lymphoma, prostate cancer, and multiple myeloma, 
with the strongest evidence for the first three cancers.\29\ 
Nevertheless, as was noted at the time, these studies were based on a 
relatively small number of exposed workers and were confounded by 
exposure to other solvents and other risk factors.
---------------------------------------------------------------------------
    \28\ http://ntp.niehs.nih.gov/ntp/roc/eleventh/profiles/s180tce.pdf
    \29\ Wartenberg, D., D. Reyner and C.S. Scott. 2000. 
Trichloroethylene and cancer: epidemiologic evidence. Environ Health 
Perspect 108 Suppl 2: 161-76.
---------------------------------------------------------------------------
    More recent studies have been detailed in reviews appearing in the 
peer-reviewed literature in 2006 and 2008.\30\ \31\ Much information 
has emerged about the complexity of the biological effects of exposure 
to TCE. The understanding of metabolism of TCE has been critical to 
this process, because for many types of observed toxicity, the active 
agent or agents is actually a mixture of metabolites of the parent TCE 
compound, acting in concert with each other, with the parent, and with 
other co-contaminants typically encountered along with TCE such as 
tetrachloroethylene.\32\ More recent epidemiology provides further 
support for associations between TCE exposure and some level of excess 
risk of kidney cancer, liver cancer, and lymphomas, and to a lesser 
extent, cervical cancer and prostate cancer.\33\ However, scientists 
continue to debate the interpretation of these studies, considering 
such factors as different classifications of lymphomas, differences in 
data and methods for assigning TCE exposure status, and different 
statistical approaches.\34\
---------------------------------------------------------------------------
    \30\ Chiu WA, Caldwell JC, Keshava N, Scott CS. 2006. Key 
scientific issues in the health risk assessment of trichloroethylene. 
Environ Health Perspect 114:1445-1449.
    \31\ Caldwell JC, Keshava N, Evans MV. 2008. Difficulty of mode of 
action determination for trichloroethylene: An example of complex 
interactions of metabolites and other chemical exposures. Environ Mol 
Mutagen 49:142-154.
    \32\ Ibid
    \33\ Scott CS, Chiu WA. 2006. Trichloroethylene cancer 
epidemiology: a consideration of select issues. Environ Health Perspect 
114:1471-1478.
    \34\ Ibid
---------------------------------------------------------------------------
    NIEHS-funded work on TCE is continuing in several programs. The new 
Northeastern University Superfund Research Center grant is 
investigating drinking water as a possible source for chemical 
exposures (TCE, phthalates, and others) in Puerto Rico. This 
multidisciplinary project combines hydrogeological, epidemiological and 
mechanistic research on these and other chemicals to determine whether 
any are associated with risk of preterm birth. This Center is also 
testing a new remediation strategy that utilizes solar energy as a 
means to break down TCE in groundwater. The University of Washington's 
Superfund Research Center investigates a plant-based remediation 
strategy (phytoremediation) to break down organic chemicals such as TCE 
and tetrachloroethylene. Their innovative approach utilizes a poplar 
tree that has been genetically modified to express a mammalian gene 
(CYP2E1) that rapidly metabolizes TCE inside the plant.\35\ The 
University of Arizona is investigating the geological properties that 
determine movement of TCE and tetrachloroethylene underground and are 
applying their research at the Tucson International Airport Area (TIAA) 
Superfund complex. Understanding how these chemicals migrate and 
dissolve will aid in the removal or clean-up of these contaminants. The 
NIEHS Superfund program also funds new technologies for remediation of 
TCE contamination, such as the methods under development by a group at 
the University of Kentucky. They have pioneered a new type of 
nanoparticle filter that shows promise for the removal of TCE and other 
chemicals.
---------------------------------------------------------------------------
    \35\ Kang, J.W., H. Wilkerson, Federico M. Farin, Theodor K. 
Bammler, Richard Beyer, Stuart E. Strand, and Sharon Lafferty Doty. 
2010. Mammalian cytochrome CYP2E1 triggered differential gene 
regulation in response to trichloroethylene (TCE) in a transgenic 
poplar. Functional & Integrative Genomics. 10:417-424. http://
www.springerlink.com/content/2x65311062345327/
---------------------------------------------------------------------------
    In conclusion, it is important to remember that determining risk 
from chemical exposures, through drinking water or through any other 
route of exposure, is a complex, nuanced enterprise. New data are 
telling us to consider not only dose, but timing of exposure, inherent 
susceptibility of the exposed individual, and effects of multiple types 
of exposures when determining risk from a particular chemical. Making 
these regulatory decisions is the responsibility of EPA and our other 
regulatory agency partners. At NIEHS, we are proud of the role we have 
played and continue to play in providing the best possible science to 
support this incredibly difficult task. We are committed to advancing 
the science to new heights, using the newest tools in the biomedical 
sciences to improve our understanding of the effects of environmental 
chemicals and to promote effective strategies for exposure reduction 
and disease prevention.
    Thank you for the opportunity to testify. I will be happy to take 
your questions.

    Senator Boxer. Thank you.
    Administrator Jackson, how prevalent is perchlorate in the 
drinking water across the Nation?
    Ms. Jackson. Studies show that perchlorate is in the 
drinking water of between 5 million and 17 million Americans.
    Senator Boxer. My information says it is about 28 States, 
is that about right?
    Ms. Jackson. I do believe that is right, 26 States and 2 
territories, ma'am.
    Senator Boxer. OK. That is in detectable levels, I am 
assuming, above the level that you are looking at setting a 
standard at?
    Ms. Jackson. I think that is an accurate assumption, 
Chairman.
    Senator Boxer. So we are looking at a major problem here. 
What about chromium VI? Do we know that?
    Ms. Jackson. That is a little bit more difficult, and it is 
part of the reason that our initial intervention with water 
systems is to help them know how to test for it at very low 
levels. We currently regulate total chromium at 100 parts per 
billion, and chromium VI is part of that. But what part of 
total chromium is chromium VI is the operative question.
    Senator Boxer. So that first step of advising drinking 
water systems to test for chromium VI is, one of the reasons 
is, I am assuming, is to see how prevalent it is across the 
country? Is that right?
    Ms. Jackson. Yes. Because the EWG report was a snapshot, 
and doesn't give us a sense of whether and how often we are 
going to see this contaminant.
    Senator Boxer. Are you having good feedback from the local 
folks? Or are they complaining about the fact they have to 
test? What are you hearing?
    Ms. Jackson. Well, the first thing we got were lots of 
questions. I think it is fair to say that putting out a 
standard testing methodology, we did that in part because we 
knew people were looking at the EWG methodology and didn't know 
if they could replicate it. So we took a peer-reviewed method 
and we put it out. I think people were generally grateful for 
that. I know witnesses on the next panel, some of them may take 
the position we shouldn't ask or test. But I don't think that 
is the kind of answer that the American people expect when they 
are presented with a new contaminant that we know science is 
saying is probably more dangerous than we originally believed 
it to be.
    Senator Boxer. So when do you think you will have the 
science back, the results of these tests back?
    Ms. Jackson. The results of the tests will come in over the 
course of this year. What we are waiting on now is the peer 
review, the external peer review of our risk assessment of 
chromium VI. This is based on the NTP finding that chromium VI 
causes cancer in our drinking water, which is brand new. We 
have done a risk assessment there. That will take us almost, 
probably through the rest of this year.
    Then what I have said is, we will move as quickly as 
possible after the peer review is done and we are sure we have 
good science, to change the regulations, to change the 
standards.
    Senator Boxer. Right. But when will you start getting back 
the results of the testing from the various drinking water 
systems across the country? Was that, they are going to start 
reporting that back to you?
    Ms. Jackson. Right. That is voluntary. They are not under 
orders to do it. But there are also, of course, purveyors, as 
we heard, who feel a responsibility to make sure they are 
getting good data for their customers.
    Senator Boxer. What do you know now? Do you have any notion 
of how many systems chromium VI is showing up in at higher 
levels?
    Ms. Jackson. Because the levels are so much lower, we do 
know, there has been data taken in the past, before the EWG 
study, that shows that there are systems with chromium VI in 
them. That chromium moves between chromium III and chromium VI. 
Chromium III is not bad. Chromium VI is where we have real 
health concerns, public health concerns.
    Senator Boxer. But you don't have, as you do with 
perchlorate yet, the number of systems that are impacted or the 
States that are affected by chromium VI?
    Ms. Jackson. Fifteen percent, Madam Chair, of systems 
detect total chromium. Other studies have shown 30 to 40 
percent of systems may have total chromium, because we measure 
that. What we don't have is how much of that is chromium VI.
    Senator Boxer. But we will have that, I assume, before you 
make your recommendations?
    Ms. Jackson. Absolutely. That will be important information 
for us to have. Because of course, occurrence and the decision 
about being able to intervene and how to intervene will be 
based on where we are seeing it and why.
    Senator Boxer. Could you comment on the importance of the 
agency using the best available science to develop drinking 
water standards for perchlorate? How are you doing that? What 
are your next steps toward setting a standard?
    Ms. Jackson. I could not emphasize enough the importance of 
using sound science, the best available science, peer-reviewed 
science. But I also want to say that the difference here, the 
prior Administration actually made a decision not to act on 
perchlorate. The difference here is actually very simple. It is 
protection of children and protection of mothers who are 
carrying children. The issue here is that extra layer of 
protectiveness for pregnant women. Because changes in thyroid 
production while a baby is forming can have impacts, 
demonstrated impacts, as we heard Dr. Birnbaum say, on their 
development. Developmental issues in children is a huge 
problem.
    So we are erring on the side of looking for a level that 
will be protective. But we will also do it according to the 
Safe Drinking Water Act.
    Senator Boxer. Thank you very much. I don't think there is 
any one of us here who hasn't said, our children are our 
future, and that is one of the reasons we are here. I just have 
to say, you make me very proud, as Senator from California. 
Because sometimes we get into arguments that are based on 
philosophy rather than what is really happening to people, our 
people that we are sworn to protect. So I just want to thank 
you for that.
    Senator Inhofe.
    Senator Inhofe. Thank you, Madam Chairman.
    Let me go ahead and put the language from the opinion of 
the Court in the record immediately following the request that 
you made to have it be a part of the record.
    [The referenced information follows:]
    Senator Inhofe. That language is: ``If the scientific 
uncertainty is so profound that it precludes EPA from making a 
reasonable judgment as to whether greenhouses gases contribute 
to global warming, the EPA must say so.''
    The other thing, and this was brought up by Senator 
Barrasso, I know that this is on water, this hearing. But I 
agree with you, it is appropriate to bring up anything that is 
within the jurisdiction of this Committee. When he talks about 
the endangerment finding, I think it is very important, since 
we have Administrator Jackson here, I will recall a question 
that I asked Administrator Jackson, this would have been last 
December, right before I left for Copenhagen, when I asked the 
question, I have a feeling that we will be making an 
endangerment finding in the next few days. When you do, I would 
like to find out, ask you for the record, what science you 
would be basing it on. Your answer was, ``For the proposal, the 
agency relied in large part on the assessment reports developed 
by the Intergovernmental Panel on Climate Change.'' That is the 
U.N. IPCC that we have talked about quite often.
    Now, coincidentally, that was precisely the same time that 
ClimateGate came up, that was characterized as one of the worst 
scandals in our recent history. The Daily Telegraph in London 
said this scandal could well be the greatest in modern science. 
Clive Cook, who is quite an environmentalist, in the Atlantic 
Magazine said ``The closed-mindedness of these supposed men of 
science, their willingness to go to any length to defend a pre-
conceived message, is surprising even to me. The stink of 
intellectual corruption is overpowering.''
    I just want to keep getting this into the record, because 
this seems to be the science, in fact, we are writing about 
this right now. I think it is kind of interesting to see the 
kind of responses that we have been getting. I think it is 
important. We have said relying on science, sound science, so 
many times during the course of this hearing, and our previous 
hearings, that I think that we need to be doing that.
    Madam Administrator, let me real quickly just, I would just 
like to have the assurance that as you progress in the health 
effects of chromium VI that you would commit to this Committee 
that the EPA is not rushing the decisionmaking process and will 
allow for a full and complete assessment of the data. It was 
the California water agencies that came out with the report 
that to treat the chromium to a lower level has a cost of $300 
to $500 per acre foot, which is actually more than the purchase 
of the water itself. So that is a commitment I would like, that 
you would take all these things into consideration before 
coming to conclusions.
    Ms. Jackson. Senator, I commit to following the Safe 
Drinking Water Act, which puts in place a number of reviews, 
small business reviews, HHS consultation, a cost benefit 
analysis, a technology analysis to look at availability, and an 
impact to small systems. All of that is mandated by the law, 
and it is part of the reason it takes up to 2 years for EPA to 
propose a new standard.
    Senator Inhofe. The following question would take too long 
to answer, so I am going to ask you to answer it for the 
record, if you would. That is, in April 2010, the Inspector 
General declared or concluded that the EPA's science level was 
good. Then the standard came out in September of the same year, 
between those months. I would ask you, what led to the change 
in the agency position, specifically between those 2 months, on 
perchlorate?
    Then last, since the time is short and we have good 
attendance, and I am very thankful that we do, one of the 
things that I want to be very careful about is, I know that 
there is an effort out there to start regulating hydraulic 
fracturing. Not many people realize that with the huge reserves 
that we have, and the United States does have the largest 
recoverable reserves in coal, oil and natural gas, of any 
country in the world, that this particular technology that has 
been used since 1948, of hydraulic fracturing, is something, 
and I know this, because in 1948, it started in my State of 
Oklahoma, that there has not been a case, a documented case of 
groundwater contamination using hydraulic fracturing.
    If we are to develop the shale, particularly in any of 
these close formations, it has to be done, 100 percent of these 
recoverable reserves can only become a reality if we are using 
certain techniques. No. 1 would be that of hydraulic 
fracturing.
    So I would like to have you, and the request I would make 
of you, any response you want to make right now, of course, 
would be fine, but also of any further investigation into that 
technique, I want to be a part of it. Perhaps I can offer some 
personal expertise from personal experience, from our 
experience in Oklahoma.
    Ms. Jackson. Senator, we look forward to working with you. 
On hydraulic fracturing, we are about to round up our work 
plan, which has gone through peer review and public comment. We 
expect in the next month or two to have the work plan for our 
study finished.
    I want to make two points on hydraulic fracturing. One is 
that it is not an unregulated activity. Many localities, many 
States regulate various aspects of the drilling process. One 
thing I think EPA can do to add to the body of knowledge is to 
determine whether there are any holes in that regulatory 
structure. It is not necessarily Federal regulation that will 
be needed. It could be, I am not prejudging that.
    The second thing I will say is that I think what would give 
the American people comfort, with all that they are seeing 
about this technology, is a knowledge that regulators are not 
backing away from looking at it, but rather are doing 
everything we can to understand and ensure we have good 
science.
    Senator Inhofe. That you would take into consideration 
those regulations that come from the States because of the 
varying applications of this technology from State to State.
    Ms. Jackson. Certainly, sir. States are different, geology 
is different, the number of people and population density are 
different. But there may be a need for a Federal role. We 
simply don't know, and this study will take a while.
    I have to say for the record on climate change that after 
there were questions raised about one specific line of emails, 
there were numerous peer review studies and people who went 
back and re-reviewed and found that the data and the questions 
about the data and that scientific judgment did not change the 
basic science that man-made emissions are changing our climate, 
changing our atmosphere, degrading it to the point that it is 
impacting our planet. That is what the endangerment finding 
says.
    Senator Inhofe. That there are opposing views to your 
recommendations.
    Ms. Jackson. I absolutely acknowledge opposing views, 
including yours, Senator.
    Senator Boxer. Senator Inhofe went over 2 minutes and 25 
seconds. But I do have to correct the record, because you 
quoted me as saying it is appropriate to ask about carbon 
pollution. What I said was that this is a hearing on safe 
drinking water. But everyone has the right to say whatever they 
want, because it is America and we do that.
    But I would hope we would stick to the Safe Drinking Water 
Act. Because as we see Dr. Birnbaum sipping on her water, we 
all need to make sure that our kids, our grandkids and our 
families are drinking safe water.
    I also want to make a statement here. We are going to, 
Senator Barrasso and Senator Inhofe, we are going to absolutely 
look at the science of carbon pollution and its impact on our 
people, on our planet. So you will have plenty of time, because 
we are absolutely going to keep up with the science.
    So let me assure you of that, don't be fearful that we are 
not going to talk about it, because we really are looking 
forward to talking about it and working with Senator 
Whitehouse, because he has some oversight responsibility and he 
is working on getting us going with some hearings.
    So we now are going to call on Senator Cardin.
    Senator Cardin. Thank you, Madam Chair.
    Whether it is the Clean Water Act or the Clean Air Act, 
Administrator Jackson, I want to thank you for following the 
science. You have, we have documented hundreds of thousands of 
lives that have been saved, and the impact that clean water and 
clean air have on our economy, how important it is. For my 
State of Maryland, it goes beyond just health, it goes beyond 
just the economy. The health of the Chesapeake Bay is 
critically important for the quality of life for the people who 
live in this region.
    So my constituents want you to follow the science. But 
perhaps we need to do a better job in showing how we have 
connected the dots in saving lives and helping our economy and 
saving iconic features of this Nation for future generations.
    I want to ask you about the chromium VI, both our witnesses 
about the chromium VI. Because as you know, one of the cities 
that was reported was Bethesda, MD. We are being asked, should 
people who are a certain type take precautions in drinking the 
water that comes out of the tap in Maryland. What is the time 
line that you are looking at in being able to give further 
direction as to the potential risks that are out there in 
regard to chromium VI?
    Ms. Jackson. I will speak first about the regulatory time 
line, sir, and that comes straight of the Safe Drinking Water 
Act. There are a number of requirements once we get the risk 
assessment. We have already issued guidance on how to test. We 
have offered technical assistance. But it could take up to 2 
years, I think that will be the outside timeframe, for EPA to 
propose a safe level of chromium VI, to change the standard to 
include chromium VI. Then there is public comment and 18 months 
to final after that.
    Senator Cardin. Should we be, are there target groups that 
should be taking precautions?
    Ms. Jackson. I think the first thing is to test, to 
understand whether or not this one sample that was taken in 
Bethesda is representative of a problem in the entire system, 
and if so, why. That is the guidance we have already offered.
    I want the people of Bethesda, the people of America, to 
understand that our risk assessments look at lifetime, years 
and years of exposure to a chemical. So there is not something 
that is going to happen because of 1 day or 2 days. But that if 
there is real concern out there, there are products available 
in the marketplace, you have to make sure when you buy one of 
these that it actually treats chromium VI, but there are 
products that are available.
    Senator Cardin. Dr. Birnbaum.
    Ms. Birnbaum. The NTP studies not only show that chromium 
VI in drinking water was associated with cancer in both rats 
and mice, and both males and females, but it also showed that 
the levels that were associated with that cancer were within a 
factor of 10 of some of the highest levels that have been 
reported of human exposure, and within a factor of 50 of what 
we commonly see in drinking water, contaminated drinking water 
supplies. So we are not talking about thousands and thousands 
and thousands of fold greater levels.
    So I think there is some concern, I think we really don't 
now whether there is a susceptible population. That is what 
some of the basic research that we are funding is trying to 
understand, is what makes people especially susceptible.
    Senator Cardin. I would just ask that if risk factors 
become known that there be transparency and that we, that the 
public be made aware as soon as possible.
    I want to move to coal ash. There is some information out 
there that coal ash is a source of chromium VI. Madam Chairman, 
I will ask unanimous consent to put into the record a report 
from Earth Justice and Physicians for Social Responsibility 
that relates to that issue of coal ash and chromium VI.
    Senator Boxer. Without objection, so ordered.
    [The referenced document was not received at time of 
print.]
    Senator Cardin. I guess my question is, is EPA looking at 
coal ash as a source of chromium VI in our drinking water?
    Ms. Jackson. We are looking more broadly at coal ash as a 
source of several pollutants in our drinking water, and in fact 
have proposed and taken over 400,000 comments on regulation of 
coal ash to protect primarily our drinking water supplies.
    Senator Cardin. I would point out that coal ash that are 
put in landfills, we are concerned about. Coal ash that has 
been recycled and used for useful products, such as cement or, 
we would hope under RCRA, you would have the ability to 
distinguish between the coal ash that is being put at risk in 
our environment, and those that are being recycled.
    Ms. Jackson. That is absolutely right, Senator. I agree 
with that completely.
    Senator Cardin. Thank you.
    Thank you, Madam Chair.
    Senator Boxer. Thank you very much.
    Senator Johanns.
    Senator Johanns. Madam Chair, thank you.
    Let me if I might, because I mentioned this letter in my 
opening comments, just offer for the record, Madam Chairman, 
actually it is a letter that was written to the Ranking Member 
and I was copied. It is from Douglas R. Clark, the President of 
the Metropolitan Utilities District. I thought it was a very 
thoughtful letter.
    Senator Boxer. We will put it in the record, absolutely.
    [The referenced document was not received at time of 
print.]
    Senator Johanns. Great.
    Doctor, if I could start my questioning with you, and bear 
with me, here, because not only am I one of the newest members 
to the Committee, I don't come here with the scientific 
background that you possess or that the Administrator 
possesses. So it is going to be very important that you visit 
with me in easily understood terminology.
    To start out with, in response to a previous question by 
Senator Cardin, you talked about some research that had been 
done relative to chromium VI with animals. Then you talked 
about factor of, and factor of this. I want you to put that in 
language that I can understand. What are you telling me there, 
that they were exposed to exceedingly high levels that we have 
not found in drinking water yet?
    Ms. Birnbaum. The levels to which the animals were exposed 
in drinking water have been seen in human populations, not in 
this country, for example, but in China, where levels of the 
same concentration have been used.
    Senator Johanns. Have you found any drinking water anywhere 
in the United States that has hit those levels?
    Ms. Birnbaum. I have not seen that in drinking water. But I 
am not an expert in all the drinking waters that have been 
measured. As Administrator Jackson has been saying, they are 
doing a major study now to try to understand the extent of 
contamination of drinking water by chromium VI.
    Senator Johanns. OK. So what you are saying to me, now in 
understandable language, is that we exposed or somehow rats and 
mice got exposed to these exceedingly high levels, that at 
least to your knowledge we haven't found in any drinking water 
in the United States, and they had a problem.
    Ms. Birnbaum. There are some studies that are within a 
factor of 10 of some levels that have been reported in the 
United States.
    Senator Johanns. When you say factor of 10, 10 times?
    Ms. Birnbaum. Right, that the levels that our animals got 
were 10 times higher than some reported levels that people in 
the United States might be drinking.
    Senator Johanns. OK.
    Ms. Birnbaum. I think it is very important that when you 
try to extrapolate from animal studies to humans, animals have 
to drink a much higher concentration than people do to get the 
same amount into their bodies. That is kind of a difficult 
concept. But when you go to the doctor and he takes a blood 
sample, he is measuring a certain amount of chemical in your 
blood. In order to get that same amount of chemical in the 
blood, for example, of a rat or mouse, you often have to expose 
them to a much higher dose.
    Senator Johanns. So we have rat or mouse studies out there.
    Ms. Birnbaum. There are also quite a number of human 
studies that have demonstrated significant, statistically 
significant associations between chromium in drinking water, 
high levels of chromium in drinking water, and cancer. Another 
thing is, at least in certain cases, as I mentioned for 
trichloroethylene, when you use water coming out of your tap in 
an enclosed environment, like a shower, or laundry, certain 
chemicals can become volatilized, and then you can inhale them. 
We have known for over 30 years that inhaled chromium VI 
definitely causes cancer in people.
    Senator Johanns. OK. Now, Administrator Jackson, you have 
issued a guidance, right, relative to testing of chromium VI? 
That is what this letter referenced. In issuing that guidance, 
which causes people out there to do things, and I am guessing 
you hope they do, and spend money and et cetera, what 
scientific analysis or study did your folks rely upon that 
would cause you to take that step? This is no trick question. I 
am literally looking for a list of the studies they reviewed.
    Ms. Jackson. Well, sir, we can get you a list of 
information. What we did is encourage utilities to monitor. 
When this chromium VI study came out, I met with almost a dozen 
Senators in the Capitol, many of them from the cities at the 
top of the list. One of the things I committed to was giving 
technical assistance to utilities on how to monitor. So if they 
got data, it could be the result of a peer-reviewed 
methodology.
    So the methodology and the guidance that we issued was 
based on a peer-reviewed method. It was changed just slightly 
to make it useful to the utilities, but not in a way that we 
believe required another peer review. It was an attempt to make 
sure people had, from the Federal Government, what we believed 
would be the next prudent step.
    Senator Johanns. Here is the challenge with what you just 
told me. No. 1, I wonder what those studies are, and I am going 
to be anxious to get that list. So I will request that you 
provide that to all of us here. But No. 2, when you describe 
the action that you are expecting them to take, it is not very 
simple. This is a utility, for example, that complies with, 
that exceeds all Clean Drinking Water standards. If I am not 
mistaken, they had to go to another part of the country to get 
this tested.
    So I just want to make sure that before we send them off 
doing that we have a sound scientific basis to do that. Thank 
you, Madam Chair.
    Senator Boxer. Senator Lautenberg.
    Senator Lautenberg. Thank you, Madam Chairman.
    I listened for information that can help us do better at 
protecting our citizens. I guess if we stop putting out fires, 
it would be job-crushing for firemen. If we stopped writing 
laws here, it would be job-crushing for people working here.
    I take it that neither one of those things would be 
acceptable and that it is hard to understand whether or not 
there is any benefit to putting people, and to regulate at all, 
because if we didn't do these programs, A, it would hurt 
health, and B, I guess it would be called job-crushing. I don't 
get it. Because when these things are dressed up in that 
fashion, we are off the topic. We are not discussing the 
reality of health damage here. What we are doing is, we are 
simply overriding, saying, look, the EPA scientists, court 
decisions, they don't mean anything. These, if we do these 
regulations, it might help human health, help my kids, my 
grandchildren, everybody else's in the room have better health 
than it would be in the final analysis. Job-crushing. It may 
save lives. But if we stop regulating, then we would have a net 
gain. I don't understand that and I must tell you.
    Safe drinking water, Administrator Jackson and Dr. 
Birnbaum, currently allows EPA to allow only temporary 
monitoring for no more than 30 of the potentially hundreds of 
unregulated contaminants in our drinking water. In light of the 
success of other right-to-know programs at EPA, could the 
public benefit from a targeted increase in monitoring for 
unregulated contaminants?
    Ms. Jackson. Senator, I agree that the public has a 
fundamental right to know what is in their drinking water, what 
is in their water supply. Increased targeted monitoring would 
be useful in helping us to identify emerging threats, things 
that we don't know about but that we need to know for future 
generations. It should be done in a common-sense fashion, 
always balancing the burden on water systems against the 
potential threat to human and public health.
    Senator Lautenberg. Dr. Birnbaum, do you have any view that 
is different there?
    Ms. Birnbaum. Only that I would agree. I think I certainly, 
as a citizen, as we all are in this room, would very much like 
to know what it is that I am drinking.
    Senator Lautenberg. The shocking thing is that these 
programs develop almost in reflex action, it is in response to 
a condition, it is in response to the Superfund site that we 
found up in Massachusetts, created a Jimmy fund and so forth. 
It is response to crippling things for our children and the 
health of our elderly, those who are most fragile. But those 
things get no credit. The fact that I present here for you, in 
living color, that there are things that help people live 
longer. I hope they will keep on doing what they have been 
doing in the halls of science, because maybe I can reach 
maturity without further failure.
    [Laughter.]
    Senator Lautenberg. At a hearing of this Committee 2 years 
ago, I pointed out that only 6 percent of the water systems 
that broke the law were fined or punished by State or Federal 
officials. Don't object, Senator Inhofe, please. This rate 
provides little incentive to comply with the law. The head of 
EPA's enforcement assured me that a new policy would bring more 
systems into compliance.
    How many systems have come into compliance since this 
testimony in 2009?
    Ms. Jackson. Well, sir, because of proactive enforcement by 
EPA and our enforcement program led by Cynthia Giles, back in 
January 2010, we had almost 9,000 systems that had potential 
serious violations of the Safe Drinking Water Act. We have 
identified only 6,466 as of January of this year. So we are 
down by over 3,000 systems, certainly not acceptable, but that 
is the result of proactive work by EPA and by States and local 
governments to really crack down when we find violations of our 
Nation's safe drinking water requirements.
    Senator Lautenberg. Madam Chairman, I have other questions 
I will submit in writing. But again, I wonder, when I hear 
statements made here that talk to the particularly dark side of 
things, job crushing, et cetera, I wish we could examine it 
from the front side and say, how many lives would you like to 
save, how many kids would you like not to have difficulties 
with their health and getting to school and being like other 
kids. We don't seem to start on that side. We start on the side 
that said, job crushing. Thank you very much.
    Senator Boxer. Thank you so much.
    Next we will hear from Senator Barrasso.
    Senator Barrasso. Thank you very much, Madam Chairman. As a 
physician who has taken care of families all across the State 
of Wyoming for 24, 25 years, I know how important it is to work 
on preventive programs to keep people healthy. I would contend 
that America's physical health and our fiscal health, both our 
physical health and our fiscal health, are both tied to rulings 
out of the Environmental Protection Agency.
    So I find it interesting, and I have been trying to stick 
to the topic of water, that from the EPA, inside the EPA that 
has just come out, this is the January 28, this year, 2011, 
``Activists hope Vermont TMDL sets precedent for weighing 
climate impacts with regard to water quality requirements.'' 
This is all about water.
    So when I look at this, Administrator Jackson, considering 
that the EPA has recently allowed TMDLs to be used in 
consideration of effects of climate change, and specifically 
with the lake in Vermont, one of the members of our Committee 
is from Vermont, my question is, how many of these 43,000 TMDLs 
that the AMA lists as approved, because this is one that was 
approved, how many of those that are approved could now be 
revised in the future to consider the effects of climate 
change? This is what this is all about, using climate change as 
a way to regulate water. We have seen it in a State impacting 
one of our members. When you look at a list of how many TMDLs 
there are by State, people at this table all have many more 
than we have in Wyoming.
    Ms. Jackson. Senator, the work on Lake Champlain, that is 
the Lake Champlain TMDL, under the Clean Water Act, this is not 
a Drinking Water Act issue, this is a Clean Water Act discharge 
of contamination issue, continues and has been going on now 
through several administrations. I am not sure that I can 
confirm that that TMDL has been approved, but we will certainly 
get you that information for the record.
    Let me just say, the goal of the TMDL process, under the 
Clean Water Act, is to lessen and lessen the amount of 
contamination that goes into our water bodies. Lake Champlain 
is much prized and is having trouble with nutrients and algae. 
It is becoming, there are pockets of the lake that are dying 
out. So your specific question about climate is secondary, 
regardless of what inside the EPA says, to the overall goal of 
the Clean Water Act and the TMDL process, which is to protect 
the quality of our surface water.
    Senator Barrasso. I guess the question comes down to, can 
something be reopened once there has been something given. That 
is the concern that I am going to continue to raise with the 
Committee, retroactively going after something that has already 
been granted.
    The President had an executive order stating that agencies 
should consider when taking a look at the costs and benefits, 
he said ``Values that are difficult or impossible to quantify, 
including equity, human dignity, fairness, and disruptive 
impacts,'' I think it is easy to measure unemployment, 9.4 
percent, we know that our debt has gone up $3 trillion in the 
last 2 years, we have 3 million more unemployed in the last 2 
years, we know that burdensome regulations do have an impact on 
jobs, and it is quantifiable.
    My question is, is the language in the President's 
executive order, does it allow you to basically use anything 
you want in terms of making, saying benefits outweigh the 
costs?
    Ms. Jackson. I think the President's far-reaching executive 
order makes clear that there are some things that are hard to 
price. Our science may be good, but I don't know how you price 
the ability to try to forestall a child who may not get autism 
if they are not exposed to contaminated water. I think the 
language in that order is about those things where we can be 
protective, for a reasonable amount of money, to make sure that 
our children and future generations are not guinea pigs.
    Senator Barrasso. One of the comments in the President's 
order included, he said, modify, streamline, repeal 
regulations, he also said expand regulations. Are there 
additional expansions that you are planning?
    Ms. Jackson. As the President said, and I think our 
regulatory calendar, we have been very transparent with the 
regulations that are coming, many of them as a result of court 
actions, many because of regulations that were thrown out as 
illegal, proposed by the last Administration. We have a huge 
Clean Air Act backlog of regulations, public health 
regulations. But the President was very clear that, in the 
State of the Union, that we will be very smart about 
regulation, but we will not back away from creating and 
enforcing those regulations that have resulted in 92 percent of 
Americans having clean water, and that our air quality has 
gotten better, even as our GDP has grown 204 percent in this 
country.
    Senator Barrasso. Final question. Susan Dudley, George 
Washington University, talks about 132 economically significant 
Federal Government regulations, meaning that the impact of $100 
million per year, and that we now have 40 percent more Federal 
regulations in this period of time under President Obama, than 
we did even under President Bill Clinton. The regulatory work 
force has grown 16 percent in Mr. Obama's first 2 years in 
office. We now have 276,000 public members, while private 
employment has continued to fall.
    Do you have any idea how many private sector jobs have been 
lost because of these increased regulations?
    Ms. Jackson. Senator, I think the recent recession, all 
people agree, was a result of lack of regulation of the housing 
market that caused a collapse of our housing market. So the 
public health regulations under the Clean Water Act and Clean 
Air Act, I have not seen one of the industries claim that it 
was those regulations that somehow caused the housing market to 
implode.
    Senator Barrasso. Thank you, Madam Chairman.
    Senator Boxer. Thank you. Senator Merkley.
    Senator Merkley. Thank you very much, Madam Chairman, and 
Administrator Jackson.
    I know you are familiar with the Bull Run Reservoir, which 
is a remote basin in the Cascade Mountains surrounded by old 
growth that humans are not allowed to have access to, and is 
the principal water source for the Portland metro region. You 
all have worked with us to establish a monitoring regime for 
cryptosporidium. That data has been now compiled under that 
monitoring regime and the city will be seeking a variance to 
establish appropriate circumstances based on that data and this 
pristine water source.
    I believe EPA has now delegated to the State of Oregon 
responsibility for enforcing that part of the Clean Water Act, 
and so I believe the city will be applying to the State. So if 
the State approves a variance, will the EPA, does that kind of 
settle the question, or does the EPA then consider the 
possibility of appealing it or overturning it?
    Ms. Jackson. Senator, thank you for your strong interest in 
protecting that watershed. I still haven't seen it. My 
commitment to you is that EPA will work to support the State, 
to work closely with the State on the variance determination 
and help them in looking, if there are any conditions, will 
work with them. We don't expect that we would be working in 
opposition to them.
    Senator Merkley. Thank you. On your next trip to the 
Northwest, I continue to extend the chance to see that 
extraordinary green infrastructure first-hand, if you will.
    Then turning to chromium VI, the EPA standard, current 
standard of 100 parts per billion, is quite different than the 
California standard at 6 parts per billion and a proposed 
California standard of 0.2 parts per billion. There is a 5,000 
times difference between current EPA and proposed California. 
Do you have any sense where EPA's guidance will end up in this 
spectrum?
    Ms. Jackson. It would be irresponsible of me, Senator, to 
guess a number at this point. As you heard, there are a number 
of, required by law, by the Safe Drinking Water Act, analyses 
that we do. We certainly have to look at cost and feasibility 
and the particular impact on a smaller system in terms of 
public health. It is too soon for me to tell.
    Senator Merkley. Any insights on that, Doctor?
    Ms. Birnbaum. I think we need to see what the science is 
telling us. As Administrator Jackson has mentioned, it is 
currently out for peer review, their large assessment of the 
health effects and actual risk assessment. I think when that is 
completed and the peer review is completed on that, EPA will be 
able to move forward in some decisionmaking.
    Senator Merkley. Thank you. I appreciate the rigorous 
scientific process that you are going through to try to reach a 
decision that is correct for the health of citizens in our 
Nation. We do have a real interest in it in Oregon, because one 
of the tests that were in your earlier sampling across the 
Nation was from Oregon that found some hexavalent chromium. So 
folks are kind of in rapt attention and interested in the 
dialog on what is healthy and appropriate.
    Thank you.
    Senator Boxer. Just two little pieces of information for 
the colleagues. We are considering the FAA bill on the floor, 
and they expect up to three votes around 5 or 6. Just thought 
people would want to know that. That is early evening.
    The other thing is, just wanted to put in the record a 
document from the Office of Environmental Health Hazard 
Assessment from California. The last days of the Schwarzenegger 
Administration, they strengthened the proposed drinking water 
public health goal for chromium VI, based on the threats to 
children and other sensitive populations. I am going to put 
that in the record without objection.
    [The referenced document was not received at time of 
print.]
    Senator Boxer. I now call on Senator Boozman.
    Senator Boozman. Thank you, Madam Chair.
    I appreciate your testimony very much. I don't think there 
is any question at all that we don't need to prevent 
contaminants in drinking water. Again, I think everyone in this 
room is 100 percent with you.
    Dr. Birnbaum, again, after listening to you, I agree, 
everyone agrees that at some level, chromium VI causes cancer. 
The problem is figuring out what that level is.
    That is so important, because it seems like, well, there is 
a finite amount of money that have to deal with these problems. 
If we unnecessary ratchet down standards, that becomes very, 
very expensive to do, there is no money for these other things.
    Now, I don't know at this point, based on the science, if 
the cities that were investigated, if that is a problem. I can 
take you right now to hundreds of areas throughout the United 
States that have leaky pipes, that every time it rains hard, 
the sewer overflows. The pathogens surrounding there, we would 
all agree, are a huge problem. But again, there is no money for 
that, or there is not enough money. We are not doing as good a 
job as we can. So it is important that we get this right.
    Then also the unintended consequences, as you treat for 
these things, the chemicals that you use to get it out, 
disposing of what you are getting out and things like that.
    I have a problem with the methodology. There is a lot of 
criticism from the cities about the Environmental Working 
Group. Is it true, Ms. Jackson, that in Milwaukee that this was 
just from a tap some place within the city?
    Ms. Jackson. Yes, I believe what the EWG has said is that 
they went to random taps, one in each city that is reported.
    Senator Boozman. Again, and logically, I am an optometrist, 
I am not an expert on these things, but I do understand if you 
logically really wanted to find out what was going on, you 
would at least sample many sources within the city.
    Then also, as they did, they came back and they sampled the 
intake area, they sampled within the system and they sampled 
the discharge. Dr. Birnbaum, what do you think about that type 
of methodology? I mean, that makes no sense at all, does it?
    Then again, many of these cities were not notified until 
they read about this in the newspaper, and all of a sudden, 
they have this possible public issue on their hands that was 
done from a single source.
    Ms. Birnbaum. I think that the EWG report is what, in 
scientific terms, we would call is hypothesis generating. It 
proposes that there might be a problem. But we need, and the 
EPA is beginning to get that information, we need some kind of 
statistically based sampling of water supplies in this country 
in order to understand. A single sample, you really don't know 
where the contamination is coming from and even if it is real. 
So it needs to be repeated.
    Senator Boozman. But you never do things in that manner. 
The problem is, the press takes that and they don't know what 
you have just stated. So all of a sudden, it becomes gospel. So 
it is a real problem. It is hard for those of us who want to 
help when you have situations like that, it is hard to have 
confidence in the system as you go forward.
    In the testimony, Oklahoma City asked for the methodology, 
and evidently haven't been able to obtain it. Do you have a 
reason that you won't give the methodology to them?
    Ms. Jackson. I believe you are talking about the 
Environmental Working Group's methodology. She doesn't--we 
would have that. That is why we decided rather than to do that, 
to offer a methodology to water systems that could be used that 
had been peer-reviewed that we believed was State of the 
science. These are very low levels for chromium VI.
    Senator Boozman. I understand. But I think that they should 
have the right, you have essentially implied that something is 
going on, they should have the right to have the methodology 
that you used, I would very much like to see that also. I think 
the Committee would very much like to see that also, so that we 
can see, your credibility is on the line here. For you to have 
credibility, for us to have faith in what you are doing, I 
think we need to understand your working process in doing that.
    Ms. Jackson. Yes. Two clarifications, Senator. First, we 
have given a methodology that we believe is the one that should 
be used for systems who want to do their own testing. We have 
recommended that that is a reasonable next step.
    The second thing I would like to say is, the EWG study 
alone might have been something that we could dismiss. The 
really important piece of scientific information is that we are 
in the middle of a peer review that shows that chromium VI, 
which we previously thought was not a problem in water, is a 
problem in water and causes cancer. If that is true, that is a 
game-changing piece of information that will likely mean we 
have to address it through changing our standards. That science 
was going on before the EWG report came out. It has been out 
there for quite some time. The only reason we are not able to 
finalize it is, we are going through a peer review, very 
important step, to make sure that we have this right.
    Senator Boozman. I would like to see, again, the science, 
well, the lack of science, I think, that the working group 
used, and would like a copy of that. I think Oklahoma City is 
entitled to that also. Thank you.
    Ms. Birnbaum. I think, Senator, that you will be able to 
ask the head of the EWG to provide that for you when he 
testifies on the next panel.
    Senator Boozman. Very good. I will do that.
    Senator Boxer. Thank you.
    A couple of points. PG&E, which is our utility, paid 
millions of dollars in a settlement to the residents of 
Hinkley, this is a stockholder corporation, because there were 
levels of chromium VI. There were huge lawsuits. They settled 
the matter for hundreds of millions of dollars. It was the 
theme of the Erin Brockovich film. So there is a lot of 
different things out there.
    I just want to say, Dr. Birnbaum, I don't know what you are 
talking about when you say it poses, you say it is a 
hypothesis-based study. Does that mean that it poses an 
important question? Is that what that means, a hypothesis-based 
study? What is your definition?
    Ms. Birnbaum. I think it means that we have to look 
further.
    Senator Boxer. Right. So if somebody says it is a snapshot 
in time, would you buy that as what they showed us?
    Ms. Birnbaum. Yes, I think it is. It is a snapshot in time. 
Whether you would find the same thing if you measured the same 
tap waters next month, I don't know.
    Senator Boxer. Well, obviously. It is a snapshot.
    Senator Boozman. Madam Chair?
    Senator Boxer. I think when you say, hypothesis-based, I 
don't know what that means. I would appreciate it if you, just 
for my position here, you are saying it is a study that should 
be taken further. Is that what you mean by that?
    Ms. Birnbaum. I would agree. I think it is a study that 
raises the question, do we have a problem here.
    Senator Boxer. OK. Senator Udall.
    Senator Udall. Thank you, Madam Chair. I really appreciate 
your holding this hearing.
    The point that I think Senator Lautenberg made, and I think 
Administrator Jackson, you also made, is one that in the case 
of doing cleanup, and trying to extract chemicals or 
contaminants or things from our drinking water, there is a 
whole job growth side of this. Rather than being job killing or 
job crushing, you actually have an entrepreneurship side. I 
think you mentioned that a little bit.
    We have seen in New Mexico small businesses helping to 
solve drinking water problems. Several companies in New Mexico 
are actually getting back into manufacturing, making things in 
America here. We had one, Madam Chair, a company testified, the 
name of the company was Miox, testified before this Committee 
last year about their new processes they were getting into.
    So I think it is important to emphasize that probably every 
State around this Committee table has small businesses who are 
working on these kinds of things. I very much appreciate your 
making that point in your testimony.
    One of the questions, and let me just say, to preface this 
question, New Mexico has some big challenges when it comes to 
both the contaminants you are talking about, the perchlorate 
and the chromium VI. We have seen in this Environmental Working 
Group report chromium VI found at levels above 1 part per 
billion in Albuquerque, over 20 times the newly proposed 
standard in California. That was the eighth highest level in 
the investigation. Perchlorate also found in groundwater 
monitoring wells at national labs in New Mexico, in White Sands 
Missile Range.
    So the first question I would like to ask Administrator 
Jackson, what are the major sources of chromium in drinking 
water? How did it get there, and what can or should have been 
done to prevent chromium from making its way into drinking 
water sources?
    Ms. Jackson. Well, as you heard in Dr. Birnbaum's opening 
statement, there are a number of industrial processes that can 
produce chromium, everything from plating and tanning 
operations. Also, since chromium is a mineral, it can be found 
as a contaminant in things like coal, so it will show up in the 
emissions from a coal-fired plant or even potentially an oil-
fired plant.
    Then it is also naturally occurring in the ground, like 
arsenic, another pollutant that we regulate and have made 
tremendous progress in your State, Senator, but not without 
having to work with lots of systems and with the State very 
closely. We are also looking at the potential for chromium 
itself and possibly chromium VI to come from fixtures. We don't 
have enough information right now to know about that. Last but 
not least, it is very important for us to work with the 
providers to understand whether it comes from any of our 
disinfection activities, whether that actually increases the 
likelihood of chromium III transforming into chromium VI.
    Senator Udall. When you mentioned that these companies, 
through their various industrial processes, have put out the 
chemicals, rather than putting the costs over on a utility or 
some other place, it would seem to me that we should return to 
the principle, which I think was the basis of the Environmental 
Protection Agency, was the polluter pays. So when we have 
companies that are out there that are, as a by-product or 
however they are putting out these chemicals, and they are 
getting into the groundwater, we need to try at every level, 
from district attorneys to attorneys general to your 
enforcement effort to make sure that they are held accountable 
and that the polluters pay the price of this kind of thing.
    Would you agree with that, and does your enforcement 
operation try to move forward with those kinds of actions to 
send a message to the community that, you shouldn't be doing 
this, you shouldn't be contaminating drinking water?
    Ms. Jackson. Congress long ago embraced the idea that the 
polluter pays, that our groundwater, our drinking water belongs 
to us, and that as much as possible, industry should first 
prevent pollution and help to clean it up. Where we are now is 
that we are learning about emerging problems. As we do, we have 
to speak straightforwardly to the American people and to 
industry about the need to not take them for granted or look 
the other way as these problems emerge. They are not happy 
stories. But we don't get healthier by ignoring them.
    Senator Udall. Thank you, and I have other questions that I 
will submit for the record. Thank you, Madam Chair.
    Senator Boxer. Thank you.
    I want to put into the record, because Senator Boozman 
raised the issue of cost, which I think is essential, we need 
to know cost benefit. I am going to put into the record an 
analysis by the National Cancer Institute that found in 2006 
the direct cost of cancer care in America $104 billion. They 
have the numbers for 2005, the indirect cost in lost time and 
productivity at $135 billion. So you add that together, $240 
billion a year. So it is critical, I think, that we look at the 
costs of this from every perspective, the cost benefit. I will 
put that into the record.
    [The referenced document was not received at time of 
print.]
    Senator Boxer. Now, it is our time to thank you both very 
much for being here, for sharing your morning with us, close to 
almost afternoon. I think that we will be seeing a lot more of 
both of you as we move forward in this Congress. Thank you very 
much.
    We will call up our next panel, Mr. Ken Cook, the president 
of the Environmental Working Group. Ms. Carrie Lewis, from the 
Milwaukee Water Works, was due to be here. But because of 
severe weather, she was unable to travel to D.C. But she will 
have her testimony delivered by Diane VanDe Hei, executive 
director, Association of Metropolitan Water Agencies.
    Mr. Steven D. Lewis, the city manager of the city of 
Norman, due to severe weather, Mr. Lewis was unable to travel. 
But he is putting his statement in the record, without 
objection. I know we will have him on the phone, is that 
correct? He cannot be on the phone. OK. We will not do that, 
but I am sure, I will give extra time to Senator Inhofe to ask 
questions. Really, I will. So you will get 10 minutes for your 
questions.
    Mr. Chuck Murray, general manager of Fairfax Water. Dr. 
Thomas Burke, associate dean for Public Health Practice and 
Training, Johns Hopkins Bloomberg School of Public Health.
    I think all of you probably were very interested in the 
first panel. We really do need your expertise.
    So I would ask that we come to order, and those leaving 
please do so quietly. We will start with you, Mr. Cook, 
president, Environmental Working Group. Welcome.

STATEMENT OF KENNETH A. COOK, PRESIDENT, ENVIRONMENTAL WORKING 
                             GROUP

    Mr. Cook. Chairman Boxer, Ranking Member Inhofe----
    Senator Boxer. Excuse me, Mr. Cook.
    Senator Inhofe. Let me just interrupt a moment. 
Unfortunately, I will not be able to stay. I want to hear all 
of your statements. My concern is that you address the unfunded 
mandate portion of this. Those of us who have been mayors of 
cities, and I would identify with the remarks that were made by 
Senator Johanns, are very much concerned about this. So I would 
like to have you address that during the course of your 
statements.
    Thank you, Madam Chairman.
    Senator Boxer. OK. I am sorry, Mr. Cook, but we welcome you 
again.
    Mr. Cook. Thank you very much. Chairman Boxer and Ranking 
Member Senator Inhofe and distinguished members of the 
Committee, I very much appreciate the opportunity to testify 
today. We have prepared testimony, of course, to submit for the 
record. I would like to briefly summarize that, and if I may, 
address some of the issues that have come up in the discussion 
about our study. Because they are very important ones.
    Let me start off by saying, we have been working on 
drinking water issues at the Environmental Working Group for a 
long time. The reason we looked into hexavalent chromium, the 
reason we formed the hypothesis, was because we prepared, since 
2005, the only source that you can go to to look across the 
country, a very large data base, of as many of the drinking 
water contamination reports that have been filed by utilities 
with State agencies as we could assemble.
    When we looked at this set of data, we were able to 
determine that there were a number of cities that had detected 
and reported, as EPA required, total chromium levels. Our 
hypothesis was that if there were a number of cities that had 
total chromium, it was very likely that, if anyone bothered to 
look, we would find hexavalent chromium.
    California is the only State that tests for hexavalent 
chromium, and where they have tested for it, they have fairly 
routinely found it. It is not an accident that California, from 
a scientific standpoint, is driving the Nation in terms of 
trying to understand the implications of very low levels of 
ingestion of hexavalent chromium as a carcinogen.
    We recognized, and have stated in the study throughout its 
coverage that this puts water utilities in a bind. This is not 
a contaminant that they have put into the water. When we 
briefed the trade associations and called in advance to a 
number of the utilities, we made that very clear, that we 
recognized this was not their problem. Of the utilities we 
contacted before releasing the study, Norman was the only one, 
Norman, OK was the only one that really understood that this 
came from geological sources.
    But when we went ahead and submitted the tests, the 
samples, we followed a protocol that was published the day we 
published the report. It is in great detail, we have made it 
available to everyone. We used the methodology that EPA is now 
recommending for water utilities who wish to follow it, because 
it was approved by the Environmental Protection Agency for 
hexavalent chromium at those low levels. The detection limit is 
.02 parts per billion, which is the health guidance that has 
been recommended most recently for California.
    We were only able to conduct one sample per city in the 
time and with the funds we had available. But there has been 
new testing that has been conducted by a number of the cities 
and has been made public. Here is what they found. In Honolulu, 
they have reported 11 samples. We don't know the methodology, 
at least from what is before me, for certain. We don't know the 
exact location of where the samples were taken. But they found 
between .32 and 4.0 parts per billion. We found 2 parts per 
billion. So some of their samples were higher, some were lower.
    In the case of Madison, WI, they found, in four wells that 
they tested, .4 to 1.79 parts per billion. We found in our 
study 1.58. Again, within the range.
    Milwaukee tested and found .19 parts per billion to .22 
parts per billion. We found .18. Again, right in the middle. In 
the case of Norman, we have not seen the results yet. We look 
forward to that.
    In the case of Bend, OR, they have also reported results 
after our study. They tested four samples of source water from 
the Evian facility, .25 to .65. We found .78. That is the only 
city that has found slightly lower levels than the levels we 
found.
    Thank you, Madam Chairman.
    [The prepared statement of Mr. Cook follows:]
  Statement of Kenneth A. Cook, President, Environmental Working Group
    Madam Chair, Ranking Member Inhofe and distinguished members of the 
committee: My name is Kenneth A. Cook. I am the President of 
Environmental Working Group (EWG), a nonprofit research and advocacy 
organization based here in Washington, DC, with offices in Ames, Iowa, 
and Oakland, California. I thank the members of the committee for 
holding this important hearing and for the opportunity to testify.
    Ensuring safe, accessible drinking water is a core responsibility 
of the United States government. The United States has some of the best 
tap water in the world. But the safety of our drinking water is under 
constant stress. Among the major problems:
    <bullet>  Infrastructure is crumbling and decaying.
    <bullet>  Programs to protect source water lack funding.
    <bullet>  Utilities often can't afford to test for and treat 
contamination.
    <bullet>  Some disinfectants used to treat polluted water actually 
break down into toxic substances.
    <bullet>  The Environmental Protection Agency (EPA) has not 
established drinking water standards for so-called ``unregulated 
contaminants,'' harmful chemicals such as the industrial pollutant 
hexavalent chromium, the rocket-fuel component perchlorate and the 
perfluorinated chemicals PFOA and PFOS, active ingredients in stain 
removers and carpet cleaners.
    We believe that Administrator Jackson's national drinking water 
strategy has put EPA on the right track. The agency has made 
significant strides over the past 2 years to improve the quality of our 
drinking water. We welcome recent EPA moves to review water 
contaminants by class, develop new drinking water safety technologies 
and use other statutes such as the Federal pesticide law and toxics law 
to ensure water quality. We support EPA's initiatives to work with 
states to publish State and locality specific water quality data online 
and to give guidance to utilities on how to test and treat water for 
chromium-6 contamination. But more must be done to protect our nation's 
drinking water supply.
    Since 2005 the Environmental Working Group has published a 
searchable online data base of tap water quality called ``The National 
Drinking Water Data base.'' Our data base synthesizes more than 20 
million public water quality records. It allows citizens to look up 
water quality reports by zip code so they can learn more about 
regulated and unregulated water contaminants in their local water 
supply. The most recent edition of EWG's National Drinking Water Data 
base was published jointly in December 2009 with The New York Times' 
award-winning series ``Toxic Waters,'' which has done much to educate 
Americans about the State of the nation's water quality.
                       i. ewg's chromium-6 report
    On December 20, 2010, the Environmental Working Group released a 
study entitled ``Cancer-Causing Chromium-6 Pollution in U.S. Tap 
Water,'' which reported the results of our laboratory tests of drinking 
water from 35 cities. EWG conducted samplings in 35 cities whose annual 
water quality reports indicated significant total chromium pollution. 
Unfortunately, the total chromium measure doesn't tell residents what 
they most need to know, because the metallic element comes in several 
forms, including trivalent chromium, a mineral essential to health, and 
the toxic pollutant chromium-6, also known as hexavalent chromium or 
the ``Erin Brockovich chemical,'' for her storied campaign to uncover 
industrial dumping.
    The Federal National Toxicology Program has concluded from animal 
testing that the pollutant shows ``clear evidence of carcinogenic 
activity.'' An EPA draft review called chromium-6 in tap water ``likely 
to be carcinogenic to humans.''
    Because few jurisdictions test specifically for chromium-6, EWG 
engaged volunteers to collect samples, using a standard protocol, from 
unfiltered taps in homes or in public buildings. We sent these samples 
to a nationally recognized laboratory. The tests found toxic hexavalent 
chromium in the water supplies of 31 cities, serving more than 26 
million Americans.
    On December 31, 11 days after we released our report, California 
lowered its chromimum-6 public health goal from 0.06 to 0.02 parts per 
billion (ppb). Our chromium-6 readings in all 31 cities were higher 
than California's new proposed safe limit. This is troubling.
    In fact many members of this committee represent states where we 
found high concentrations of chromium-6. Among them:
    <bullet>  Riverside, CA-1.69 ppb
    <bullet>  San Jose, CA -1.34 ppb
    <bullet>  Los Angeles, CA-0.20 ppb
    <bullet>  Sacramento, CA-0.16 ppb
    <bullet>  Omaha, NE-1.07 ppb
    <bullet>  Albuquerque, NM-1.04 ppb
    <bullet>  Bend, OR-0.78 ppb
    <bullet>  Bethesda, MD-0.19 ppb
    <bullet>  Syracuse, NY-0.12 ppb
    <bullet>  Buffalo, NY-0.07 ppb
    The highest level detected was 12.9 ppb in Norman, Oklahoma.
    This study was meant to be a ``snapshot'' of chromium-6 
contamination in the country, not a comprehensive assessment of each 
community's water supply. More comprehensive tests should be undertaken 
immediately. The number of Americans drinking tap water contaminated 
with chromium-6 is likely far higher than indicated by EWG's tests. At 
least 74 million people in nearly 7,000 communities drink tap water 
polluted with total chromium, according to EWG's 2009 analysis of water 
utility tests from 48,000 communities in 42 states. We don't know how 
many of those communities have water polluted with chromium-6. We 
should find out. People have a right to know whether they are being 
exposed to this dangerous substance.
 ii. epa's current total chromium standard does not adequately protect 
                 public health from chromium-6 exposure
    EWG's report is the broadest publicly available survey of chromium-
6 to date. In California, the only State that requires testing for 
chromium-6, water systems have detected it in tap water supplied to 
more than 31 million residents. Chromium-6 is commonly discharged from 
steel and pulp mills and metal-plating and leather-tanning facilities. 
Naturally occurring chromium-6 can enter water supplies through erosion 
of soil and rock.
    The EPA has set a legal limit of 100 parts per billion of total 
chromium to protect against ``allergic dermatitis'' (skin irritations 
or reactions). Total chromium is composed primarily of toxic hexavalent 
chromium, or chromium-6, and the necessary mineral trivalent chromium, 
which regulates glucose metabolism. Our tests found that in most cases, 
the largest component of total chromium was the hexavalent form.
    Yet the EPA's legal limit for total chromium is 1,700 times higher 
than California's proposed public health goal for hexavalent chromium, 
and 5,000 times higher than the most recent proposed public health goal 
issued by California. This disparity shows that the total chromium 
regulation is out of sync with the established science on the public 
health risks of chromium-6 exposure.
    The California Environmental Protection Agency establishes drinking 
water public health goals based on public health considerations using 
the best available data in the scientific literature. Setting a public 
health goal is the first step toward establishing a statewide 
enforceable drinking water limit. In response to the National 
Toxicology Program's finding that chromium-6 in drinking water shows 
``clear evidence of carcinogenic activity'' in lab animals, California 
proposed a public health goal of 0.06 parts per billion. The California 
EPA asserted: ``The findings of available human, animal, genotoxic, and 
toxicokinetic studies all indicate that hexavalent chromium is a 
possible human carcinogen by the oral route.'' On December 31, 2010, 
California lowered its public health goal for hexavalent chromium to 
0.02 ppb, based on research on ``early in life exposures and cancer 
potency'' of chromium-6.
    The US EPA's most recent analysis of chromium-6 toxicity, released 
in draft form in September 2010, cites significant cancer concerns 
linked to exposure to the contaminant in drinking water. It highlights 
several disorders reported in animal studies, including anemia and 
damage to the gastrointestinal tract, lymph nodes and liver.
    Chromium-6 is particularly dangerous to people whose stomachs are 
insufficiently acidic. They appear to have limited availability to 
convert hexavalent chromium to trivalent chromium.
    Children are also at heightened risk. According to the National 
Academy of Sciences, the developing organs of children and infants are 
more vulnerable to damage from chemical exposures and children are less 
able to excrete dangerous chemicals.
 iii. epa should resist industry's well-documented efforts to prevent 
                   specific regulation of chromium-6
    Many Americans are familiar with chromimum-6 because of the film 
``Erin Brockovich,'' and Ms. Brockovich's tireless work to expose 
Pacific Gas & Electric Co.'s (PG&E) dumping of the chemical into the 
groundwater around the small California community of Hinkley. In 1996, 
thanks in large part to Ms. Brockovich's investigation, Hinkley 
residents won a $333 million settlement from the giant utility. Less 
heralded is the case of the residents of Kettleman City, Calif., who 
settled with PG&E for $335 million in 2006. The machinations during 
this lawsuit brought to light the utility's efforts to cover up health 
risks associated with chromium-6.
    The Kettleman story began nearly 25 years ago in China's Lioang 
Province, when researchers found an increased risk of stomach cancer 
and a ``significant excess of overall cancer mortality'' among 
villagers whose drinking water was polluted by a chromium ore 
processing facility. Ten years later the Journal of Occupational and 
Environmental Medicine published a paper that was purportedly written 
by the same Chinese research team and that reversed the earlier 
conclusion. Scientists and regulators, including EPA officials, cited 
the paper in research and safety assessments. However, investigations 
by EWG and the Wall Street Journal in 2005 disclosed that a consulting 
firm named ChemRisk, hired by PG&E, had conducted its own analysis of 
the Chinese data and deliberately excluded reports of cancer cases that 
pointed to an association with chromium-6. ChemRisk submitted the paper 
to the Journal of Occupational and Environmental Medicine without 
disclosing PG&E's involvement. In 2006, the journal retracted the 
paper, citing undisclosed ``financial and intellectual input to the 
paper.'' For decades, industry has worked to prevent regulation of 
chromium-6 and it's time for the government to act to protect public 
health--especially the health of vulnerable populations like children 
and pregnant women--from this cancer-causing chemical.
    iv. epa should establish a specific drinking water standard for 
                               chromium-6
    Immediately after we released our 35-city report on December 20, 
EPA Administrator Lisa P. Jackson told a bipartisan group of 10 
Senators, including members of this committee, that the agency would 
complete a scientific review of the chemical by summer and might 
consider mandating cities to test for chromium-6 in tap water. Thank 
you, Madam Chair, for your letter with Senator Feinstein, to the 
Administrator urging EPA to act quickly to decide whether to issue a 
health advisory on chromium-6 under the Safe Drinking Water Act.
    The EPA reacted swiftly with a four-point plan to help water 
utilities assess chromium-6 pollution and a pledge to set a nationwide 
safety standard. Administrator Jackson announced that EPA would provide 
technical assistance to the 31 chromium-6 communities listed in our 
report. Earlier in January, EPA implemented point two of its plan and 
issued enhanced guidance detailing where and how often water utilities 
should collect samples and outlining protocols for laboratory testing.
    We support EPA's quick action in light of our report's findings. 
Three cities we sampled have conducted their own tests and found 
similar results, and many water utilities across the country are 
assessing potential chromium-6 pollution in their drinking water. We 
will continue to press for more protective Federal standards for 
chromium-6 in drinking water, and we look forward to working with the 
agency and water utilities to address this health concern.
    As I mentioned, we estimate that at least 74 million Americans in 
42 states drink chromium-polluted tap water, much of it likely in the 
form of hexavalent chromium. EPA's legal upper limit for total 
chromium, 100 parts per billion, was set nearly 20 years ago and is 
wholly inadequate. Furthermore, EPA has not set a new drinking water 
standard under the Safe Drinking Water Act since 2001. Three-quarters 
of the current standards date from 1991 and 1992 and have not been 
modernized. Since 1996, EPA has reviewed toxicity and water pollution 
data for 138 unregulated chemicals but declined to set a safe and 
legally enforceable drinking water standard for any of these chemicals.
    It's important that EPA move quickly to set an enforceable drinking 
water standard for chromium-6 and require water utilities to test for 
it. However, the past lack of action has shown that when it comes to 
setting enforceable drinking water standards the agency often needs a 
legislative push. Therefore, we strongly support Senator Boxer and 
Senator Feinstein's legislation, S. 79, which would establish a 
timeline for EPA to set a health advisory and specific chromium-6 
drinking water standard.
v. the federal government should provide substantial funding for source 
     water protection and for water utilities to conduct necessary 
          infrastructure upgrades, water testing and treatment
    The best way to remove chromium-6 from the nation's drinking water 
is to keep it out in the first place. Environmental Working Group 
strongly supports increased investment in source water protection, 
including the reauthorization and full funding of the drinking water 
and clean water State revolving loan funds.
    But where hexavalent chromium already contaminates local water 
supplies, no one-size-fits-all solution exists. Some utilities may be 
able to respond adequately to high levels of hexavalent chromium in 
finished tap water by modifying disinfection procedures. For instance, 
chlorine, widely used as a tap water disinfectant, can cause trivalent 
chromium to become the hexavalent form. Another common disinfectant, 
chloramine, does not trigger this effect. Other utilities might be wise 
to shift to other water sources, drawing less water from more 
contaminated sources. Technologies effective for reducing hexavalent 
chromium in tap water include membrane filtration by nanofiltration and 
reverse osmosis, anion exchange, reduction followed by coagulation and 
precipitation, and absorption. Over the past year, the city of 
Glendale, California, for example, has been evaluating two new 
hexavalent chromium treatment and testing facilities. Research 
conducted at these facilities and around the country can help local 
utilities address chromium-6 contamination.
    Cleaning up hexavalent chromium pollution has its costs. But 
ignoring it is not an option. Cities like Norman and Milwaukee deserve 
credit for following up promptly on our findings. The next step is to 
find ways to minimize contamination that could damage human health.
    We also strongly support efforts to address other so-called 
``unregulated contaminants,'' such as the rocket fuel ingredient 
perchlorate and the perfluorinated chemicals PFOA and PFOS. It's time 
for us to catch up to the science and to regulate these known drinking 
water contaminants.
    But here's the bottom line: our nation's water utilities need help. 
We must provide them with the necessary funding for infrastructure 
upgrades, water treatment technologies, and testing protocols to 
protect our drinking water supply. Our health --and especially our 
children's health--depends on their doing the job right. And in these 
stark fiscal times, protecting our nation's public drinking water 
supply should be a top funding and oversight priority for Congress.
                               references
    ACC (American Chemistry Council). 2010. Letter to the Office of 
Environmental Health Hazard Assessment. June 17, 2010.
    AWWARF (American Water Works Association Research Foundation, now 
the Water Research Foundation). 2004. Occurrence Survey of Boron and 
Hexavalent Chromium.
    Anderson SA, Valentine JL, Fernando R, Sparacino CM, Collins B. 
2002. Chromium accumulation in the tissues of rats, mice and guinea 
pigs exposed to sodium dichromate dihydrate in drinking water for 
twenty-one days. Toxicol Sci 66(Suppl 1): 138.
    Beaumont JJ, Sedman RM, Reynolds SD, Sherman CD, Li LH, Howd RA, et 
al. 2008. Cancer mortality in a Chinese population exposed to 
hexavalent chromium in drinking water. Epidemiology 19(1): 12-23.
    Borneff J, Engelhardt K, Griem W, Kunte H, Reichert J. 1968. 
[Carcinogens in water and soil. XXII. Mouse drinking water experiments 
with 3,4-benzopyrene and potassium chromate]. Arch Hyg Bakteriol 
152(1): 45-53.
    Brandt-Rauf P. 2006. Editorial retraction. Cancer mortality in a 
Chinese population exposed to hexavalent chromium in water. Journal of 
Occupational and Environmental Medicine/American College of 
Occupational and Environmental Medicine 48(7): 749.
    CDPH (California Department of Public Health). 2009. Chromium-6 in 
Drinking Water Sources: Sampling Results. California Department of 
Public Health, Sacramento, CA. February 17, 2009. Available at: 
www.cdph.ca.gov/certlic/drinkingwater/Pages/Chromium6sampling.aspx.
    Costa M. 1997. Toxicity and carcinogenicity of Cr(VI) in animal 
models and humans. Critical Reviews in Toxicology 27(5): 431-442.
    Donaldson RM, Jr., Barreras RF. 1966. Intestinal absorption of 
trace quantities of chromium. The Journal of Laboratory and Clinical 
Medicine 68(3): 484-493.
    Donohue JM, Lipscomb JC. 2002. Health advisory values for drinking 
water contaminants and the methodology for determining acute exposure 
values. Sci Total Environ 288(1-2): 43-9.
    EPA (Environmental Protection Agency). 2000. Hazard summary for 
chromium compounds. Available at: www.epa.gov/ttn/atw/hlthef/
chromium.html.
    EPA (Environmental Protection Agency). 2003. Six-Year Review 1 of 
Drinking Water Standards. EPA 815-F-03-001. U.S. Environmental 
Protection Agency, Office of Water. July 2003. Available at: 
www.epa.gov/safewater/review/first_review.html.
    EPA (Environmental Protection Agency). 2009. Six-Year Review 2 
Health Effects Assessment: Summary Report. EPA 822-R-09-006. U.S. 
Environmental Protection Agency, Office of Water. October 2009. 
Available at: www.epa.gov/safewater/review/second_review.html.
    EPA (Environmental Protection Agency). 2010a. Toxicological Review 
of Hexavalent Chromium (CAS No. 18540-29-9) (External Review Draft). 
EPA/635/R-10/004A. September 2010. Available at: oaspub.epa.gov/eims/
eimscomm.getfile?p_download_id=498712.
    EPA (Environmental Protection Agency). 2010b. Drinking Water 
Contaminants. Available at: www.epa.gov/safewater/contaminants/
index.html.
    EWG (Environmental Working Group). 2005. Chrome-Plated Fraud: How 
PG&E's scientists-for-hire reversed findings of cancer study. Available 
at: www.ewg.org/erinbrockovichchromium6lawsuit/.
    EWG (Environmental Working Group). 2006. Letter to JOEM. Available 
at: www.ewg.org/node/21952.
    EWG (Environmental Working Group). 2009. EWG's Drinking Water 
Quality Analysis and Tap Water Data base. Available at: http://
www.ewg.org/tap-water/home.
    Finley BL, Kerger BD, Katona MW, Gargas ML, Corbett GC, Paustenbach 
DJ. 1997. Human ingestion of chromium (VI) in drinking water: 
pharmacokinetics following repeated exposure. Toxicology and Applied 
Pharmacology 142(1): 151-159.
    Gwiazda R. 2008. Review of the document ``Public Health Goal for 
hexavalent chromium in drinking water'' Prepared by the Office of 
Environmental Health Hazard Assessment (OEHHA) of the California 
Environmental Protection Agency in January 2008: Pesticide and 
Environmental Toxicology Branch, Office of Environmental Health Hazard 
Assessment, California Environmental Protection Agency. Available at: 
www.oehha.org/water/phg/pdf/Cr_Gwiazda090909.pdf.
    IARC (International Agency for Research on Cancer). 1990. Chromium 
and chromium compounds. International Agency for Research on Cancer. 
IARC Monogr Eval Carcinog Risks Hum 49:49-214.
    Kerger BD, Paustenbach DJ, Corbett GE, Finley BL. 1996. Absorption 
and elimination of trivalent and hexavalent chromium in humans 
following ingestion of a bolus dose in drinking water. Toxicology and 
Applied Pharmacology 141(1): 145-158.
    Lai H, McNeill LS. 2006. Chromium redox chemistry in drinking water 
systems. J Environ Eng 132(8): 842-851.
    McCarroll N, Keshava N, Chen J, Akerman G, Kligerman A, Rinde E. 
2010. An evaluation of the mode of action framework for mutagenic 
carcinogens case study II: chromium (VI). Environmental and Molecular 
Mutagenesis 51(2): 89-111.
    NAS (National Academy of Sciences). 1993. Pesticides in the Diets 
of Infants and Children. Washington DC: National Academy Press.
    NRC (National Research Council). 2008. Phthalates and Cumulative 
Risk Assessment: The Task Ahead. Available at: www.nap.edu/catalog/
12528.html.
    NTP (National Toxicology Program). 2007. Actions on Draft NTP 
Technical Reports Reviewed by the NTP Board of Scientific Counselors 
Technical Reports Review Subcommittee, May 16-17, 2007, Minutes 
available at: ntp.niehs.nih.gov/files/
TRRS_MIns_May_2007_bs8rgMW[1]1.pdf.
    NTP (National Toxicology Program). 2008. NTP Technical Report on 
the Toxicology and Carcinogenesis Studies of Sodium Dichromate 
Dihydrate (CAS No. 7789-12-0) in F344/N Rats and B6C3F1 Mice (Drinking 
Water Studies). NTP TR 546, NIH Publication No. 07-5887: National 
Toxicology Program, National Institutes of Health, U.S. Department of 
Health and Human Services. Available at: http://ntp.niehs.nih.gov/
files/546_web_FINAL.pdf.
    OEHHA (Office of Environmental Health Hazard Assessment). 2009. 
Draft Public Health Goal for Hexavalent Chromium in Drinking Water: 
Pesticide and Environmental Toxicology Branch, Office of Environmental 
Health Hazard Assessment, California Environmental Protection Agency. 
Available at: www.oehha.ca.gov/water/phg/pdf/Cr6PHGdraft082009.pdf.
    OEHHA (Office of Environmental Health Hazard Assessment). 2010. 
Peer Review Comments regarding 2001 Draft Public Health Goal for 
Hexavalent Chromium in Drinking Water. Available at: www.oehha.ca.gov/
water/phg/chrom-2010.html.
    USGS (United States Geological Survey). Mineral Commodity 
Summaries: Chromium. January 2010.
    Zhang JD, Li S. 1997. Cancer mortality in a Chinese population 
exposed to hexavalent chromium in water. Journal of Occupational and 
Environmental Medicine/American College of Occupational and 
Environmental Medicine 39(4): 315-319.
    Zhang JD, Li XL. 1987. [Chromium pollution of soil and water in 
Jinzhou]. Zhonghua yu fang yi xue za zhi [Chinese Journal of Preventive 
Medicine] 21(5): 262-264.
                              ATTACHMENT A
    Cancer-Causing Chromium-6 Pollution in U.S. Tap Water, 
Environmental Working Group (December 20, 2010) (available at http://
static.ewg.org/reports/2010/chrome6/html/home.html)

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  Responses by Kenneth Cook to Additional Questions from Senator Boxer
    Question 1. The Environmental Working Group's recent investigation 
found chromium-6 in the tap water of 31 cities across the Nation. 
Describe what the main message is from your report and the steps that 
you believe EPA should take to address the potential public health 
threats from chromium-6 in tap water?
    Response. The main message from our ``Chromium-6 in U.S. Tap 
Water'' study is that the pollution from chromium-6 in U.S. drinking 
water is more widespread than was previously acknowledged or known by 
water utilities and EPA. Americans have a right to know what 
contaminants are in their tap water. Another message is that more 
testing is needed on the prevalence of chromium-6 in drinking water and 
that the EPA must set a safety standard as soon as possible. For those 
reasons EWG fully supports EPA's Guidance for Enhanced Monitoring of 
Hexavalent Chromium in Drinking Water, which was released on January 
11, 2011. We are pleased to see that our study and EPA's guidance has 
motivated cities and utilities to test their water. In most cases the 
cities found similar or even higher levels of chromium-6 than our 
results:
    <bullet>  Honolulu, HI
    <bullet>   EWG Study--2.00 parts per billion (ppb)
    <bullet>   Honolulu Board of Water Supply--0.32 ppb to 4.00 ppb 
from 11 samples
    <bullet>  Madison, WI
    <bullet>  EWG Study--1.58 ppb
    <bullet>  Madison--0.40 ppb to 1.79 ppb from four wells
    <bullet>  Milwaukee, WI
    <bullet>  EWG Study--0.18 ppb
    <bullet>  Milwaukee--0.19 ppb to 0.22 ppb from 18 samples
    <bullet>  Bend, OR
    <bullet>  EWG Study--0.78 ppb
    <bullet>  Avion Water (private water supplier)--0.25 ppb to 0.65 
ppb from four samples
    We also fully support your legislation, S. 79, the Protecting 
Pregnant Women and Children From Hexavalent Chromium Act of 2011, to 
ensure that EPA does set a drinking water standard for this dangerous 
chemical.

    Question 2. Describe what your organization found regarding 
industry's influence on the science concerning the potential health 
effects from drinking chromium-6.
    Response. In 2005 investigations by Environmental Working Group and 
The Wall Street Journal revealed that ChemRisk, a consulting firm hired 
by Pacific Gas & Electric Co. (PG&E) to fight the Hinkley, California 
lawsuit had placed a falsified article in the Journal of Occupational 
and Environmental Medicine (JOEM).
    In the 1980's researchers in China's Liaoning Province found an 
increased risk of stomach cancer and a ``significant excess of overall 
cancer mortality'' among villagers who had drinking water polluted by a 
chromium ore processing facility. These findings did not receive much 
attention because they were published in a Chinese-language medical 
journal.
    In 1997, however, the JOEM published a paper, purportedly by the 
same Chinese research team, which reversed the previous conclusion and 
said the data actually ``do not indicate an association of cancer 
mortality with exposure to [hexavalent-chromium]-contaminated 
groundwater.'' EWG and The Wall Street Journal investigated the article 
only to discover that the report was fabricated. The journal retracted 
the fraudulent paper in 2006. Subsequently, California officials 
conducted a re-assessment of the study data and found a statistically 
significant increase in stomach cancer among people exposed to 
chromium-6.
    This industry deception alarms us especially given the extent of 
chromium-6 contamination nationwide.

    Question 3. Describe the Environmental Working Group's views on the 
need to address perchlorate contamination in drinking water.
    Response. We've believed that EPA must set a safe drinking water 
standard on perchlorate for many years. We thank you for your 
leadership in pushing the agency for more than a decade. We also 
applaud Administrator Jackson's announcement at the February 2, 2011 
hearing that EPA is moving forward with development of a first-ever 
national drinking water standard for perchlorate. We look forward to 
seeing the agency's proposed rule establishing this standard.
    Scientific research has established that perchlorate in significant 
amounts disrupts production of thyroid hormones, and adequate thyroid 
hormones are crucial to normal brain development and growth in the 
fetus, infants and young children.
    EWG has documented the significant concerns and presence of 
perchlorate including in our ``Rocket Fuel in Drinking Water'' report, 
released in 2003, which determined that it had been found in drinking 
water, groundwater or soil in at least 43 states. Our 2008 analysis of 
FDA data, ``FDA Food Testing Shows Widespread Rocket Fuel Contamination 
of Commonly Consumed Foods and Beverages,'' found that 75 percent of 
nearly 300 commonly consumed foods and beverages--dairy, vegetables and 
fruit--were contaminated with perchlorate.
    The time for regulation of perchlorate is now. The science is well 
established and we encourage EPA to move swiftly in finalizing 
perchlorate regulations.
                                 ______
                                 
 Response by Kenneth Cook to an Additional Question from Senator Carper
    Question. How can the Federal Government focus its efforts to 
improve drinking water quality on pollution prevention? What kinds of 
tools and programs exist to prevent the pollution of drinking water and 
what new ones are needed?
    Response. The most cost effective and best way to prevent chromium-
6 pollution of the nation's drinking water is to keep it from getting 
in there in the first place. Environmental Working Group fully supports 
increased investment in source water protection, including aquatic 
buffers and erosion and sediment control, and urges cities to follow 
EPA's Guidance for Enhanced Monitoring of Hexavalent Chromium in 
Drinking Water so that we can get a fuller perspective of the 
prevalence of chromium-6 pollution. A more complete picture will allow 
the Federal Government to better target financial resources for source 
water protection.
    We also urge congressional efforts to restore President Obama's 
proposed fiscal year budget cuts to the drinking water and clean water 
State revolving funds. We need to make a full investment in our water 
infrastructure. The price of doing so will not go down, it will just 
continue to increase. With investment delays, more Americans will be 
exposed to dangerous chemicals in their drinking water.
                                 ______
                                 
        Responses by Kenneth Cook to Additional Questions from 
                           Senator Lautenberg
    Question 1. The Safe Drinking Water Act currently allows EPA to 
require only temporary monitoring for no more than thirty of the 
hundreds of unregulated contaminants in our drinking water. This leaves 
additional testing to groups like EWG. Do you think the Safe Drinking 
Water Act should be amended to allow EPA to increase monitoring for 
unregulated contaminants?
    Response. In December 2009, Environmental Working Group released 
our ``National Drinking Water Data base.'' (available at: http://
www.ewg.org/tap-water/home) This study assembled an unprecedented 20 
million drinking water quality tests performed by water utilities 
between 2004-2009. It showed 316 contaminants in water supplied to 256 
million Americans in 48,000 communities in 45 states. Nearly 64 
percent--202--of the 316 contaminants in drinking water remain 
unregulated by the EPA. It is clear that Administrator Jackson has 
taken a strong first step through the agency's drinking water strategy. 
EPA needs to rid our drinking water of these so-called ``unregulated 
contaminants.''
    In 2010, EPA Administrator Jackson announced the agency's new 
drinking water strategy with the goal of more quickly and effectively 
reviewing and addressing the health risks posed by drinking water 
contaminants. This new strategy includes goals to address contaminants 
as groups, foster development of new drinking water technologies, use 
of multiple authorities like TSCA, and partner with states to develop 
shared access to monitoring data. These are all steps in right 
direction.
    On March 4, 2011 EPA released the proposed contaminants for the 
third Unregulated Contaminant Monitoring Rule (UCMR 3) including 
perfluorinated compounds. Unfortunately, EPA has not set a new drinking 
water standard under the Safe Drinking Water Act since 2001. It is 
important that EPA not be limited in the amount of chemicals they are 
allowed to include in the UCMR. Instead, Congress should require that 
EPA monitor a set minimum number of unregulated contaminants. Congress 
should also continue its robust oversight of EPA's efforts--or lack 
thereof--in setting safe drinking water standards.

    Question 2. As you know, I have introduced legislation to reform 
the Toxic Substances Control Act to require companies to prove that 
chemicals are safe for their intended use. How would reforming TSCA 
help improve drinking water quality?
    Response. The Safe Chemicals Act would help improve drinking water 
quality because the safety standard in the legislation requires that 
EPA consider aggregate or cumulative exposures to a chemical for 
vulnerable populations. The exposure must present a negligible risk of 
an adverse effect. This safety standard means that upon enactment of 
the Safe Chemicals Act, EPA will be tasked with looking at all routes 
of exposure for chemicals including through drinking water, consumer 
products and personal care products. EPA is already operating under its 
new drinking water strategy, one tenant of which is to utilize multiple 
authorities. Unfortunately the safety standard under TSCA is so weak 
that only five chemicals have been regulated in 35 years. Under the 
Safe Chemicals Act, EPA will be able to improve water quality by 
regulating chemicals that pose a risk to human health through all 
routes of exposure including drinking water.

    Senator Boxer. Thank you. That is very helpful.
    We will now hear from Ms. Diane VanDe Hei.

 STATEMENT OF DIANE VanDe HEI, EXECUTIVE DIRECTOR, ASSOCIATION 
                 OF METROPOLITAN WATER AGENCIES

    Ms. VanDe Hei. Good morning, Madam Chairman, Ranking Member 
Inhofe and the rest of the Committee.
    My name is Diane VanDe Hei. I am Executive Director of the 
Association of Metropolitan Water Agencies. It is an 
organization of the Nation's largest drinking water systems, 
serving over 130 million people with safe drinking water.
    Carrie Lewis, Superintendent of Water for the city of 
Milwaukee, was invited to testify today, but due to weather 
conditions in the Midwest, was unable to make it. I know she 
would like to be here.
    This morning, I would like to talk to you about the 
drinking water regulatory process from the point of view of the 
drinking water utility community and about the recent report 
from the EWG group that detected traces of chromium VI in the 
drinking water of 31 communities.
    Like the members of the Committee, AMWA's members are 
committed to ensuring the provision of safe, healthy drinking 
water to the public. As you can see from Carrie's written 
testimony, Milwaukee Water Works is a leader in testing its 
water for unregulated contaminants, and frequently interacts 
with both EPA and the customers regarding water quality. In 
fact, Milwaukee tests for over 500 contaminants, and that 
information is put on their public website, when they are only 
required to monitor for 90. So they go above and beyond what is 
required by Federal law and State law in terms of monitoring. 
They are very open to the public in terms of what they find. 
You will find with the rest of this testimony, the question is, 
what do you tell them about what you found.
    But even with the collaboration, the chromium VI issue has 
been particularly difficult for Milwaukee, and many other 
drinking water systems cited in the report. First, it was a big 
surprise to many utilities to find out about the EWG report 
through newspaper headlines. Most of them would have liked to 
have had a phone call saying, here is a heads-up, this is what 
we found, this is what is coming out. Furthermore, the report's 
methodology of collecting a single sample from the distribution 
system with no sense of where or when the sample was taken, 
should not be used to draw broad inferences about a water 
utility's quality.
    While utilities want their customers to know what is in 
their water, we must also understand what reported levels of 
contaminants, often in the parts per billion or parts per 
trillion level, mean for the public. This is where EPA comes 
in. Utilities count on the agency to conduct solid peer-
reviewed research to inform us about which contaminants at what 
levels we should focus on to protect public health and meet 
water quality standards. The regulatory process put in place by 
the Safe Drinking Water Act amendments of 1996 was designed to 
do this. We believe the process as designed works well.
    This is why AMWA has some concerns about the guidance EPA 
released last month, to have water systems voluntarily sample 
their water supplies for chromium VI. While we agree that the 
public must be made aware of harmful contaminants in their 
drinking water, before encouraging utility testing, the 
screening methodology should be approved by EPA and the public 
health impacts of the contaminants should be established.
    Additionally, the January 11th guidance recommends using 
California's certified laboratories to analyze water samples 
for chromium VI at a reporting level of .06 parts per billion 
and a 5-day holding time. Although California's method is only 
approved for a reporting level of 1 part per billion and a 24-
hour holding time. So there is a problem. If you are sending 
utilities to California laboratories to have their samples 
tested, and the guidance is saying there is a 5-day holding 
time and the method is only approved for 24 hours, the quality 
control and what is the use of that data comes into question. 
So that needs to be sorted out between EPA, its guidance and 
the States and the utilities, what is the method they should be 
using.
    Morever, once water systems test for chromium VI, it is 
unclear how to communicate the results to the public. We have 
covered that.
    Therefore, AMWA would urge EPA to continue moving forward 
with its research into chromium VI, which will result in 
additional data that can inform any appropriate regulation 
through the Safe Drinking Water Act. AMWA believes that the 
best public health protection will result if EPA follows the 
existing regulatory framework that was designed by Congress to 
the 1996 amendments. The drinking water community will support 
and comply with the standards that are the product of this 
established process, as we always have.
    Thank you, Madam Chairman.
    [The prepared statement of Ms. Lewis follows:]
  Statement of Carrie Lewis, Superintendent, Milwaukee Water Works on 
        Behalf of the Association of Metropolitan Water Agencies
    Good morning Madame Chairman, Ranking Member Inhofe, and members of 
the Committee. My name is Carrie Lewis and I am the Superintendent of 
Milwaukee Water Works in Milwaukee, Wisconsin. The Water Works provides 
high-quality drinking water to more than 860,000 people in Milwaukee 
and 15 surrounding communities.
    I also serve on the board of directors of the Association of 
Metropolitan Water Agencies (AMWA), which is an organization 
representing the largest publicly owned drinking water utilities in the 
United States. AMWA's members provide clean and safe drinking water to 
more than 130 million Americans from Alaska to Puerto Rico.
    Today I am here to discuss AMWA's view of EPA's drinking water 
regulatory process, as well as the approach Milwaukee Water Works takes 
to removing contaminants from our drinking water supplies and the 
testing we conduct to ensure that our water remains in compliance with 
all State and Federal regulations. This issue has gained increased 
attention due to a report released by the Environmental Working Group 
(EWG) in December alleging that the drinking water of thirty-one cities 
across the United States--including Milwaukee--contains detectable 
levels of chromium-6. Chromium-6 is, according to EPA's draft 
Integrated Risk Information System (IRIS) toxicological assessment, a 
suspected carcinogen if ingested by humans over a lifetime. Chromium-6 
is a component of total chromium, which is regulated by EPA with a 
maximum contaminant level (MCL) of 100 parts per billion (ppb). At this 
time, there is not a separate Federal drinking water regulation for 
chromium-6, nor does EPA require drinking water systems to test their 
water supplies for the chemical.
    Additionally, because Chairwoman Boxer has introduced S. 78 and S. 
79, bills that would set timelines within which EPA would have to set 
enforceable drinking water standards for perchlorate and chromium-6, 
respectively, I will share some thoughts as to how the water utility 
community believes we can work with the government to best protect 
public health while adhering to the regulatory process established 
through the Safe Drinking Water Act (SDWA) and also reasonably 
allocating the resources currently available to local communities.
       drinking water systems prioritize public health protection
    Like all drinking water systems, Milwaukee Water Works is committed 
to protecting public health. The utility meets all State and Federal 
requirements for safe and healthful drinking water by subjecting its 
Lake Michigan sourcewater to a multiple-step process to remove illness-
causing microorganisms and contaminants. The water is disinfected with 
ozone, a highly reactive gas that destroys microorganisms, removes 
taste and odor, and reduces byproducts from chlorine disinfection. 
Coagulation, settling, and biologically active filtration remove 
additional particles. Fluoride is added for dental health consistent 
with CDC recommendations, and a phosphorous compound is added to help 
control corrosion of lead and copper pipes. Finally, chloramine 
disinfection ensures safe drinking water throughout the distribution 
system and at consumer faucets.
    In addition to this robust treatment regime, Milwaukee complies 
with EPA regulations that require drinking water systems to test their 
water supplies for more than ninety different regulated and unregulated 
contaminants that are, based on the best available science, thought to 
pose the greatest risks to human health. But Milwaukee Water Works 
actually goes above and beyond this requirement, testing its source and 
treated drinking water for over five hundred contaminants--more than 
five times the number required by EPA. We voluntarily conduct this 
monitoring as a precaution to ensure safe water, to collect baseline 
data for study, to understand how contaminants may affect public 
health, and to prepare for future regulations.
    In 2004 Milwaukee became one of the first utilities in the United 
States to test its source and drinking water for endocrine-disrupting 
compounds (EDCs). In 2005, it was one of the first to test for 
pharmaceuticals and personal care products (PPCPs). To date, none of 
these substances have been found in Milwaukee's drinking water. In 
2008, the Associated Press cited Milwaukee as one of only twenty-eight 
major utilities in the U.S. to test source and treated water for 
emerging contaminants such as EDCs and PPCPs, and Milwaukee was the 
first U.S. utility to post its test results on the Internet. As you can 
see, Milwaukee Water Works takes great pride in ensuring the safety and 
quality of the drinking water that is distributed to our customers.
    In response to concerns about chromium-6 raised by the EWG report, 
in January the utility conducted independent tests for the chemical. 
Three rounds of samples were collected from six separate locations: 
untreated Lake Michigan water entering Milwaukee's two water treatment 
plants; fully treated water as it leaves each treatment plant; and two 
locations in the distribution system. Samples analyzed using EPA method 
218.6 identified the presence of chromium-6 at 0.22 ppb in untreated 
source water, at 0.20 ppb in treated water leaving each treatment 
plant, and at 0.19 ppb at two points in the distribution system. We 
immediately communicated this information to our customers, and also 
confirmed to them that there is no health evidence or indication that 
Milwaukee's drinking water is unsafe for human consumption or use. 
Furthermore, there is no need for customers to purchase or install 
special filtration devices at faucets, water fountains, or at any other 
point-of-use location at homes and businesses.
    While Milwaukee acted quickly following the release of EWG's 
report, we would have begun our own monitoring for chromium-6 sooner if 
EWG had shared their findings with us immediately after they tested 
Milwaukee's water, rather than waiting several months to release their 
data from across the country to the media en masse. Moreover, in the 
absence of additional utility testing we were concerned that public 
confidence in our drinking water supply would be undermined by the 
widely reported results of a single water sample from a single faucet, 
which according to EWG was collected from somewhere within our service 
area sometime during the past several months. This uncertainty was 
unacceptable to us, so we decided to move forward with our own testing.
    Along these same lines, on January 11 EPA released a guidance to 
help water systems voluntarily sample source water, plant treated 
water, and water in the distribution system for chromium-6 on a 
quarterly basis. But while AMWA appreciates the goal of properly 
informing the public about the quality of drinking water using 
standardized scientific methods, the association has several 
reservations about the guidance. For example, the guidance refers to 
using California's certified laboratories to conduct chromium-6 
analysis at a reporting level of 0.06 ppb and a holding time of up to 5 
days. However, California currently approves this method only for a 
reporting level of 1.0 ppb and a 24-hour holding time. In addition, 
questions about proper sampling technique and sample preservation are 
not addressed in the guidance, which leads to uncertainty as to whether 
the resulting data will be valid since EPA does not officially approve 
the method described in the guidance.
    Some of these questions have prompted some drinking water utilities 
to choose to not test for chromium-6 until EPA has completed its risk 
assessment for the contaminant, which is expected later this year. This 
decision reflects the fact that, in the absence of solid human health 
data from EPA, it is impossible to tell the public with any certainty 
what exactly the results of these tests may mean. As a result, some 
utilities will choose to expend their limited resources focusing on 
testing and treating for other chemicals--those for which EPA has 
already established a clear human health link. Each of these approaches 
is valid, and they demonstrate the hazards of stirring concerns about a 
particular contaminant before all of the necessary research is 
complete.
        sensible regulation through the safe drinking water act
    As we've heard today, reports in the news media about unregulated 
drinking water contaminants such as chromium-6, perchlorate, and 
pharmaceutical and personal care products often lead to calls that EPA 
should ``move expeditiously'' to set legal drinking water limits for 
emerging contaminants. To that end, the bills introduced by Chairwoman 
Boxer last week would require EPA to set enforceable drinking water 
standards for perchlorate and chromium-6 no later than 1 year after the 
enactment of each measure. But AMWA would caution against undermining 
the SDWA process and forcing EPA to regulate certain contaminants 
simply because they have been highlighted by an outside group or 
featured in the news media. Instead, EPA must maintain the latitude to 
conduct and complete sound, transparent research that determines 
whether, and at what level, chromium-6 and other contaminants may pose 
threats to human health.
    This current system, put in place by the Safe Drinking Water Act 
amendments of 1996, is a reasonable and effective way to establish 
drinking water standards. Before making a determination to regulate a 
drinking water contaminant, EPA must consider the potential adverse 
effects of the contaminant on human health, the frequency and level of 
the contaminant's occurrence in public drinking water systems, and 
whether regulation will present a meaningful opportunity to reduce 
public health risks. These requirements set a high bar for the Agency, 
but they ensure that the regulations are well vetted and that dollars 
subsequently spent by utilities to detect and remove these contaminants 
are put to good use.
    SDWA requires EPA to consider regulating new contaminants on an 
ongoing basis, as new scientific data becomes available. Every 5 years, 
EPA must publish a Contaminant Candidate List of unregulated drinking 
water contaminants for which additional research will be prioritized. 
EPA must make a decision on whether to regulate at least five of these 
contaminants every 5 years, ensuring that the Agency has a frequent 
opportunity to examine the best available science for the most 
researched unregulated contaminants.
    Every 6 years, EPA must review all currently regulated contaminants 
and make a decision on whether there are any National Primary Drinking 
Water Regulations for which current health effects assessments, changes 
in technology, or other factors provide a health or technical basis to 
support a regulatory revision that will maintain or strengthen public 
health protection. For the last Six-Year Review, published in 2010, EPA 
stated that it was awaiting the final risk assessment for chromium-6 
before making a decision about revising the total chromium regulation. 
The IRIS assessment for chromium-6 was released for peer review on 
September 30, 2010.
    Finally, SDWA requires EPA to maintain an Unregulated Contaminant 
Monitoring Program to collect data on unregulated contaminants that are 
suspected to be present in drinking water supplies, and gives the EPA 
administrator the power to promulgate a drinking water regulation on an 
expedited basis for a contaminant found to be an urgent threat to 
public health following consultation with the Department of Health and 
Human Services, the Centers for Disease Control, and the National 
Institutes of Health. Clearly, EPA has at its disposal the regulatory 
tools necessary to make informed and scientifically sound decisions 
about drinking water regulations.
    Perhaps just as importantly, SDWA recognizes that there are 
occasions when it will be technologically impossible or infeasible for 
a drinking water utility to remove a contaminant to the point where it 
poses absolutely zero risk of a public health impact. Therefore, when 
regulating a contaminant EPA publishes both a non-enforceable ``maximum 
contaminant level goal'' (MCLG) which represents the level at which 
there is no known risk to human health, and an enforceable MCL, a 
binding limit set as close to the MCLG as is feasible after considering 
the best available treatment technology and cost factors. To be clear, 
as California's Office of Environmental Health Hazard Assessment 
explained in a December 31, 2010 press statement, a drinking water 
contaminant goal ``is not meant to be the maximum `safe' level'' of a 
given chemical in drinking water. Instead, ``it represents a stringent 
health-protective goal'' that is used ``to develop and enforceable 
regulatory standard.''\1\
---------------------------------------------------------------------------
    \1\ ``OEHAA Releases Revised Draft Public Health Goal for 
Hexavalent Chromium,'' December 31, 2010. http://www.oehha.ca.gov/
water/phg/pdf/Chrom6press123110.pdf.
---------------------------------------------------------------------------
    Consequently, EWG's report should not be read to suggest that the 
drinking water of Milwaukee or any other community poses a threat to 
the public because its chromium-6 level meets or exceeds California's 
proposed public health goal for the contaminant. To the contrary, the 
city of Milwaukee Department of Public Health has determined that there 
is no evidence of an imminent public health risk or threat of acute 
illness due to low levels of chromium-6 in the city's water supply. For 
these reasons, AMWA believes Congress should not force EPA to 
prematurely terminate its study of chromium-6 or any other emerging 
contaminant.
                         policy recommendations
    As the committee performs important oversight of EPA's drinking 
water program, AMWA's message is quite simple: public health protection 
is paramount, and we fully support SDWA's defined process for 
identifying, regulating and revising drinking water contaminants. But 
Congress should not overreact to any outside organization's 
unscientific report on drinking water quality by passing legislation 
such as S. 78 or S. 79 and requiring EPA to regulate certain 
contaminants within an arbitrary period of time. If Congress were to 
require municipal water systems to increase their testing or alter 
their treatment of water supplies in response to each and every report 
published by an activist group, it would introduce into the process a 
political component that the SDWA statute was designed to exclude. 
Allowing Congress, not EPA, to decide when certain emerging 
contaminants must be regulated would irrevocably weaken the Safe 
Drinking Water Act, undermine public confidence in the water supply, 
and add significant costs to local communities--all while delivering 
questionable public health benefits.
    Instead, AMWA believes that the best public health protections will 
result if Congress, as Chairwoman Boxer argued in January, respects 
EPA's authority to craft drinking water regulations and set 
environmental standards ``in a measured, moderate, responsible way,'' 
and does ``not interfere with the ability of the EPA and the states to 
act in accordance with the law to respond to what the scientists are 
telling us.'' \2\ If, pursuant to the requirements of the Safe Drinking 
Water Act, EPA research determines that the presence of a certain level 
of chromium-6 in drinking water presents a human health risk, then the 
Agency should establish an enforceable standard that can reasonably and 
feasibly be met by the nation's drinking water systems. The drinking 
water community will support and comply with standards that are the 
product of this established process, as we always have.
---------------------------------------------------------------------------
    \2\ ``Senator Boxer Delivers Remarks on Protecting Our Landmark 
Environmental Laws and Creating Jobs,'' January 6, 2011. http://
epw.senate.gov/public/index.cfm?FuseAction=Majority. 
PressReleases&ContentRecord_id=5cc0f6df-802a-23ad-4d13-bc6e386b53fe.
---------------------------------------------------------------------------
    There are effective steps that AMWA urges Congress to take to 
ensure that utilities have the resources available to keep clean and 
safe drinking water flowing to all of their customers. For example, 
AMWA supports reauthorization of the Drinking Water State Revolving 
Fund (DWSRF), a Federal program that offers loans to help water systems 
comply with Federal drinking water standards. While the program largely 
aims to help small community water systems comply with SDWA standards 
(especially considering that EPA has reported that ninety-six percent 
of all health-based SDWA violations occur at utilities serving fewer 
than 10,000 people \3\), it could be strengthened by making more funds 
available for projects at very large water systems that serve nearly 
half of America's population. Metropolitan utilities that serve more 
than 100,000 people represent thirty-five percent of the drinking water 
infrastructure need identified in EPA's 2007 Drinking Water Needs 
Survey, but through 2009 had received only twenty-three percent of 
DWSRF funds distributed since the program's inception. In addition to 
strengthening the DWSRF, Congress should consider new and innovative 
programs to help water utilities cope with rising infrastructure costs, 
such as a water infrastructure bank or a similar program that focuses 
on urban water infrastructure and public health.
---------------------------------------------------------------------------
    \3\ ``Testimony of Peter S. Silva, Assistant Administrator for 
Water, and Cynthia J. Giles, Assistant Administrator for Enforcement 
and Compliance Assurance, U.S. Environmental Protection Agency, Before 
the Committee on Environment and Public Works, U.S. Senate,'' December 
8, 2009. http://epw.senate.gov/public/
index.cfm?FuseAction=Files.View&FileStore--id=b773e8ed 097b8a-4d87-
9835a-cf0f644ff6ef.
---------------------------------------------------------------------------
    Similarly, Congress should reject calls to reduce funding for the 
DWSRF as a means to cut Federal spending. While we can all agree that 
the Federal budget deficit needs to be addressed, the fact remains that 
the nation's drinking water systems will need to spend nearly $335 
billion over the next 20 years just to maintain current levels of 
service.\4\ These costs are not optional, and cannot be ignored without 
putting public health at risk. A strong DWSRF program is essential to 
preserve a safe and secure water supply.
---------------------------------------------------------------------------
    \4\ ``EPA's 2007 Drinking Water Infrastructure Needs Survey and 
Assessment Fact Sheet,'' February 2009. http://water.epa.gov/
infrastructure/drinkingwater/dwns/upload/2009--03--26--needs survey--
2007--fs--needssurvey--2007.pdf.
---------------------------------------------------------------------------
    Finally, AMWA supported passage of last year's ``Reduction of Lead 
in Drinking Water Act,'' which was sponsored by Chairwoman Boxer and 
Ranking Member Inhofe and updated SDWA's statutory definition of 
``lead-free'' as it applies to new pipes and plumbing fixtures that 
carry drinking water. Improving technology made a lower lead standard 
attainable, and the legislation won bipartisan support because it will 
implement the new standard in such a way that will not saddle 
communities with prohibitive costs. It is through such collaborative, 
achievable measures that Congress can best protect public health and 
the quality of the drinking water supply. Technical questions about 
whether and at what level to regulate emerging contaminants in the 
drinking water supply, on the other hand, should continue to be 
considered at EPA through the transparent process outlined by Congress 
in the Safe Drinking Water Act.
    Thank you for the opportunity to testify at this important hearing 
today. I look forward to answering any questions that you may have.
                               __________
 Response by Carrie Lewis to an Additional Question from Senator Boxer
    Question. Describe the importance that utilities place on ensuring 
that they provide safe drinking water that protects public health, 
including the health of pregnant women, infants, and children, from 
dangerous contaminants.
    Response. Protecting public health through the provision of clean 
and safe drinking water is the top priority of Milwaukee Water Works 
and all drinking water utilities. To ensure that the health of our 
customers is protected, we rely on the Environmental Protection Agency 
to tell us what levels of certain contaminants in drinking water 
present a known public health risk, and to establish a maximum 
contaminant level (MCL) for these contaminants. It is then our job to 
treat our water so that it is in compliance with these established 
standards.
    While we take pride in providing safe drinking water to all of our 
customers, we understand the special importance of protecting the 
health of vulnerable populations, such as pregnant women, infants, and 
children. We therefore appreciate that the Safe Drinking Water Act 
(SDWA) requires EPA to consider the effect of contaminants on 
vulnerable populations on several different occasions during the 
regulatory process. First, as EPA decides whether to regulate a given 
drinking water contaminant, SDWA Sec. 1412(b)(1)(C) requires the 
Administrator to take into consideration ``the effect of such 
contaminants upon subgroups . . . (such as infants, children, pregnant 
women, the elderly, individuals with a history of serious illness, or 
other subpopulations) . . . at greater risk of adverse health 
effects.''
    Additionally, when proposing an enforceable MCL for a drinking 
water contaminant, SDWA Section 1412(b)(3)(C)(i)(V) requires EPA to 
consider the health effects of the contaminant on the general 
population as well as subgroups such as ``infants, children, pregnant 
women, the elderly, individuals with a history of serious illness,'' 
and others that may be at greater health risk due to exposure to 
contaminants in drinking water. We are pleased that the SDWA statute 
requires the health and safety of these vulnerable subpopulations to be 
taken into account, and that these considerations are subsequently 
reflected in enforceable standards promulgated by EPA.
                                 ______
                                 
 Responses by Carrie Lewis to Additional Questions from Senator Inhofe
    Question 1. I am always concerned about how cities and local 
governments are dealing with the unfunded mandates that are passed down 
from the Federal Government. I know stricter drinking water standards 
and clean water standards force many of our communities to either raise 
rates or seek additional funding from other sources. How can we ensure 
that utilities like yours are not facing the constant threat of having 
to raise rates and still meeting drinking water standards?
    Response. First, I want to make clear that the drinking water 
community believes that if sound scientific research demonstrates that 
a drinking water contaminant poses a human health risk, EPA should 
promulgate standards that protect the public to the maximum extent that 
can be feasibly attained.
    AMWA believes that the process established under the 1996 
amendments to the Safe Drinking Water Act is the best mechanism to 
achieve the objective of protecting public health in a cost effective 
manner. After determining that the best available science warrants the 
regulation of a contaminant, EPA has 24 months to propose a maximum 
contaminant level goal (MCLG), which represents the level at which the 
contaminant would pose zero threat to public health. EPA also proposes 
a drinking water maximum contaminant level (MCL), which is set as close 
to the MCLG as feasible, as defined by Sec. 1412(b)(4)(D). SDWA then 
provides EPA with an additional 18 months to promulgate a final MCLG 
and MCL. This MCL is an enforceable standard set as close to the MCLG 
as is feasible after considering factors such as the best available 
treatment technology and cost.
    Maintaining this process as EPA makes future drinking water 
contaminant regulatory decisions--particularly the 18-month period 
between the announcement of the proposed MCLG and MCL and the 
promulgation of the binding MCL--is essential to ensuring that 
regulations are based on sound science while also keeping costs under 
control. If this 18-month period were truncated, we would be concerned 
that EPA may be forced to issue binding MCLs without completely 
considering the technical or financial feasibility of the proposed 
standards. As a result, utilities could be required to comply with 
mandates that otherwise might have been found to be infeasible, or to 
spend excessive amounts of ratepayer dollars to attempt to meet these 
requirements.
    There are other steps Congress can take to help water utilities 
cope with regulatory compliance costs and protect the public from 
spikes in water rates. AMWA supports robust funding for the Drinking 
Water State Revolving Fund (DWSRF), which offers loans to help water 
systems improve their infrastructure to comply with Federal drinking 
water standards. EPA's 2007 Drinking Water Needs Survey reported that 
the nation's drinking water systems will need to spend nearly $335 
billion over the next 20 years just to maintain current levels of 
drinking water service, so for many communities DWSRF loans are a 
helpful supplement to local funding.

    Question 2. Please explain the process that your utility goes 
through in deciding how to spend the limited resources and how those 
decisions are affected by new regulations.
    Response. Every year, budgeting and spending decisions at Milwaukee 
Water Works become more challenging as we try to balance out spending 
with anticipated revenue. We also try to prioritize our budget wish 
list, separating ``must-do'' items such as meeting regulatory 
requirements and protecting public health and safety, from ``important-
to-do'' items like some infrastructure projects. And last, there are 
the ``nice-to-do'' things. This list is growing longer each year 
because the ``must-do'' and ``important-to-do'' items take up a larger 
and larger part of available revenue.
    Municipal drinking water utilities in Wisconsin are regulated by 
the Public Service Commission, which allows the utility to recover the 
full cost of service plus a reasonable rate of return. Even so, it is 
always a difficult decision to request water rate increases. When the 
``must-do'' list expands, such as when additional regulations are 
promulgated, costs are passed along to ratepayers and fewer 
``important-to-do'' and ``nice-to-do'' projects get addressed.

    Question 3. What are some of the challenges that utilities face in 
responding to media reports about unregulated contaminants?
    Response. First, Milwaukee Water Works has the benefit of a strong, 
collaborative relationship with our local health department. Without 
that joint agency response to media reports about contaminants the 
utility would be very challenged to communicate the ``risk'' concepts 
to the public, such as pathways of exposure of chemicals, acceptable 
risk, and dose-response relationships.
    But even with the joint agency response, it is difficult to explain 
to the media and the public that trace levels of various substances 
have always been present in drinking water, although advances in 
technology now allow us to measure them at ever-lower concentrations. 
The mere ability to measure for these contaminants at smaller and 
smaller levels does not equate to increased public health risks, though 
this increased knowledge can be used to inform future research.
    Furthermore, it can be difficult to explain the concept of ``less 
than'' a detection limit in a lab sample to reporters who think that 
``<2'' (``less than 2'') means that the compound is present at a level 
below 2. What this actually means is that the analytical method used 
has a lower limit below which the method cannot quantify an amount, and 
that the compound may or may not be present below that lower limit. But 
when the media is asking for conclusive answers on water quality 
measurements, it can be hard to explain that we are bound by the limits 
of our testing capabilities.

    Question 4. Did you ever request the EWG report data directly from 
EWG? Did you ever determine where their sample came from?
    Response. Milwaukee Water Works did not contact EWG directly 
following the release of their chromium-6 report. This decision was 
based on an earlier experience the utility had in trying to get the 
group to correct errors in the December 2009 report which contained 
information on bromate. In that instance, Milwaukee Water Works 
believed that EWG incorrectly stated that our utility exceeded the 
regulatory limit for bromate based on a single value above the limit in 
their data set. Our view was that because the bromate regulation is 
based on a running annual average of samples, it is erroneous to report 
that a single sample value constitutes a violation.
    Milwaukee Water Works made multiple efforts to get EWG to correct 
this error in their bromate report, beginning 4 months before the 
report was published, but we were rebuffed. This report was very 
damaging to the utility, and fueled our belief that EWG is more 
interested in generating headlines than publishing valid data. For this 
reason, we decided that it would not be worthwhile to attempt to engage 
with the group following the release of the chromium-6 report.
    These beliefs were also reinforced when EWG chose to not directly 
advise Milwaukee Water Works of their chromium-6 test results, but 
instead released their data to the media. While I do understand that 
EWG alerted staff of water associations such as AMWA that a report 
about chromium-6 was coming, EWG did not provide specific information 
about the cities tested--only that there would be 35 cities mentioned 
in the report. EWG did not tell association staff the specific date of 
the report release until a few days before it hit the papers, and the 
group did not respond to association requests for information on the 
sample locations for the cities identified in the report.

    Question 5. Please explain the difficulty that the city has in 
communicating with citizens about the EWG report and what it means for 
them.
    Response. The most common question we received was, ``Is the water 
safe to drink?'' The Milwaukee Health Department felt confident to say 
that ``there is no reason to believe the water is unsafe,'' but that 
does not sound terribly reassuring. As I said before, water utilities 
rely on EPA to tell us which contaminants pose health risks to the 
public, and at this time the only Federal regulation of chromium-6 in 
drinking water is through SDWA's 100 ppb MCL for total chromium. 
Milwaukee's water meets this standard, but the EWG report has caused a 
lot of confusion in the community.
    In an attempt to provide more clarity to the public, the Milwaukee 
Health Department confirmed that there was no disease in the community 
that chromium-6 would be expected to cause. But when dealing with a 
chronic (not acute) contaminant, that is not very reassuring. We also 
tried to explain that nothing about the water had changed--there had 
been no recent spill or other event that added the chromium-6 to the 
water. But again, simply telling the public not to worry because this 
contaminant had probably been in the water for some time is not very 
effective, either.

    Question 6. What is the expected background concentration of 
hexavalent chromium in your source water? Is your source water from 
groundwater or surface water combination? What causes the background 
concentrations of chromium (trivalent and hexavalent) in your source 
water to vary?
    Response. Milwaukee Water Works did not expect any hexavalent 
chromium to be found in our source water. The intakes for our treatment 
plants are 1.5 miles out in Lake Michigan, a pristine surface water 
source, and are rarely impacted by land-based activities associated 
with chromium use. We do not (yet) have any information about whether 
or not this parameter will vary, or what the cause may be. We have 
initiated quarterly sampling of source water, treatment plant finished 
water, and distribution system water, consistent with the guidance 
published by EPA.

    Question 7. How can chromium be removed from public drinking water 
systems?
    Response. EPA reports that treatment methods such as coagulation/
filtration, ion exchange, reverse osmosis, and lime softening are 
effective for treating water to comply with the current total chromium 
MCL of 100 ppb. But it is less clear how effective these methods may be 
in treating water to achieve lower levels of chromium-6.
    Several water utilities in California are currently conducting 
studies to answer this question. Three technologies being evaluated at 
the pilot scale for use by drinking water systems include strong base 
anion exchange resin, weak base anion exchange resin and reduction/
coagulation/filtration (RCF) approaches. Reverse osmosis is not 
considered viable for utilities in some regions, such as California, 
because of the high percentage of reject water. However, the ultimate 
efficacy of these treatment options will also depend on a combination 
of factors, such as:

    <bullet> The level of chromium-6 permitted in finished water;
    <bullet>  The quality of the raw water being treated;
    <bullet> Operational costs; and
    <bullet> Treatment waste disposal options and costs.

    Question 8. Describe your challenges with the conversion of 
trivalent chromium in source water to hexavalent chromium by water 
treatment operations.
    Response. Milwaukee Water Works does not have information about 
this yet, but hope to learn more as we conduct quarterly sampling.

    Question 9. Utilities have raised concerns with my office about 
EPA's decisions regarding the technical assistance to monitor for 
chromium 6, including the lack of a fully validated analytical method, 
inability for the agency to collect and use the data generated and lack 
of explanation of how to communicate the health effects to the public. 
How can EPA clarify and assist Milwaukee with the technical assistance 
it provided?
    Response. Staff from Milwaukee Water Works did have a fruitful 
telephone conversation with officials from EPA's Region 5 and the 
Wisconsin Department of Natural Resources. We had a good discussion 
about the tradeoffs of the various analytical methods, as well as the 
merits of using an experienced laboratory certified in the type of 
method (if not the exact method), and the importance of as short a 
holding time as possible prior to analysis.
    Despite these discussions, further clarification would be helpful. 
Of greatest value would be some language for risk communication when 
there is no or little information about a contaminant and its public 
health effects. Chromium-6 will not be the last contaminant that will 
pose a risk communication challenge to utilities. It is very difficult 
to communicate uncertainty to customers without losing their 
confidence, but scientific uncertainty is a reality. If Milwaukee Water 
Works could quote the EPA about this, it would improve the credibility 
of the communication.
    Additional information that would be very helpful would be more 
about the chemistry of chromium-3 and chromium-6, in simple terms that 
we could use for our customers. We would also appreciate more 
information from EPA on which specific questions to ask a laboratory 
about how it would verify its sample results (QA/QC procedures) in 
order to support the method detection level and method reporting levels 
outlined in the guidance.

    Question 10. Are you supportive of a drinking water regulatory 
process that relies on science to help guide decisionmaking? Do you 
think the current SDWA provides a clear, transparent, science driven 
process for making decisions regarding drinking water regulation?
    Response. Yes, Milwaukee Water Works and AMWA believe that the 
drinking water regulatory process must be based on sound, peer-reviewed 
scientific research. The current SDWA requires a careful, transparent, 
science-based route to guide the development of drinking water 
contaminant regulations, and we support following this process for all 
such determinations in the future.

    Question 11. Is there anything else you would like to add for the 
record?
    Response. I would just reiterate that our top priority is 
protecting public health by delivering clean and safe drinking water to 
our customers. Utilities rely on EPA to conduct careful, unbiased 
research to determine at what concentration various drinking water 
contaminants carry human health impacts, and pride themselves on 
complying with the drinking water regulations that result.
                                 ______
                                 
        Response by Carrie Lewis to an Additional Question from 
                           Senator Lautenberg
    Question. Ms. Lewis, you have testified that the Milwaukee Water 
Works goes beyond the current monitoring requirements of the Safe 
Drinking Water Act, monitoring for over five hundred (500) 
contaminants.
    Doesn't this show that additional monitoring to protect the 
public's right-to-know can be feasible and cost-effective?
    Response. All public drinking water systems must comply with EPA 
regulations that require finished water to be tested for more than 
ninety different contaminants that are, based upon the best available 
science, thought to pose the most significant risk to human health in 
drinking water. Utilities must report the results of this testing to 
the public on an annual basis. Every 5 years, EPA is required by SDWA 
to issue a new Unregulated Contaminant Monitoring Rule, which can 
ultimately require utilities to temporarily monitor for as many as 
thirty additional unregulated contaminants. This framework allows water 
systems to make informed projections on how much money should be 
budgeted for water quality testing.
    For a variety of reasons, Milwaukee Water Works has decided to 
devote additional resources to testing its water for many more 
contaminants than is required by EPA. But this decision comes at a 
cost, with our testing regime costing our ratepayers roughly $200,000 
per year.
    While other utilities could also test their water supplies for more 
and more contaminants, we must remember that this additional testing 
would come at a cost to them as well. This would mean either higher 
water rates for the public, or fewer dollars available to address other 
needs such as infrastructure replacements and upgrades. We believe that 
each individual utility is best equipped to decide what, if any, 
testing beyond EPA's requirements for contaminants linked to a 
significant health risks makes sense for their own community.
    To give another example of testing costs, the Metropolitan 
Utilities District of Omaha, Nebraska reported in a January 13, 2011 
news release that its compliance with EPA's guidance recommending 
quarterly testing for chromium-6 will cost the utility $12,000 per 
year. This may not sound like much, but the utility reported that it 
represents nearly 0.9 percent of its annual water quality budget of 
$1.4 million. It is therefore easy to predict how these costs could 
dramatically impact utility budgets if testing for more and more 
contaminants were to be required.
                                 ______
                                 
 Response by Carrie Lewis to an Additional Question from Senator Carper
    Question. How can the Federal Government focus its efforts to 
improve drinking water quality on pollution prevention? What kinds of 
tools and programs exist to prevent the pollution of drinking water and 
what new ones are needed?
    Response. The drinking water community has long believed that the 
best way to ensure safe drinking water is to keep harmful contaminants 
and pollutants out of source waters in the first place. Fortunately, 
various Federal laws currently contribute to this objective. For 
example, the Federal Insecticide, Fungicide and Rodenticide Act (FIFRA) 
gives EPA the authority to restrict the use of pesticides that may find 
their way into source waters. The Toxic Substances Control Act (TSCA) 
gives EPA the authority to restrict the introduction of new 
contaminants into the marketplace, particularly ones that may find 
their way into our waterways. And under its Drinking Water Strategy, 
EPA is beginning to share information and information needs between the 
Office of Groundwater and Drinking Water and the Office of Chemical 
Safety and Pollution Prevention.
    Just last year, President Obama signed into law the ``Secure and 
Responsible Drug Disposal Act,'' which requires the Attorney General to 
issue regulations enabling communities to more easily hold take-back 
events to collect unused pharmaceutical drugs. This should reduce the 
amount of unused prescription drugs that consumers flush into the 
wastewater system. And the most recent Farm Bill authorized the 
Agricultural Water Enhancement Program (AWEP), through which farmers 
and water systems can receive financial and technical assistance on 
collaborative projects to improve water quality in their shared 
watershed.
    While these policies and programs help protect drinking water 
quality, more can be done. For example, EPA can better use its 
authority to require chemical manufacturers and importers to perform 
reporting, recordkeeping and testing of chemicals to determine the 
health effects of these chemicals and also restrict their use if they 
are found to harm public health through drinking water exposure.
    The protections of the Clean Water Act could be better used to 
leverage the protection of drinking water. For example, the protection 
of source waters for drinking water uses could and should be a 
consideration in addressing non-point source pollution problems in the 
development of TMDLs in a way that is consistent with the drinking 
water MCLs. EPA should work to develop water quality criteria standards 
for contaminants that are regulated in drinking water, particularly 
those with acute effects, such as Cryptosporidium.
    Finally, the 2012 Farm Bill will offer an opportunity to reduce the 
flow of nitrates and other contaminants from farm operations into water 
bodies by linking Federal agricultural assistance with activities that 
protect and preserve nearby water quality. AMWA hopes to work with 
members of the Senate to craft policies that achieve these goals.

    Senator Boxer. OK. Mr. Chuck Murray, Fairfax Water, we 
thank you so much for being here, General Manager.

  STATEMENT OF CHARLES MURRAY, GENERAL MANAGER, FAIRFAX WATER

    Mr. Murray. Thank you, Madam Chairman, members of the 
Committee.
    My name is Charles Murray, I am General Manager of Fairfax 
Water, Virginia's largest drinking water utility and one of the 
25 largest drinking water utilities in the Nation.
    Fairfax Water is a non-profit public water authority 
governed by a 10-member board of directors who are appointed by 
the board of supervisors of Fairfax County. Fairfax Water 
provides retail or wholesale service to nearly 1.7 million 
people in northern Virginia. That translates into 1.7 million 
reasons to provide drinking water of the highest quality.
    I am testifying today on behalf of the American Water Works 
Association, or AWWA. We welcome the opportunity to speak to 
the drinking water issues that are before the Committee.
    AWWA is an international non-profit scientific and 
educational association of professionals dedicated to safe 
drinking water. We continually support drinking water 
regulations that are developed through a transparent process 
based on the best available science and that provide meaningful 
public health protection in an affordable manner. Two of the 
key issues before the Committee are hexavalent chromium, 
perchlorate and proposals to mandate regulation within a year. 
We believe it is in the public interest to address these 
concerns with these contaminants within the regulatory 
framework that is already in place.
    As you know, the Safe Drinking Water Act mandates rigorous 
process for evaluating risks to public health and determining 
what risk management actions are appropriate. The Act requires 
that the regulatory process use the best available peer-
reviewed science, a principle that this Administration strongly 
endorses.
    These principles are critical to ensure that actual risks 
are addressed and that limited resources are directed based on 
complete information. Should funds be misdirected on risks that 
have not been fully or appropriately vetted, a community's 
resources cannot be recovered to address the genuine risks and 
other important community needs.
    As I stated earlier, we support drinking water regulations 
that are developed through a transparent process, based on the 
best science and provide meaningful health protection in an 
affordable manner. This foundation of sound science must not be 
compromised. The Safe Drinking Water Act affords the 
Environmental Protection Agency a robust, transparent 
methodology upon which it can evaluate, propose and promulgate 
regulations. Unfortunately, the proposed legislation before the 
Senate on chromium and perchlorate seems to discount the 
principles of the Safe Drinking Water Act, the same principles 
to which the Administration has committed.
    The same can be said for EPA's recent actions. The tone, 
delivery and content of EPA's responses to EWG's report 
regarding hexavalent chromium implies that regulatory change is 
an urgent and foregone conclusion. EPA has gone outside the 
structure set forth in the Safe Drinking Water Act, which 
places drinking water utilities in an untenable position.
    These actions cause me great concern. EPA has urged 
drinking water utilities to collect samples throughout the 
treatment process to better understand the occurrence and 
concentration of hexavalent chromium. However, the agency has 
not afforded itself the benefit of the data yielded in this 
sample collection, because there is no national repository for 
the data. Had the process established under the Safe Drinking 
Water Act been followed, the monitoring would have been 
conducted under the unregulated contaminant monitoring rule and 
would resolve any issues relating to the analytical methodology 
and data collection.
    As it stands, a community now must decide, absent critical 
information, such as a clear understanding of the actual risks 
associated with the presence of very low levels of hexavalent 
chromium, if it should expend the resources to conduct this 
monitoring. Should a drinking water utility conduct this 
monitoring, how will it convey the results and their meaning to 
its customers?
    At Fairfax Water, we made the decision to monitor. This 
decision was based on the level of concern expressed by our 
customers. We have monitored and found that one of our water 
sources has no detectable level of hexavalent chromium. In the 
other source, the level was found at the reporting limit of the 
method, so, extremely low levels.
    But the real question that I am constantly asked to answer 
is, is the water safe? Is the level of hexavalent chromium and 
the level of perchlorate or the level of the next new 
contaminant of interest in the water going to harm me and my 
family? These are valid questions, ones that must be answered 
by a consistent, robust, transparent framework.
    So you may ask, how do we, Fairfax Water, answer these 
questions. We posted our results to our website and explain 
that there is a process in place at EPA to evaluate the risks 
and make decisions about the appropriate level of regulation to 
address public health concerns. We explain that EPA is 
currently reviewing the risks and will finalize its risk 
assessment for hexavalent chromium later this year. At that 
time, EPA can make a determination if further regulatory action 
is warranted.
    We acknowledge that the processes for determining the 
actual risks for human health from different substances or 
compounds can seem frustratingly slow. Science can be 
complicated. However, it is only by applying methodical, peer-
reviewed studies that we can know where actual risk lies. We 
encourage the Congress to allow the unregulated contaminant 
monitoring rule, the contaminant candidate list and the 6-year 
review processes created in the 1996 amendments to the Safe 
Drinking Water be allowed to work. EPA and AWWA and its members 
are committed to supporting the Act and these tools that help 
make sound regulatory decisions.
    Further, we pledge to continue to provide field data, 
participate in studies related to these processes, and make our 
methodologies transparent. We realize these are tough times for 
the Federal budget.
    Senator Boxer. I am sorry, sir, could you just finish that 
thought?
    Mr. Murray. The bottom line is that Congress does not need 
to legislative individual drinking water standards. The Safe 
Drinking Water Act was amended in 1996 to provide a 
scientifically sound and transparent method for selecting 
substances for regulation.
    [The prepared statement of Mr. Murray follows:]
 Statement of Charles Murray, General Manager, Fairfax Water, Va., on 
             Behalf of the American Water Works Association
    Good morning, Madam Chairwoman and members of the Committee.
    My name is Charles Murray and I am General Manager of Fairfax 
Water, Virginia's largest drinking water utility and one of the 
nation's 25 largest drinking water utilities. Fairfax Water is a non-
profit, public water authority governed by a 10-member board of 
directors who are appointed by the Board of Supervisors of Fairfax 
County. Fairfax Water provides retail or wholesale service to nearly 
1.7 million people in the Northern Virginia communities of Fairfax, 
Loudon and Prince William counties, the city of Alexandria, the Town of 
Herndon, Ft. Belvoir, and Dulles Airport. To my staff and me at Fairfax 
Water, that translates to nearly 1.7 million reasons to provide 
drinking water quality of the highest quality.
    This morning, I am testifying on behalf of the American Water Works 
Association (AWWA), and we welcome this opportunity to speak to the 
drinking water issues that are before the committee today. AWWA is an 
international, nonprofit, scientific and educational association of 
professionals dedicated to safe drinking water. We have always 
supported drinking water regulations that are developed through a 
transparent process, are based on the best available science, and that 
provide meaningful public health protection in an affordable manner.
    Two of the key issues before the Committee are chromium-6 and 
perchlorate. As you know, the Safe Drinking Water Act (SDWA) mandates a 
rigorous process for evaluating risks to public health and determining 
what risk management actions are appropriate. The Act requires that the 
regulatory process use the best available, peer-reviewed science, a 
principle this administration has strongly endorsed, as described by 
the March 9, 2009, Memorandum for the Heads of Executive Departments 
and Agencies on Scientific Integrity. These principles are important to 
ensure that the Agency directs water providers to address actual risks 
and doesn't misdirect limited resources based on incomplete or faulty 
information. Once misdirected, a community's resources cannot easily be 
recovered to address genuine risks and other important community needs.
    Unfortunately, the recent EPA actions on chromium-6 seem to 
discount the principles of the Safe Drinking Water Act, the same 
principles to which the Administration is committed.
    For example:
    1. Unregulated Contaminant Monitoring Rule. EPA's recent chromium-6 
monitoring guidance does not employ a fully validated analytical 
method.
    Nor are there validated performance standards for laboratories. 
Absent these things, it is not possible to be confident about the error 
bar around any sample, to compare samples analyzed by different 
laboratories, or even to confidently compare different samples analyzed 
by the same laboratory. Moreover, there is no mechanism provided for 
the Agency's collection of test results so as to inform future 
potential regulatory decisions. Given these shortcomings, the 
scientific value of the data that utilities may collect is unclear.
    The Agency has available to it a regulatory structure that 
addresses these issues through the Unregulated Contaminant Monitoring 
Rule (UCMR).
    UCMR is a time-tested process for obtaining a meaningful and 
actionable national occurrence dataset for contaminants of potential 
concern in drinking water. All laboratories currently engaged in UCMR 
monitoring are using well-characterized analytical methods that meet 
known performance requirements. Similarly, sampling requirements are 
developed with the goal of producing a dataset that supports regulatory 
decisionmaking. If the Agency wished utilities to undertake extensive 
testing for chromium-6, we believe the UCMR process would have provided 
the appropriate tool.
    2. Risk Communication / Health Advisories. EPA has not completed a 
risk assessment to support its recommendations on chromium-6. Neither 
water systems nor the public have a clear idea of whether minute 
quantities of chromium-6 represent a health risk, and if so, the nature 
of that risk. Therefore, utilities are placed in the untenable position 
of not being able to explain to their customers the relevance of the 
monitoring that EPA has recommended. Risk communication with the public 
on potential health effects in drinking water is difficult under the 
best of circumstances. The Agency's seemingly hurried response to 
chromium-6 questions compounds this challenge.
    The preliminary Integrated Risk Information System (IRIS) 
Toxicological Review on chromium-6 has not completed peer review. The 
Toxicological Review is built upon a number of embedded assumptions, 
some of which are known to be controversial. Moreover, the IRIS 
document is just the first step in the risk assessment process, as it 
only characterizes the potential hazard associated with chromium-6. 
Actually completing the risk assessment process will require 
substantial effort by EPA. To date, EPA has not clearly conveyed this 
process to the public.
    3. Taking Regulatory Action. The tone, delivery, and content of 
EPA's chromium-6 action implies that regulatory change is urgent and a 
foregone conclusion. In fact, the current Maximum Contaminant Level 
(MCL) for total chromium was addressed in the second 6-year review of 
drinking water regulations that was published on March 29, 2010. As a 
result of this review, EPA stated that ``The Agency does not believe a 
revision to the NPDWR [National Primary Drinking Water Regulations] for 
total chromium is appropriate at this time. A reassessment of the 
health risks associated with chromium exposure is being initiated, and 
the Agency does not believe that it is appropriate to revise the NPDWR 
while that effort is in process.''
    EPA has a clear process for reviewing existing Maximum Contaminant 
Level Goals (MCLGs) and MCLs in response to evolving science. Under the 
SDWA, the decision on whether or not an MCL should be revised includes 
a consideration of whether doing so provides a meaningful opportunity 
for health risk reduction. In its two 6-year reviews, the Agency has 
had opportunities to lower the MCL for chromium and elected not to do 
so. We believe this important fact should have been conveyed by the 
Agency in its recent memorandum on chromium-6.
    The decisionmaking process outlined in the Safe Drinking Water Act 
is consistent with both the Presidential Memorandum on Scientific 
Integrity and the more recent Executive Order on Improving Regulation 
and Regulatory Review. These two directives emphasize the importance of 
making smart decisions based on the best available science so that 
regulations result in a public health benefit.
    AWWA believes EPA's recent activity related to chromium-6 discounts 
the scientific rigor of the SDWA and contravenes the spirit of the 
Presidential memorandum and executive order. We believe that future 
actions on chromium-6 and other contaminants must use proven processes 
and be better informed by sound science.
                              perchlorate
    We believe that the same scientific processes and faithfulness to 
the Safe Drinking Water Act must be maintained in considering whether 
or how to regulate perchlorate in drinking water. As you know, the SDWA 
defines three key criteria for regulation of contaminants:

          i. the contaminant may have an adverse effect on the health 
        of persons;

          ii. the contaminant is known to occur or there is a 
        substantial likelihood that the contaminant will occur in 
        public water systems with a frequency and at levels of public 
        health concern; and

          iii. in the sole judgment of the Administrator, regulation of 
        such contaminant presents a meaningful opportunity for health 
        risk reduction for persons served by public water systems.

    Given the weight of evidence available at that time and AWWA's 
independent assessment of occurrence and exposure, we concurred with 
EPA's preliminary determination that regulation of perchlorate would 
not present a ``meaningful opportunity for health risk reduction for 
persons served by public water systems.'' We continue to support that 
preliminary determination. AWWA also concurs with the agency's 
Inspector General, who said that regulatory action under the Safe 
Drinking Water Act is not appropriate.
    Data from the UCMR has revealed that detection of perchlorate in 
drinking water was geographically widespread but at very low 
concentrations. Significantly, there is little correlation between 
perchlorate detection in drinking water and known points of perchlorate 
release to the environment identified by the USEPA (with the exception 
of certain points in the Lower Colorado River). Perchlorate has been 
detected in drinking water in less than 5 percent of the nation's large 
community water systems (>10,000 population served). When detected, 
perchlorate was typically present at concentrations of less than 12 ug/
L and was generally found in less than one-half of the sources for 
systems which sampled multiple sources.
                            recommendations
    We acknowledge that scientific processes for determining the actual 
risks to human health from different substances or compounds can seem 
frustratingly slow. However, it is only by following methodical, peer-
reviewed studies that we can know where actual risk lies. We recommend 
that Congress allow the UCMR, Contaminant Candidate List and Six-Year 
Review processes created in the 1996 Amendments to the Safe Drinking 
Water Act to be allowed to work. AWWA and its members pledge to 
continue to provide field data and studies related to these processes 
and to continue to make our methodologies transparent.
    We also recommend that the resources of community water systems and 
more significantly their customers be focused on the direct threats to 
safe water about which we are certain. Studies by AWWA and EPA show 
that hundreds of billions of dollars must be invested in water 
infrastructure soon and very soon if we are to continue to provide safe 
and sufficient water to our fellow citizens and the health protection 
that wastewater systems provide. We realize that water utilities also 
have responsibilities to maintain or work toward self-sustaining rates, 
exercise the best asset management practices, and better communicate 
the need for investment in water infrastructure. We pledge to continue 
these efforts.
    We realize these are tough times for the Federal budget. However, 
there is a continuing need for additional funding for human health 
effects research for drinking water contaminants. We urge Congress to 
support additional funding in this arena and we urge that EPA's 
research efforts be tied more closely to its regulatory program. We 
would like to see the Agency's finite water research dollars 
prioritized toward projects that study water contaminants.
    We thank the Committee for its efforts to reauthorize and improve 
the State revolving loan fund program in the last Congress. We offer 
our cooperation in working toward similar legislation in this Congress.
                               conclusion
    The bottom line is that Congress should not legislate individual 
drinking water standards. The SDWA was amended in 1996 to provide a 
scientifically sound and transparent method for selecting the 
appropriate substances for regulation and for selecting the appropriate 
maximum contaminant level for contaminants. We should allow the best 
available science, not the political process, to be the ultimate driver 
in regulatory decisions.
    AWWA and its members look forward to continuing to work with all 
facets of the drinking water community to ensure that the Nation 
focuses its resources on the greatest threats to public health, and 
that the nation's drinking water supply remains safe and affordable.
                               __________
Responses by Charles Murray to Additional Questions from Senator Inhofe
    Question 1. We hear a lot from the smaller drinking water utilities 
around the country about problems complying with unfunded drinking 
water mandates such as new rules or additional testing. How does 
Fairfax Water respond to these mandates and challenges?
    Response. Although Fairfax Water is not a small utility, the State 
Revolving Loan Fund program is an essential tool used by small and 
medium-sized drinking-water utilities to fund regulatory program-
compliance efforts. The funding for this program is essential to 
providing safe drinking water to those served by the smaller systems. 
Fairfax Water is not eligible to receive such funding, so these costs 
are simply passed on to our customers.

    Question 2. I appreciate your support for drinking water 
infrastructure funding. I want you to know that I believe one of the 
best ways to deal with the many issues involving drinking water is to 
continue to fund the State Revolving Loan Fund program. We cannot 
expect our communities to continue to provide safe drinking water if 
they do not have the resources to meet their infrastructure needs. I 
know you understand the tight budgets we are all facing. Could you 
explain the process that your utility goes through in deciding bow to 
spend the limited resources available to Fairfax water and how those 
decisions are affected by new regulations?
    Response. This is a critical question. Second only to the 
importance of public health and safety in the delivery of public 
drinking water is the financing for that water service. It is probably 
the No. 1 concern of ratepayers and a non-profit public utility such as 
ours. Fairfax Water uses a 10-year financial-planning horizon. We 
carefully look at our planning, capital improvements, and operation and 
maintenance needs, and then estimate our priorities for the next 
decade. Drawing on that information, we create a 10-year Capital 
Improvement Plan and a financial-planning document. These documents are 
the inputs into our rate model. Our Board of Directors reviews these 
plans annually. Our staff also conducts an annual analysis of our 
rates, fees, and charges to ensure that we capture the true cost of 
service. Fairfax Water typically raises its rates by a few cents each 
year to keep up with the increasing cost of business. Steady, small 
increases, consistently over time, are much better for our customers 
than large, jarring increases intermittently. This consistent approach 
has helped Fairfax Water maintain a AAA financial rating, thereby 
keeping to a minimum the cost of borrowing monies.
    When new regulations come along, it is important that the process 
for developing these regulations recognizes that utilities need time to 
factor the cost of the regulation into not only the financial-planning 
process, but also the standard operations of the utility. Taking 
regulations out of the normal development process and shortening the 
timeframe does not allow a utility adequate time to prepare 
financially, much less physically, for the implementation of new 
treatment techniques.
    As technology allows us to measure compounds at ever-lower levels, 
the ability to remove compounds becomes more complex and exponentially 
more expensive. As lower standards are contemplated, it often forces 
drinking-water utilities to consider treatment techniques beyond 
conventional methods, such as membrane filtration. Such methods are 
extremely costly. There must be sufficient time in the regulatory 
development process to allow drinking-water utilities to plan, fund, 
install, and train for new technologies.

    Question 3. In your testimony, you discuss EPA's issuance of 
guidance outside of the UCMR process. Please tell the committee bow 
testing for chromium-6 would have benefited from being included in the 
UCMR instead of a separate guidance document?
    Response. The EPA has suggested that drinking-water utilities 
collect samples throughout the treatment process to better understand 
the occurrence and concentration of hexavalent chromium. However, the 
EPA has not afforded itself the benefit of this data. Under the 
proposed action, there is no national collection repository for the 
results. Had the monitoring been conducted under the Unregulated 
Contaminant Monitoring Rule, any issues relating to analytical 
methodology and data collection would have been resolved. Using the 
methodology established in the Unregulated Contaminant Monitoring Rule, 
all data collected would be available to EPA for analysis. As it 
stands, absent critical information such as a clear understanding of 
the actual risks associated with the presence of very low levels of 
hexavalent chromium, a community must now decide if it should expend 
the resources to conduct this monitoring. And should a drinking-water 
utility conduct this monitoring, how will it convey the results to its 
customers?

    Question 4. Where is Fairfax most interested in focusing resources 
over the next few years?
    Response. Reinvestment in distribution-system infrastructure is 
what we are most interested in.

    Question 5. What are some of the challenges that utilities face in 
responding to media reports about unregulated contaminants?
    Response. Undoubtedly the biggest challenge of responding to 
questions involving unregulated contaminants is the assumption that 
drinking water is unsafe just because a contaminant is being discussed 
or is in question. The purpose of research and testing for unregulated 
contaminants is to determine whether these compounds are found at a 
frequency and level of concern. Utilities often are put in a difficult 
position of trying to respond to customer concerns before the science 
is fully developed.

    Question 6. Are you supportive of a drinking water regulatory 
process that relies on science to help guide decisionmaking? Do you 
think the current SDWA provides a clear, transparent, science driven 
process for making decisions regarding drinking water regulation?
    Response. Yes, I am absolutely supportive of a drinking-water 
regulatory process that relies on science to help guide decisionmaking. 
As I testified, I believe the Safe Drinking Water Act mandates a 
rigorous process for evaluating risks to public health and determining 
what risk-management actions are appropriate. The Safe Drinking Water 
Act requires that the regulatory process use the best available, peer-
reviewed science. These principles are critical to ensure that actual 
risks are addressed and that limited resources are assigned to the 
highest risks based on complete and accurate information. Should funds 
be misdirected on risks that have not been fully or appropriately 
vetted, a community's resources cannot be recovered to address genuine 
risks and other important community needs.
    I support drinking-water regulations that are developed through a 
transparent process, are based on the best available science, and that 
provide meaningful public-health protection in an affordable manner. 
This foundation of sound science must not be compromised. The Safe 
Drinking Water Act affords the EPA a robust, transparent methodology 
upon which it can evaluate, propose, and promulgate regulations.
                                 ______
                                 
       Response by Charles Murray to an Additional Question from 
                             Senator Carper
    Question. How can the Federal Government focus its efforts to 
improve drinking water quality on pollution prevention? What kinds of 
tools and programs exist to prevent the pollution of drinking water and 
what new ones are needed?
    Response. As I testified, I support drinking-water regulations that 
are developed through a transparent process, are based on the best 
available science, and that provide meaningful public-health protection 
in an affordable manner. This basis of sound science must not be 
compromised. The Safe Drinking Water Act affords the Environmental 
Protection Agency (EPA) a robust, transparent methodology upon which it 
can evaluate, propose, and promulgate regulations.
    In addition to the Safe Drinking Water Act, the Clean Water Act 
provides real opportunities for improved source-water protection. The 
EPA can link the discharge permitting authorities of the Clean Water 
Act with the vulnerabilities identified in the Source Water Assessments 
required by the Safe Drinking Water Act and create safer, cleaner 
sources for drinking water by limiting upstream discharges of 
contaminants.

    Senator Boxer. OK, thank you very much.
    Dr. Burke, I want you to know that Senator Cardin is very 
proud that you are here today. I am going to put his 
introduction of you into the record. But I think I should say a 
couple of words about you.
    You are from the Johns Hopkins Bloomberg School of Public 
Health. You serve as a professor in the Department of Health 
Policy and Management, Associate Dean of Public Health Practice 
and Training, Director of both the Johns Hopkins Center for 
Excellence in Environmental Public Health Tracking and the 
Center for Excellence in Environmental Health Practice. You are 
the Chair of the National Academy of Sciences Committee on 
Improving Risk Analysis, along with positions on several other 
commissions and boards, and lots of other things. An award 
winner, and we welcome you.

    STATEMENT OF THOMAS A. BURKE, Ph.D., MPH, PROFESSOR AND 
   ASSOCIATE DEAN FOR PUBLIC HEALTH PRACTICE, JOHNS HOPKINS 
   BLOOMBERG SCHOOL OF PUBLIC HEALTH, DIRECTOR OF THE JOHNS 
       HOPKINS RISK SCIENCES AND PUBLIC POLICY INSTITUTE

    Mr. Burke. Thank you, Senator. It is good to be here, and I 
have submitted written testimony. I would like to hit some of 
the high points of the discussion, though, and summarize.
    As you mentioned, I chair the National Academy panel on how 
EPA does risk assessment. Today, I would like to address three 
things. One, the broad issue of chromium VI in water; second, 
our current approaches to risk assessment; and finally, leave 
you with some recommendations as we think about how we protect 
drinking water in the future.
    First of all, being a professor, I had to give you some 
pictures and some slides. At the end of my testimony, there are 
some pictures that show just how mobile chromium is in the 
environment. Although Hudson County, NJ, didn't make it into 
the movie, certainly as a chromate capital throughout the 
Nation, New Jersey grappled with this issue of chromium moving 
through the environment and it is very soluble and it is not 
surprising that we are beginning to find it as we look.
    Perhaps most relevant today is that I led the States' 
efforts to investigate the chromium slag, and also to look at 
drinking water, and conducted some of the first tests of toxics 
in drinking water. To the issue of can we do it, is it 
feasible, we have made great progress in reducing toxic 
chemicals in the water.
    Now, the current EPA standard for chromium in drinking 
water is outdated. It does not reflect current science. Because 
our understanding has evolved, as you have heard today. There 
is little argument today that chromium VI is a carcinogen. It 
is a carcinogen by the route of oral exposure, drinking water. 
Also, combined with the exploratory studies of the 
Environmental Working Group, this is not a surprise to 
scientists in the field, we have assumed that chromium VI, the 
water-soluble part of chromium, would be present in the 
Nation's drinking water, and indeed, we are beginning to 
understand that evidence.
    This is a wake-up call. But we have broader issues. The 
challenges of chemical pollutants in drinking water go far 
beyond that very narrow risk that EPA now regulates. We have 
learned that virtually anything we flush down our drains shows 
up in low levels in our tap water, from personal care products 
to fuel additives, pharmaceuticals to persistent toxics, we 
know that water contains a complicated mixture of chemicals. It 
is time for us to rethink how we address these.
    If you look at the way EPA does its work, one substance at 
a time, one environmental medium at a time, it takes an awful 
long time. In fact, if we are going to continue this one at a 
time process, our National Academy panel that looked at this 
said this system is bogged down and sometimes it takes 10 to 20 
years for a risk assessment to be completed.
    There are inherent uncertainties in the science. They have 
made risk assessments a convenient target for those who seek to 
avoid regulation or the cost of remediation. We have witnessed 
these battles over MTBE, perchlorate, arsenic and now chromium 
VI. Unfortunately, raising doubt about public health impacts 
has become a successful strategy for delaying action.
    As a former State regulator, I am a realist. I understand 
the concerns about costs. There are no quick solutions to 
removing toxic substances from our drinking water. Our tap 
water reflects our way of life.
    But if we are going to be responsible and preserve our 
drinking water resources, we have to move forward. So I would 
like to conclude with a brief list of recommendations for the 
Committee to consider.
    First, this one at a time, 20-year process, is bogged down. 
We have to be more efficient. We need to shift from reaction to 
chemicals in the water to prevention of contamination. We have 
to improve the protection of our surface in-ground water 
resources. We have to expand State and regional water 
monitoring efforts.
    The Environmental Working Group did a great service, I 
think, by conducting this evaluation. But it is unfortunate 
that our States and our EPA regions don't have the capacity to 
conduct this kind of monitoring.
    We have to recognize the potential cumulative impact of 
this mixture of multiple contaminants, many of which have 
common health end points, effects on development and 
neurological development. Most importantly, perhaps, we have to 
advance our drinking water treatment technologies to better 
remove contaminants and their precursors.
    Controlling pathogens has been a cornerstone of public 
health to prevent infectious disease. Now we must also 
recognize that monitoring and reducing chemical contamination 
in our drinking water is an essential component of our public 
health efforts to prevent chronic disease.
    Thank you for this opportunity to speak with you today. I 
am anxious to answer questions.
    [The prepared statement of Mr. Burke follows:]
 Statement of Thomas A. Burke, Professor and Associate Dean for Public 
 Health Practice, Johns Hopkins Bloomberg School of Public Health and 
Director of the Johns Hopkins Risk Sciences and Public Policy Institute
    Thank you for the opportunity to address the Committee on 
Environment and Public Works, Oversight Hearing on Public Health and 
Drinking Water Issues. I am Dr. Thomas Burke, Professor and Associate 
Dean at the Johns Hopkins Bloomberg School of Public Health. I am also 
Director of Johns Hopkins Risk Science and Public Policy Institute. I 
have served as a member of the National Academy of Sciences Board on 
Environmental Science and Toxicology, and am a Member of the EPA 
Science Advisory Board. I also served as Chair of the National Academy 
of Sciences Committee on Improving Risk Analysis Approaches Used by the 
U.S. EPA. Perhaps most relevant to today's topic, I served as Director 
of Science and Research at the New Jersey Department of Environmental 
Protection, and in response to tremendous concerns about the State's 
high cancer rates, led the first State efforts to monitor and reduce 
toxic chemical contaminants in drinking water. Later as Deputy 
Commissioner of Health for the State, I participated in the State 
efforts to implement the New Jersey Safe Drinking Water Act and to 
establish health-based standards for toxic pollutants.
    It is also relevant to today's hearing to tell you that I grew up 
in Jersey City, in Hudson County New Jersey, the nation's center of 
chromate production during much of the past century. Later, I led the 
State Health Department efforts to investigate the public health 
impacts of the uncontrolled disposal of billions of pounds of chromium 
slag. I am all too familiar with our historical failure to act to 
control worker and population exposures to chromium 6. As you can see 
in the picture 1, I am also familiar with the great mobility of the 
water-soluble chrome 6 in the environment. This picture is shows the 
bright yellow chromium in a rain-flooded area near one of the hundreds 
of disposal sites throughout the community. There were mountains of 
this slag known as the `chemical mountains' throughout the county. My 
wife Marguerite even recalls learning to ice skate on the frozen yellow 
water near one of the chromate plants. Picture 2 shows the basement of 
a home near a disposal site after flooding. Those crystals are 
chromium, most likely with a high concentration of the carcinogenic 
chromium 6. This hazard touches many communities throughout the 
country, including my current home, Baltimore. Picture 3 show the 
remediation work underway at a former chromate plant in the Inner 
Harbor. Not a good place to try to contain a highly soluble 
carcinogenic pollutant.
    The EPA standard for chromium in drinking water is outdated, and 
does not reflect current science. Our understanding of the public 
health hazards of chromium has been continually evolving over the past 
70 years--from early recognition of the acute effects of high exposure 
on the skin, respiratory and digestive systems; to the epidemiological 
studies demonstrating high lung cancer rates in workers. Now, the 
findings of the National Toxicology Program of oral and intestinal 
cancers in laboratory animals from ingestion of water soluble chromium 
6, coupled with epidemiological evidence from communities exposed 
through contaminated drinking water in China, provide a new perspective 
on the public health risks. In addition, the EPA has recently 
determined that hexavalent chromium is ``likely to be carcinogenic to 
humans'' via the oral route of exposure. (EPA 2010) Additionally, 
available evidence indicates that chromium interacts with DNA, 
resulting in DNA damage and mutagenesis. Based on the weight of the 
available evidence, hexavalent chromium is proposed to act through a 
mutagenic mode of carcinogenic action. These findings, coupled with the 
Environmental Working Group (EWG 2010) report of the widespread 
presence of chromium 6 in the nation's drinking water supplies indicate 
it is time to act to understand and reduce population risks.
    California has been leading the Nation in the testing of drinking 
water supplies for chromium 6. The California Office of Environmental 
Health Hazard Assessment has proposed a Public Health Goal of .06 ppb. 
This is a sound public health approach and is consistent with the New 
Jersey's Safe Drinking Water Act, which specifies that drinking water 
standards for carcinogens be based on a health-based goal of one in one 
million. The recent guidance issued by EPA Administrator Lisa Jackson, 
also represents a step in the right direction in recognizing and 
addressing the hazards of chromium 6.
    The public health challenges of chemical pollutants in drinking 
water go far beyond the current very narrow list of regulated 
pollutants. The nation is more dependent than ever on re-used water. 
With modern analytical methods we now know that the chemicals we flush 
down that drain are showing up in low levels in our tap water. From 
personal care products to fuel additives; pharmaceuticals to persistent 
toxic chemicals; we now know that our water contains a complicated 
mixture of chemicals with a broad range of potential yet unknown public 
health impacts. Our national biomonitoring efforts have also indicated 
that these chemicals are present in our bodies.
    The Safe Drinking Water Act has been tremendously successful in 
monitoring the quality of our water supplies and reducing exposure to 
harmful pollutants. At both the State and national levels the 
compliance with monitoring and health based standards has been 
excellent and continually improving. We witnessed great reductions in 
population exposure to organic solvents and disinfection by products. 
(This despite the fact that states and EPA faced an outcry of protests 
from industry claiming ``it couldn't be done, the costs would be 
prohibitive''!)
    Now we face new challenges. The recent NAS report on risk 
assessment at EPA found that the system is ``bogged down''. (NAS 2009) 
The timeframe for risk assessments is often decades long. The inherent 
uncertainties toxicology and epidemiology studies have made the risk 
assessments a convenient target for those who seek to avoid regulation 
or the costs of remediation. We have witnessed these battles over MTB, 
perchlorate, arsenic, and now chromium 6. Unfortunately, raising doubt 
about public health impacts has become a successful strategy for 
delaying action.
    The NAS Report ``Science and Decisions'' (NAS 2009) recommends that 
EPA begin to move beyond the current single substance, single media 
approach to environmental decisions. From a public health perspective 
it is important that we begin to recognize and address the cumulative 
effects that constant low-level exposures to chemical may be having on 
our health. Consideration of the cumulative impacts should guide not 
only our assessment of public health risks, but also our enforcement 
strategies to prevent pollution and our engineering strategies to 
improve drinking water quality.
    As a former State regulator, I am a realist. As a member of the EPA 
SAB I am also aware of the limitations of the Agency's resources. There 
are no quick or solutions to removing toxic chemicals from our drinking 
water. Our tap water reflects our way of life and all the benefits that 
chemicals have brought us. However, our current approach is outdated 
and needs to be more responsive to emerging science. If we are going to 
preserve our drinking water resource from emerging threats such as 
``fracking'' for natural gas or the accumulation of nano-materials, we 
must aggressively move forward with improved monitoring, exposure 
evaluation, and assessment of public health risks. Lack of certainty 
about contaminants and their potential effects cannot continue to be an 
excuse for lack of action to protect public health.
    I would like to conclude with a brief list of recommendations for 
the Committee to consider:
    <bullet>  Shift from reaction to contaminants to prevention of 
contamination of our drinking water
    <bullet>  Improve protection of surface and groundwater sources
    <bullet>  Expand regional and State water monitoring efforts to 
identify contaminants and their sources
    <bullet>  Recognize of the potential cumulative impacts of multiple 
contaminants with common health endpoints in the standards setting 
process
    <bullet>  Advance drinking water treatment technologies to better 
remove chemical contaminants and their precursors
    Controlling pathogens in drinking water has been a cornerstone of 
our public health efforts to prevent infectious disease. Now we must 
also recognize that monitoring and reducing chemical contamination of 
our drinking water is an essential component of our public health 
effort to prevent chronic disease
    Thank you for this opportunity to speak with you today on this 
important public health challenge.
References
    EPA (Environmental Protection Agency). 2010a. Toxicological Review 
of Hexavalent Chromium (CAS No. 18540-29-9) (External Review Draft). 
EPA/635/R-10/004A. September 2010. Available at: oaspub.epa.gov/eims/
eimscomm. getfile?p_download_id=498712.
    EWG (Environmental Working Group) 2010. Cancer causing Chromium 6 
in U.S. tap water. http://static.ewg.org/reports/2010/chrome6/html/
references.html
    NTP. (2008) NTP technical report on the toxicology and 
carcinogenesis studies of sodium dichromate dihydrate (CAS No. 7789-12-
0) in F344/N rats and B6C3F1 mice (drinking water studies). Washington, 
DC: National Toxicology Program; NTP TR 546. Available online at http:/
/ntp.niehs.nih.gov/files/546_web_FINAL.pdf
    OEHHA (Office of Environmental Health Hazard Assessment). 2009. 
Draft Public Health Goal for Hexavalent Chromium in Drinking Water: 
Pesticide and Environmental Toxicology Branch, Office of Environmental 
Health Hazard Assessment, California Environmental Protection Agency. 
Available at: www.oehha.ca.gov/water/phg/pdf/Cr6PHGdraft082009.pdf.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Senator Boxer. Thank you very much.
    I would like to address our two water people. I first got 
started in Marin County as a county supervisor, so I was pretty 
close to the water district people and the whole issue of 
drinking water. You are both saying, very clearly, Congress, 
keep out of this, this has nothing to do with you, let's just 
have the EPA do whatever they do and follow the law.
    Well, let's just set aside for a minute any kind of 
prejudices on who should act. Let's just make believe we are 
just a person in the United States of America who is raising a 
family who wants to make sure when they drink the water, it is 
safe. They don't really care, if you, Mr. Murray, take action 
on your own, because I know you care a lot about this, and you 
might just say, we are not happy with our quality, we are going 
to move forward without the Federal Government. They don't care 
if the State government does it, they don't care if the Federal 
Government--they don't care if the Environmental Working Group 
brings to light all this, they want the water safe.
    So let me tell you my view, because you are not going to be 
happy with it, but in the interest of fairness here, I believe 
that in the 1996 law, the Safe Drinking Water Act, the rewrite 
of the Water Act, what Congress wanted to happen was for the 
EPA to begin to move on these emerging contaminants. They 
expected that EPA would move on these emerging contaminants.
    They didn't expect that not one emerging contaminant would 
be regulated from 1996 to as we sit here. Not one thing has 
happened. Nothing. It reminds me of what happened when Senator 
Feinstein threw up her hands when she looked at the exposure of 
our kids to pthalates. She said, I am not waiting around for 
the Consumer Product Safety Commission to act, they are not 
acting. We are going to do it.
    In essence, we did it. At that time, I said if we don't see 
the national Government implementing the laws then Congress is 
going to take it upon itself.
    Now, in the 1996 Act, Congress is the one who said, you 
shall regulate arsenic. Because I could tell you, knowing what 
I see, I don't think arsenic, we could have had the same fight 
over that.
    Now, I understand from your point of view that you would 
rather let things go as they are. But I want to say this. As 
the author of the bill to regulate, to have EPA set a standard 
for perchlorate, and I don't say what it should be, I just say 
it should be based on science and also chromium VI based on 
science, and someone from California, where we have set goals 
and standards for these two very dangerous contaminants, and I 
would put in the record, because I know we all want science. I 
have it. I have the science here. Some people are asking for it 
on perchlorate. I put in the record these scientific studies on 
what perchlorate does to babies and to fetuses in the womb.
    I am saying to you, to my water people out there, please 
work with us. Now, EPA is going to set a standard, we hope, for 
perchlorate. They are going to do it based on the science. I 
hope that you will work with us. If in fact you support the 
1996 law, as you said you do, and you are calling for regular 
order, that is what EPA is doing, regular order. They are also 
engaged in regular order when it comes to chromium VI. They 
said what the Environmental Working Group did was a snapshot of 
1 day. I think Mr. Cook has given great credibility today when 
he compares what the systems are doing with his report, they 
were pretty much on target there in his snapshot.
    So I want to just say to all of you, and I will withhold my 
questions until the next round, that I hope you will work with 
us and not against us. Because we represent the same people. 
Whether the EPA is moved forward because we say, set a 
standard, and we show why, or they are moving forward because 
they have seen some science that isn't definitive but is giving 
them a sense of it, I need you to work with us, not against us. 
We are your friends. I don't like unfunded mandates. Senator 
Inhofe and I agree. We want to make it possible for you to do 
your work.
    But I told you what the cost of cancer is to our society 
from the National Cancer Institute. You are looking at upwards 
of $200 billion a year. So to say that you support the Drinking 
Water Act and regular order is great. But what you don't say is 
that there hasn't been one thing done by the EPA except what 
Congress demanded, which is set a standard for arsenic, and now 
we are going to move forward with perchlorate, I hope, and 
chromium VI. Because if we don't do it, I will tell you what, 
the States are going to start to do it. Pretty soon, the cities 
are going to say, why aren't we doing it, because it is their 
people that are going to say, protect us from chromium VI.
    I will definitely give you a chance to answer in the next 
round, but I want to give Senator Boozman a chance here.
    Senator Boozman. Thank you, Madam Chair.
    Again, I think that we all agree that at some level, that 
this is a serious problem. The question is, what level that is.
    Help me, now, with California, their level, their suggested 
level is .02 at this point? OK. But there is no, you have 
Riverside, much higher than that. But there is no inducement 
for them to go down to that, that is just a suggested place to 
go.
    I guess, and then it looked like that they went from, I 
think in the testimony they went from .06 to .02, based on your 
stuff. What I would like from you, Dr. Burke, and Mr. Cook, I 
would really like the science that you have, give me a list of 
stuff that I need to look at so we can see where we need to go.
    I also think that it really makes a huge difference that if 
we are talking about Riverside being at 1.69 now, what is the 
cost it is going to have to incur to go down to .06? What 
benefit are we going to get out of that?
    Then also, what is the cost of going from .06 down to .02? 
I don't mean to be rude, but the idea of them going from .06 to 
.02 based on your study, where it is a tap in a city 
throughout, I don't think that you all would do that, Dr. 
Burke, in the sense if you truly were trying to, now, again, I 
understand what you were doing and things.
    But the problem is that the sweeping generalizations come 
out of a scientific effort that you generally, I don't think, 
Dr. Burke, would make based on an effort like that. In other 
words, that is pretty shaky. So again, I would like to see good 
studies, what you have there. Somebody at some point, Madam 
Chair, I really would like to know the cost and the bang for 
the buck, as opposed to, as we go to these very ratcheted, why 
don't we just say zero? Yet there is a reason we don't say 
zero, because it is expensive to do these. There is a finite 
amount of money. You have to have some practicality in all 
this.
    Can you comment on that? I think you understand what I am 
trying to say, not in a very good way.
    Mr. Burke. I absolutely understand, as a former regulator. 
We have to be practical. We have to move forward in public 
health protection. But we have to face the realities of our 
current limitations with pollution. There is an approach to 
that. The approach is not to cite the cost as a reason not to 
respond to the science. The approach is to get folks together 
and say, what can we practically do to reduce population 
exposure and how can we move forward.
    Now, on other pollutants, like benzene, that is in 
gasoline, it is all over the environment, the goal is zero, 
because that is a well-recognized leukemogen. The public health 
goal, and a goal to reduce cancer to one in a million, is a 
target. But I think we have to get there incrementally. That is 
possible.
    But what we shouldn't be doing is throwing out the science 
because of the cost. They are two separate issues. I think as 
we move forward, we have to acknowledge that and have practical 
steps. Ultimately, it is going to come down to protecting the 
source water and doing what is feasible, as we have with other 
pollutants.
    So you raise a very important point.
    Senator Boozman. I agree, you don't throw out the science 
because of the cost. But you do have good science to go where 
you are going, as opposed to emotion and not using common 
sense.
    Mr. Burke. Absolutely.
    Senator Boozman. Sometimes we see that. That is a real 
concern.
    Mr. Burke. Absolutely.
    Senator Boozman. Yes?
    Mr. Cook. Senator, thank you, I think you have put your 
finger on it. But I think most Americans don't understand that 
under the Safe Drinking Water Act, EPA routinely concludes what 
a safe level would be, and they come to that conclusion and 
publish it. Then the regulated level that they enforce is 
considerably higher, weaker. Precisely because they take into 
consideration the kind of concerns that you have mentioned, 
costs. We have limited resources. I think that is also what 
Professor Burke was getting at.
    So one of the questions in our study was, is it there? If I 
may say, I think if we hadn't looked, there isn't a water 
utility that is complaining about it now that would have looked 
on their own. Second, we said in our report, it is a snapshot, 
and the first thing we really need to consider, apart from the 
science of toxicity that has been discussed so eloquently, is 
how widespread is this? We need to look more widely. I think 
that process is underway now, but it is still voluntary. We may 
not get many more samples in. Or we may. I hope we do.
    Then we can have this discussion. There is no question that 
we are not worried about rats getting cancer. That is not why 
we are studying the animals. We are worried because there is an 
accumulation of evidence in this case that low level exposure 
does pose a risk of cancer in people. Because of that, that is 
why our study really made the impact that it made. If that 
science hadn't ripened as far as it has ripened, matured as far 
as it has matured, our study, I think, wouldn't have had any 
impact. But the fact is, there is science.
    Senator Boozman. Thank you, Madam Chair.
    Senator Boxer. Thank you so much.
    I want to tell you a story about Santa Monica, California, 
a beautiful place, if you haven't visited it. Senator Boozman, 
just on your way out, I want to tell you this quick story. In 
Santa Monica, they found out they had huge amounts of MTBE in 
the drinking water. The reason they found out is, no one 
tested, you could smell it. You could taste it. It was a very 
unsafe level.
    So here is what happened. No one, for a period of time, 
could drink the water. Senator Feinstein and I and members of 
the House, both Republican and Democrat from California, were 
able to get some funding. We helped them clean it up and now 
they can drink the water in Santa Monica.
    I can tell you that the worst thing we can do for our 
economy and for everything else is to ignore these issues. I 
know you don't want to, and I know what you are pressing toward 
is the science, the feasibility. So on your way out the door, I 
am going to tell you, I am going to send you a scientific 
report on chromium VI that was done in California by one of our 
universities, which was the key scientific factor in them 
setting that low standard. It is absolutely true, sometimes you 
don't go down to zero, because you don't have to go down to 
zero. Sometimes you have to go down that low.
    So it is about protecting the health. But I think it is 
important to note that the EPA has to do a cost benefit 
analysis, they have to, in addition to the science. They also 
have to make a finding that what they are proposing, the 
standard they are proposing is technologically and economically 
feasible.
    So I just wanted you to feel better about that. I have been 
steeped in these things for a long time. I think that the 
arguments you raised are absolutely appropriate. But I honestly 
think we have answers to them.
    So I look forward to working with you and sending you those 
studies.
    Senator Boozman. Thank you, Madam Chair. I appreciate that. 
Again, though, you have a situation where on the chart several 
California cities that are quite high compared to .02, and yet, 
the reality is that the State, the Federal Government, has not 
allocated those resources. It is, the question is, is .02 where 
we want to be at? Is it .04, .06, whatever? At this point, that 
is, I don't think we really know that.
    Senator Boxer. Right. In California, we have set .02 as a 
goal. They reduced it from .06 to .02, because the UC people 
found, when they looked at the science and they looked at the 
babies and they looked at the pregnant women, that that was the 
level you could assure that they would be protected. But it is 
a goal.
    Because of your point that you are making, it has to be 
technologically, economically feasible. It has to have a cost 
benefit analysis.
    So I honestly think we have the tools at our disposal to do 
this right. But I also find, and I thank you for your 
contribution, but I also find it disturbing that not one 
emerging contaminant has been regulated since 1996. It makes no 
sense, as the cancer rates skyrocket in this country. Something 
is wrong there.
    All I am asking for is honesty here, from everybody. If 
people tell me, we can't afford it, that is my job, to help you 
get help fixing it. I don't like unfunded mandates, and I never 
have. I want to fund these issues. Because I don't want my 
people exposed to chromium VI. If the water district is saying, 
it is too costly, I need to help you. But we shouldn't mix up, 
as I think Dr. Burke points out, the truth of what it is going 
to mean to protect our people with the cost. We have to see 
those two things and we have to work to make sure that we can 
help these districts protect their people. We don't want 
children being born whose brains are not developed as they 
should. We don't want children being born with all kind of 
birth defects. We found out, for example, with lead, the great 
news is, when you protect them from exposure, they are fine. 
Even the ones who had some exposure before.
    So I think this Committee has a proud history of working 
across party lines to protect the public. But I would ask, 
since I have made a number of comments and I didn't give people 
a chance to respond, I will go down and have you each make a 
closing statement. Go ahead, Mr. Cook, and we will go next to 
Ms. VanDe Hei.
    Mr. Cook. Chairman Boxer, I commend you for the hearing. We 
support your legislation. We supported it for a long time. We 
have been worried about chromium VI, you have been worried 
about it for well over a decade officially. So this is not a 
new subject.
    But I think that we stand ready to work with the Committee, 
not just on the health and assessment side, but also on the 
funding side. We have worked very cordially with our colleagues 
at the water associations for many years, supported their 
requests for additional money, lobbied side by side with them 
in some cases on contaminant issues. So I think that you are 
right, this is not a partisan issue, it is not a regional 
issue, this is an American issue. We want to have clean water, 
and we have some barriers in the way that we have to deal with.
    So thank you.
    Senator Boxer. Well, thank you for all your work.
    If I could just say, keep on doing what you are doing. If 
people don't like it, that is their right. I like it. Because I 
want a snapshot. I don't take it as the last word. I just take 
it as a warning, as a red flag, as a moment to say, wait a 
minute, this is a snapshot today and this is a little 
surprising. I think the group should welcome it, and I think 
there are some that do. But I certainly welcome it, as Chairman 
of this Committee, and I encourage you to keep on doing our 
job. Because at a time of budget deficits, I think Mr. Murray 
was honest about that, these are tough times, very tough times 
for everybody.
    But the world goes on and our kids are being born, and we 
are relying on them for our future. We can't stop the science 
or telling the truth to the American people. These are hard 
times. We have to look at what we are facing and we have to 
decide what is most important. What you are doing is saying, 
time out, let's take a look at this. We don't want to look at 
it, but let's do it.
    So I am with you all the way in your work. I hope you 
continue it.
    Ms. VanDe Hei.
    Ms. VanDe Hei. Thank you, Chairman Boxer.
    I guess just a couple of things. I would like to say, in 
our testimony we did not intend to say that Congress had no 
role in the Safe Drinking Water Act. In fact, Congress enacted 
the Safe Drinking Water Act and has a very important role in 
oversight, to make sure that that Act is implemented the way 
you intended it. So I would like to make that clear.
    We also wonder why there have been no new contaminants 
regulated, and we believe the process is there to do that. So I 
would ask that perhaps someone look at EPA's structure, and 
where the people at Triangle Park, what they are studying 
versus what the program office needs in terms of data to sort 
of support a regulation. About 18 years ago, those offices were 
separated. We got program offices, science was taken away from 
it. I think that is part of the reason why you don't see new 
regulations coming down the road.
    I would also like to followup with something that Ken 
mentioned, and that is, there is confusion about what an MCLG 
is and what an MCL is. We would support one number. We have 
tried for years to get Congress to look at that issue, because 
it is hard to explain to somebody why you can have an MCLG of 
zero and a standard that is different than that. So we would 
love to work with you on that part.
    Senator Boxer. Thank you.
    Mr. Murray.
    Mr. Murray. Thank you, Madam Chair.
    I think we are all seeking for meaningful opportunities for 
risk reduction. We can argue that the Clean Water Act gave us a 
framework to get to those meaningful opportunities for risk 
reduction, and we can argue that maybe that process isn't 
working as well as it should be working.
    But we can't replace that process with water utilities 
chasing the contamiannt du jour. Right now, Fairfax Water is 
monitoring for 30 plus compounds, new compounds over the last 
year, year and a half, that have been raised as contaminants of 
concern. We don't know what to say about it. We post the data 
on our website, and we don't have decent health effects 
information to speak intelligently to our customers about it.
    We remove a lot of them. But to what levels is it safe? So 
I think your concerns with how we can improve the process of 
getting to meaningful risk reduction is real. Thank you.
    Senator Boxer. Thank you.
    Dr. Burke.
    Mr. Burke. I think the most important thing that the 
Committee can do is break the logjam. You are absolutely right 
about no movement forward since the mid-1990's. Even that 
movement has been quite little. We are actually stuck back in 
the late 1970's, I think, in Safe Drinking Water. I think it 
comes down to this: prevention is not a bad word. In public 
health, it is what we do. Lack of absolute certainty and 
arguments about cost, and there shouldn't be an excuse for lack 
of action.
    So I would hope that as we move forward, you can use the 
science, apply it better, take a hard look at the way EPA does 
things, and streamline it so that we can better protect public 
health.
    Senator Boxer. Thank you so much, all of you.
    We will have our test case with perchlorate and chromium 
VI, because EPA is moving ahead. I hope our friends at the 
water agencies will work with us. You are going to have a 
chance to publicly comment. I will be looking forward to what 
you say on this issue of perchlorate. It is all across the 
country, it is all over the place. We already know the problem 
it causes with thyroid.
    So I hope you will work with us. Look, I think that 
straightforward, honest declarations here are in order. If we 
find that perchlorate is a danger, and we have proved it to the 
water districts and we have proved it to everyone, I think the 
water districts should support it and say, we will be honest, 
we are going to need help in doing it. Let's get to that point, 
rather than try to use every delaying tactic, so that we just 
continue on with increasing cancer rates, with, I have a bill 
that will get EPA more involved in coordinating cancer cluster 
action.
    When we hear people in different States that say, we don't 
know what is happening, we don't know why there is this hot 
spot of leukemia over here, and why there is a hot spot of 
other problems over here. Right now, there isn't a way to 
respond except with the local people doing something, the EPA 
maybe being called and what we are trying to do is get all this 
information under one roof and try to answer these questions. A 
lot of the questions could lead back to water.
    We have a cancer hot spot, it was brain tumor, it was a hot 
spot of brain cancer in children in Idaho. Senator Crapo and I, 
across party lines, have gotten together to move forward with 
this cancer cluster bill. It may lead to the water. Because as 
it turns out, we found out the one thing we know, there was 
mining, and a lot of those toxins went into a lake, and the 
kids swam in that lake. I don't know if it was in the drinking 
water, we don't know all that.
    But the point is, it is our responsibility to protect the 
health and safety of our people, all of us. This is our job. 
Whether you are a non-profit, a profit, we need to all be 
mindful of that. We can't harm the people.
    My role as Chairman here is just to point out that we are 
not moving quickly enough on some of these contaminants that 
have been around a long time. There is a lot of information. 
States like Massachusetts, New Jersey, California, are moving 
forward. It is really our job. Why should a person in 
California be safer from chromium VI than he is in any other 
State? It is not right. It is just one country under God. We 
have to protect all of our people.
    So I am going to look forward to working with all of you, 
because you are all a piece of this puzzle. I think in the 
spirit of cooperation that I hope we will continue to have that 
we will be able to get behind some of these obvious problems 
and solve them. Because that is our job.
    I want to thank each and every one of you for being here 
and for your very honest, straightforward testimony. We stand 
adjourned, and thank you.
    [Whereupon, at 12:40 p.m., the committee was adjourned.]
    [Additional material submitted for the record follows:]
       Statement of Steve Lewis, City Manager, City of Norman, OK
    Madam Chairwoman and members of the Committee, thank you for the 
opportunity to testify. I am Steve Lewis, City Manager of Norman 
Oklahoma and responsible to our citizens for the safety of their 
drinking water. The city of Norman first learned of the Environmental 
Working Group (EWG)'s reported levels of Chromium 6 in our water supply 
through the news media. Norman, Oklahoma was identified as having one 
of the highest levels of Chromium 6 of the 35 cities tested. In spite 
of our requests, the EWG has refused to share the sampling data details 
with us, so confirmation of their report has not been possible. What we 
do know is that a single water sample was used to undermine public 
confidence in the safety of our water supply.
    Total chromium is regulated by the EPA as a primary drinking water 
contaminant with a maximum contaminant level (MCL) of 100 parts per 
billion (ppb). This level of protection was set by the EPA in 1992 
based on the best available science. Two subsequent EPA reviews 
concluded that the total chromium MCL is still protective of public 
health and as precautionary as the current science dictates. We applaud 
EPA's continued diligence to regulatory rulemaking based on good 
science and look forward to the result of the current Chromium 6 
scientific review to be finalized later this year.
    In Norman, total chromium is tested in accordance with requirements 
of the Oklahoma Department of Environmental Quality (ODEQ) and the 
United States Environmental Protection Agency (EPA). Approximately 30 
percent of our water supply is groundwater, where chromium occurs 
naturally. Chromium testing results are reported annually to our 
customers in our Consumer Confidence Report (CCR); the latest CCR 
reported total chromium values for our groundwater wells between 11 and 
86 ppb, all of which are below the regulatory limit of 100 ppb. Seven 
new water wells have been tested for total chromium since issuance of 
the CCR and their levels range from ``non-detect'' to 80 ppb. The 
surface Water Treatment Plant, that treats Lake Thunderbird water, has 
total chromium levels of ``non-detect''. All of our potable water, 
whether groundwater or surface water, is 100 percent in compliance with 
all current EPA regulations.
    Based on EPA's suggested recommendations, the city of Norman has 
begun comprehensive testing specifically for Chromium 6 at each of our 
wells as well as within the distribution system. With this additional 
information, Norman will be in a better position to address our 
customers concerns and to respond if a change in the chromium 
regulation is promulgated.
    The residents of Norman may rest assured that the city of Norman is 
committed to providing water that is safe to drink for all members of 
our community. As previously noted, the EPA is currently evaluating new 
health effects data on Chromium 6 and that evaluation is expected to be 
complete in late 2011. Norman is prepared to vigorously respond in a 
way that protects public health and meets Federal and State of Oklahoma 
standards.
    Consistent with our commitment to provide safe drinking water, the 
Mayor and I have appointed a Chromium 6 Working Group that will be 
constituted of senior city management and three members of the City 
Council. There will also be representatives on a technical advisory 
committee who bring expertise in chemistry and geology, public health, 
and water system engineering to work with this group as we continue to 
monitor the chromium public health issues.
    But more is needed from our regulators, and this is my main point 
to you today. We are in a new age of communication and information. The 
EWG report was designed to alarm the American people as to the safety 
of their drinking water and caused them to question the ability of 
utilities like Norman to protect the public health of our customers; 
when, in fact, the public water supply system in Norman Oklahoma 
provides the safest and most economical drinking water option that good 
science and good public health policy would dictate.
    We need more from our regulators than just reports on the technical 
details of rules and rulemaking. We need our regulatory bodies, 
especially EPA, to engage the American public in an open and honest 
discourse about the safety of their drinking water with the same media 
approach that our detractors use. EPA's December 2010, response to the 
EWG study was helpful, but did not provide any specific guidance 
regarding how to respond to concerned customers. We need to be 
proactive, not reactive.
    The safety of the American Public's drinking water is one of the 
most impressive success stories of the last 100 years. Protecting 
public health means more than acting on the good science that EPA 
develops and fosters. It means providing the confidence to our citizens 
and customers that their drinking water is the safest source of water 
available to them. To accomplish the complete mission of protection of 
the public health, our industry must be able to communicate our message 
more effectively than those who would have our customers think 
otherwise. America's drinking water is safe, reliable and economical. 
And we can all be proud of that fact.
    Norman will continue to work closely with the ODEQ and the EPA to 
assure our drinking water is safe for human consumption. Norman 
continues to support research by the EPA, the Water Research Foundation 
(WRF), and other government and scientific organizations. I appreciate 
the opportunity to testify and demonstrate Norman's actions, and I am 
pleased to respond to any questions you may have.
                               __________
 Response by Steven Lewis to an Additional Question from Senator Boxer
    Question. Describe the importance that utilities place on ensuring 
that they provide safe drinking water that protects public health, 
including the health of pregnant women, infants, and children, from 
dangerous contaminants.
    Response. The City's foremost priority is to provide safe drinking 
water to the community. A safe and reliable water supply is the ``life 
blood'' to any community and the utility employees and City leaders 
take that responsibility very seriously. All utility employees must be 
licensed to be able to work at the water treatment plant. Last year 
alone, we performed over 170,000 water quality tests (some every 15 
minutes) to insure the water meets all State and Federal quality 
regulations.
                                 ______
                                 
 Responses by Steven Lewis to Additional Questions from Senator Inhofe
    Question 1. Mr. Lewis, I want you to know that I understand the 
commitment of the city of Norman to providing water that is safe to 
drink and protective of public health for all members of your 
community. I remember in 2006, Norman addressed a similar challenge 
regarding a federally mandated reduction of the MCL for arsenic from 50 
ppb to 10 ppb. I know we helped the city of Norman secure $1.5 million 
in Federal Grant moneys between 2005 and 2006 to help the city perform 
major modifications to its groundwater supply and remain in compliance 
with the new arsenic rule. How much is Norman spending to deal with 
this new Chromium 6 report?
    Response. We appreciate your help and concern in meeting the 
previous mandated reduction of arsenic in the drinking water. Overall 
the city of Norman spent over $11 million to deal with the change in 
arsenic regulations, which caused a significant rate increase to our 
customers.
    We are currently performing additional testing and reviewing 
alternatives to deal with a potential change in the chromium 
regulation. We are also investing a considerable amount of time to 
educate our customers about the issue and have formed a senior 
management committee and a technical working group to help us determine 
the status of this issue within the scientific community.
    With regards to potential costs for treatment of chromium 6, we 
cannot make an exact determination without guidance from the Federal 
Government regarding appropriate treatment technologies and, if 
applicable, what the Maximum Contaminant Level (MCL) may be for 
chromium six, or total chromium. Since the scientific review necessary 
to determine these levels is incomplete, this point it is like hitting 
a moving target. However, our current engineering estimates run 
anywhere from about $44 million to over $100 million, depending on the 
mandated removal levels.

    Question 2. Have you received any more communication from EWG 
regarding where and when the sample they tested was obtained? How would 
that information help you understand the implication of this report?
    Response. We have received information from EWG as to when the 
sample was taken, but not as to where the sample was taken. The point 
was not whether or not the sample resulted in a chromium reading. We 
acknowledge there is naturally occurring chromium in the Garber-Welling 
aquifer. The issue is to whether the test could be duplicated, whether 
there was adequate laboratory QA/QC, and alarming our customers about a 
substance where we already meet Federal regulations.

    Question 3. Please explain the difficulty that the city has in 
communicating with citizens about the EWG report and what it means for 
them.
    Response. As mentioned, the EWG report was unnecessarily alarming 
to our customers about a substance that we currently monitor and for 
which we have always been below the federally mandated regulatory 
limits. The EWG report also stated that chromium is a `contaminant' and 
`pollutant' which was misleading since the chromium in our supply 
results from naturally and commonly occurring deposits in the earth's 
crust. Because of the alarming nature of the report, customers believed 
there was an acute (i.e. immediate) danger to their health from 
drinking the water, not realizing that the possibility of any ill 
effects would be from continuous consumption and only at levels above 
the regulatory MCL, and would take many years to develop (if at all). 
The report caused many, many customers to distrust the water utility 
and the City, when we work hard to protect the public health and to 
meet all State and Federal regulations.

    Question 4. What is the expected background concentration of 
chromium in your source water? Is your source water from groundwater or 
surface water or a combination? What causes the background 
concentrations of chromium (trivalent and hexavalent) in your source 
water to vary?
    Response. Water for the city of Norman comes from two sources: 
groundwater and surface water. Lake Thunderbird is a reservoir that 
Norman shares with Del City and Midwest City. On an annual basis, about 
70 percent of Norman's water comes from this Lake. Water tested from 
LakeThunderbird had a result of 9ppb for total chromium. The other 
source of water for Norman is from the Garber-Wellington aquifer. This 
is a large aquifer that serves many communities East of Oklahoma City. 
We currently have 26 operating wells in this aquifer. Water from the 
aquifer tested anywhere from 10ppb to 90ppb. The chromium in the 
Garber-Wellington aquifer is naturally occurring.

    Question 5. How can chromium be removed form public drinking water 
systems?
    Response. We are reviewing engineering option and opinions as to 
how to remove chromium from water. Some of the options include, a lime 
softening plant, ion exchange and membrane filters. Any of these 
options will be a huge expense to our customers and significantly 
increase their water rates.

    Question 6. I am always concerned about how cities and local 
governments are dealing with the unfunded mandates that are passed down 
from the Federal Government. I know stricter drinking water standards 
and clean water standards force many of our communities to either raise 
rates or seek additional funding from other sources. How can we ensure 
that utilities like yours are not facing the constant threat of having 
to raise rates and still meeting drinking water standards?
    Response. The city of Norman operates the Water and Wastewater 
utilities as `enterprise funds', meaning the customers that use the 
service, pay for the service. So, all the utility revenues must come 
from the customers. As mentioned in a previous question, we had to 
significantly increase water rates to meet the change in the arsenic 
rule in 2006. Now, depending on what level the new chromium MCL is 
determined to be, we will have to increase the water rate to our 
customers.
    As previously stated, we see it as our duty to protect the public 
health at all times and work hand in hand with Federal and State 
regulatory agencies to address new concerns that may appear on the 
horizon. As persons that could potentially impact how the Federal 
Government responds to the Chromium 6 issue, we only ask that you 
ensure that if a new regulation is promulgated that the current 
scientific process utilized to determine human health impacts from a 
particular component is maintained and ``sound'' scientific reasons are 
provided for this mandate to our utility. In addition, we ask that 
these mandates, whatever they may be, have funding mechanisms in place 
that provide some measure of relief for utilities, such as ourselves, 
to protect the public health to the best of our abilities.

    Question 7. Utilities have raised concerns with my office about 
EPA's decisions regarding the technical assistance to monitor for 
chromium 6, including the lack of a fully validated analytical method, 
inability for the agency to collect and use the data generated and lack 
of explanation of how to communicate the health effects to the public. 
How can EPA clarify and assist Norman with the technical assistance it 
provided?
    Response. As you are aware, when we first learned about a proposed 
chromium MCL in the parts per trillion we were shocked to learn there 
was not a laboratory in the region that could provide testing results 
at that detection limit. In addition, the chance for a laboratory error 
(either in sample collection, storing or testing) when testing for 
substances in the ppt range is very probable.

    Question 8. Are you supportive of a drinking water regulatory 
process that relies on science to help guide decisionmaking? Do you 
think the current SDWA provides a clear, transparent, science driven 
process for making decisions regarding drinking water regulations?
    Response. The city of Norman supports the EPA in their regulatory 
process that uses science to determine their decisionmaking. We would 
be disappointed if regulations were determined based on inconclusive 
data, bullying by special interest groups, fear or a `knee jerk' 
reaction to assumptions.

    Question 9. Is there anything else you would like to add for the 
record?
    Response. Not at this time.
                                 ______
                                 
        Response by Steven Lewis to an Additional Question from 
                           Senator Lautenberg
    Question. If not for EWG's monitoring of your water systems, the 
public would probably not be aware of the presence of chromium six in 
their drinking water. Could stronger Federal monitoring requirements 
help you catch these problems earlier and allow you to address them?
    Response. Our community, our customers, and we as a utility were 
already aware of the level of chromium in the water supply. Each year 
we publish and mail to each customer the Consumer Confidence Report 
(CCR). This report lists compliance information with respect to Federal 
requirements for our drinking water supply. As an added service to our 
customers, we also provide this information on the City's website that 
is available any time. The EWG report created an unnecessary alarm in 
the community about a substance that is already regulated and that we 
currently meet the Federal Maximum Contaminant Level (MCL). In our 
opinion, stronger Federal requirements for monitoring would not have 
any impact on this matter as all of the required information was 
available to our utility and our customers through the normal Federal 
monitoring requirements.
    The EWG report put `the cart before the horse' so to speak, by 
making alarming inferences about a substance before there is agreement 
within the scientific and regulatory community regarding their 
assertions. As stated, we (water utilities all over the nation) work 
hard and are diligent in providing safe, potable water to all our 
customers. We strive and promise to meet all State and Federal 
regulations.
                                 ______
                                 
 Response by Steven Lewis to an Additional Question from Senator Carper
    Question. How can the Federal Government focus its efforts to 
improve drinking water quality on pollution prevention? What kind of 
tools and programs exist to prevent the pollution of drinking water and 
what new ones are needed?
    Response. Analytical technologies and techniques continue to 
improve and, as a result, we are able to find more substances in the 
water than ever before. Detecting substances in the parts per billion 
(ppb) and parts per trillion (ppt) ranges reliably and consistently 
outpace the State agencies' and local laboratories' ability to 
duplicate these tests. In addition, the Federal Government and EPA must 
insure that in addition to simply detecting additional substances in 
water, sufficient scientific basis exists to determine if the substance 
poses a problem to the population. This is critical because of the high 
cost to the community to remove these substances. New federally 
mandated drinking water regulations without Federal financial 
assistance will directly impact how much our customers pay for their 
water.

                                 <all>

</pre></body></html>
